<html>
<title> - WALLS AND WAIVERS: EXPEDITED CONSTRUCTION OF THE SOUTHERN BORDER WALL AND COLLATERAL IMPACTS TO COMMUNITIES AND THE ENVIRONMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
WALLS AND WAIVERS: EXPEDITED CONSTRUCTION OF THE SOUTHERN BORDER WALL 
       AND COLLATERAL IMPACTS TO COMMUNITIES AND THE ENVIRONMENT

=======================================================================

                     JOINT OVERSIGHT FIELD HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                             joint with the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             Monday, April 28, 2008, in Brownsville, Texas

                               __________

                           Serial No. 110-68

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
41-959 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                
        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington               Robert J. Wittman, Virginia
Mark Udall, Colorado                 Don Young, Alaska, ex officio
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall, II, West Virginia, 
    ex officio

                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Tom Cole, Oklahoma
Solomon P. Ortiz, Texas              Bill Sali, Idaho
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, April 28, 2008...........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     3
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................    12
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3
    Hunter, Hon. Duncan, a Representative in Congress from the 
      State of California........................................     6
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................    11
    Ortiz, Hon. Solomon P., a Representative in Congress from the 
      State of Texas.............................................    13
        Prepared statement of....................................    14
    Reyes, Hon. Silvestre, a Representative in Congress from the 
      State of Texas.............................................     8
        Prepared statement of....................................    10
    Tancredo, Hon. Thomas G., a Representative in Congress from 
      the State of Colorado......................................     5

Statement of Witnesses:
    Foster, Hon. Chad, Mayor, City of Eagle Pass, Texas..........    26
        Prepared statement of....................................    28
    Garcia, Juliet V., Ph.D., President, University of Texas at 
      Brownsville, and Southmost College.........................    33
        Prepared statement of....................................    35
    Jenks, Rosemary, Director of Government Relations, NumbersUSA    63
        Prepared statement of....................................    65
    McClung, John, President and CEO, Texas Produce Association..    84
        Prepared statement of....................................    86
    Merritt, Kenneth L., U.S. Fish and Wildlife Service (Retired)    87
        Prepared statement of....................................    89
    Neuhaus Schaan, Joan, Executive Director, Houston-Harris 
      County Regional Homeland Security Advisory Council.........    68
        Prepared statement of....................................    70
    Norris, Ned, Jr., Chairman, Tohono O'odham Nation............    29
        Prepared statement of....................................    31
    Pena, The Most Rev. Raymundo J., Bishop of the Diocese of 
      Brownsville................................................    54
        Prepared statement of....................................    55
    Perez, Betty, Local Private Landowner........................    57
        Prepared statement of....................................    59
    Peterson, Laura, Senior Policy Advisor, Taxpayers for Common 
      Sense......................................................    91
        Prepared statement of....................................    93
    Schultz, Rick, National Borderland Coordinator, U.S. 
      Department of the Interior.................................    16
        Prepared statement of....................................    17
    Taylor, George Zachary, National Association of Former Border 
      Patrol Officers............................................    97
        Prepared statement of....................................    98
    Vitiello, Ronald D., Chief Patrol Agent, Rio Grande Valley 
      Sector, Office of Border Patrol, U.S. Customs and Border 
      Patrol, U.S. Department of Homeland Security...............    21
        Prepared statement of....................................    23
Additional materials supplied:
    Herron, John S.C., Director of Conservation Programs, The 
      Nature Conservancy of Texas, Statement submitted for the 
      record.....................................................   116
    Purohit, Sandra, Government Relations, Defenders of Wildlife, 
      Statement submitted for the record.........................   117
    List of documents submitted for the record...................   129


OVERSIGHT FIELD HEARING ON ``WALLS AND WAIVERS: EXPEDITED CONSTRUCTION 
 OF THE SOUTHERN BORDER WALL AND COLLATERAL IMPACTS TO COMMUNITIES AND 
                           THE ENVIRONMENT.''

                              ----------                              


                         Monday, April 28, 2008

                     U.S. House of Representatives

       Subcommittee on National Parks, Forests and Public Lands,

     joint with the Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                           Brownsville, Texas

                              ----------                              

    The Subcommittees met, pursuant to call, at 10:00 a.m., in 
Lecture Hall, Science, Engineering and Technology Building 
(SET-B), University of Texas--Brownsville, Brownsville, Texas, 
Hon. Raul Grijalva [Chairman of the Subcommittee on National 
Parks] presiding.
    Present: Representatives Grijalva, Bordallo, Faleomavaega, 
Ortiz, and Tancredo.
    Also Present: Representatives Napolitano, Reyes, and 
Hunter.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. The meeting will come to order. If people 
will have their seats. I will appreciate that so we can begin 
this hearing. Let me at the outset thank everybody for their 
attendance, thank our distinguished panels, of which we'll have 
three today. And I will begin with an opening statement. But 
before I do that, because of the number of panels and the 
constricted time in terms of some of my colleagues on the panel 
who need to be sure they make their travel arrangements, we're 
going to ask that all the panelists try to keep to a five-
minute oral presentation. Your full statements will be 
incorporated into the record, and any extraneous material you 
wish to include, the record will remain open for 10 days for 
that material.
    And as much as I hate to say this, given the fact that 
we're all Members of Congress and time restrictions are of 
little effect on us, we will also insist that we keep our 
opening comments to five minutes and our questioning of the 
witnesses to five minutes so that all of us have an opportunity 
to hear the responses of our witnesses.
    Let me begin by saying that this is a joint hearing of the 
Natural Resources Subcommittee on National Parks, Forests and 
Public Lands, and the Subcommittee on Fisheries, Wildlife and 
Oceans, and that this hearing come to order. I will ask that 
all the members present at the outset and those members that 
are not part of these Subcommittees or the Natural Resources 
Committee be permitted to sit on the dais. Hearing no 
objection, so ordered.
    As I already thanked the witnesses, let me say that the 
issue before the Subcommittee today is a significant one, and 
the insight offered by our witnesses will be enormously 
helpful. Let me also thank all my colleagues for being here 
today. I would point out that on the dais we have a full 
Committee Chairman, five Subcommittee Chairs, a full Committee 
Ranking Member, and two former contenders for the Republican 
Presidential nomination. And----
    Mr. Hunter. We've got a quorum.
    Mr. Grijalva. In particular, let me say a special word of 
thanks to Congressman Solomon Ortiz for hosting this meeting 
and for the courtesy and generosity of him and his staff to 
those of us that are not from the community and are here for 
this hearing.
    The title of today's hearing is ``Walls and Waivers: 
Expedited Construction of the Southern Border Wall and the 
Collateral Impacts on Communities and the Environment.'' It 
certainly is a mouthful. But it is a mouthful because the issue 
we are discussing today is enormously complex and it involves 
immigration policy, security policy, economics, culture, 
history, budget policy, natural resource protection, and much 
more. And it is that level of complexity that makes the current 
policy, and the waivers being used, so deeply disappointing.
    To examine the history and the culture of the Southwest, to 
examine its fragile and unique ecosystem, to examine the 
economic and the social factors influencing immigration, and to 
examine the pressing need for our national security, and then 
to decide the only policy solution is a 700-mile fence and a 
wall is simply a failure of leadership.
    The wall is not a solution. In my mind it's a surrender. 
This wall is an admission of defeat by this Administration and 
the Congress in the face of an important public policy 
challenge. Likewise, to examine the myriad of laws which 
protect the air we breathe, the water we drink, and the 
people's right to know and to participate in the policy process 
and then to decide that the only solution is to waive those 
laws completely is an abdication of our responsibility.
    Some might argue that the simple solutions are often the 
best, and, generally, I would agree. But our current approach 
to this issue is not simple, it's simplistic. And, therefore, 
it is a disservice to the American people, who require, at this 
urgent time in our history, more than symbolic initiatives.
    Today's hearing will focus not only on the negative 
collateral impact of the fragile southwestern environment but 
also the people and the economy in this area. However, because 
of the haste and the lack of foresight that has categorized 
this process so far, we will only scratch the surface of the 
real harms the proposed wall will cause.
    It is my hope that today's discussion might be another step 
toward a more thoughtful, more comprehensive, and more 
effective approach to balancing our many, many competing goals 
along the border, which properly include the security and 
safety of our borderlands.
    It is now my pleasure to recognize the Chairwoman of our 
Subcommittee on Fisheries, Wildlife and Oceans for any opening 
comments she may have. Ms. Bordallo.
    [The prepared statement of Mr. Grijalva follows:]

          Statement of The Honorable Raul Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Good morning. This joint hearing of the Natural Resources 
Subcommittee on National Parks, Forests and Public Lands and the 
Subcommittee on Fisheries, Wildlife and Oceans will come to order.
    I ask unanimous consent that all Members of Congress in attendance 
here be allowed to join the Members of the Subcommittees on the dais. 
Hearing no objection, so ordered.
    Let me begin by thanking the witnesses who will be testifying 
today. The issue before the Subcommittees today is a significant one 
and the insights offered by our witnesses will be enormously helpful.
    Let me also thank my colleagues for being here today. I would point 
out that on the dais we have a Full Committee Chairman, five 
Subcommittee Chairs, a full Committee Ranking Member and two former 
contenders for the Republican Presidential nomination.
    In particular, let me say a special word of thanks to Congressman 
Solomon Ortiz for hosting this meeting here in his Congressional 
District.
    The title of today's hearing is: Walls and Waivers, Expedited 
Construction of the Southern Border Wall and Collateral Impacts to 
Communities and the Environment. That title is certainly a mouthful but 
that is because the issue we are discussing today is enormously 
complex--it involves immigration policy, security policy, economics, 
culture, history, budget policy, natural resource protection and more.
    And it is that level of complexity that makes the current policy--
and the waivers being used to pursue it--so deeply disappointing. To 
examine the history and culture of the Southwest, to examine its 
fragile and unique ecosystems, to examine the economic and social 
factors influencing immigration and to examine the pressing need for 
our national security, and to then decide that the only policy solution 
is a 700 mile long wall is simply a failure of leadership.
    This wall is not a solution--it is surrender. This wall is an 
admission of defeat by this Administration and the Congress in the face 
of an important public policy challenge.
    Likewise, to examine the myriad laws which protect the air we 
breathe, the water we drink, and the people's right to know and to 
participate in the policy process, and to then decide the only solution 
is to waive those laws completely, is simply an abdication of our 
responsibility.
    Some might argue that simple solutions are often the best, and I 
would agree. But our current approach to this issue is not simple, it 
is simplistic--and therefore it is a disservice to the American people.
    Today's hearing will focus not only on the negative, collateral 
impacts on the fragile southwestern environment, but also on the people 
and economy of this area. However, because of the haste and lack of 
foresight that has characterized this process so far, we will only 
scratch the surface of the real harms the proposed wall will cause.
    It is my hope that today's discussion might be another step toward 
a more thoughtful, more comprehensive, and more effective approach to 
balancing our many competing goals along our borders.
                                 ______
                                 

  STATEMENT OF THE HON. MADELEINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. I thank you very much, Chairman Grijalva. I 
am pleased to join you this morning in co-chairing this 
important oversight field hearing on matters which generate 
sharply divergent opinions among Members of Congress and within 
the American public. I would also like to thank the president 
of the University of Texas at Brownsville, Dr. Juliet Garcia, 
and her staff for their gracious hospitality and assistance in 
hosting and coordinating this joint field hearing. I also want 
to thank you, Chairman Grijalva, and our colleague, Congressman 
Solomon Ortiz, for their leadership on this issue. And I 
commend our other colleagues for their sincere interest in this 
matter and for their participation in today's hearing.
    Few people would challenge the position that the Federal 
government has a fundamental responsibility to secure our 
nation's borders. However, the methods by which our borders are 
secured and the manner by which the Federal government 
implements this strategy are also fundamental to the public's 
acceptance and the government's success in meeting this 
responsibility. Our free and open system of representative 
government is built upon the tenets of public participation, 
robust debate, transparency, and public accountability in 
decision making.
    Granted, abiding by these tenets often can mean delays, 
extra costs, and, at times, legal challenges. Nonetheless, I 
believe that the only way our government can succeed and endure 
is if the people themselves feel vested in the important 
decisions that must affect their daily lives.
    Public involvement in government decision making is just as 
important on the Island of Guam, which I represent in the U.S. 
Congress, as it is here along the southern border of Texas. At 
present the Department of Defense is preparing to relocate 
8,000 Marines and their families from their current base on 
Okinawa to Guam. This move would cost $14 billion. Constituents 
in my district desperately want to be kept informed of this 
major project that will affect their lives, yet their 
legitimate desire to be heard is no different than that of the 
people in the communities here in Texas, New Mexico, Arizona 
and California that will be affected by construction of a 
southern border wall.
    We need to understand the practical implications of what it 
will mean to our communities and our environment to live on a 
daily basis with a border wall, to the extent that this hearing 
serves as a forum for people finally to be heard by their 
government, and I am honored to provide that opportunity and I 
look forward to hearing from our witnesses. I thank you, Mr. 
Chairman, and I do ask for unanimous consent to enter into the 
record a statement and additional materials submitted by The 
Honorable Eddie Lucio, Jr., a Senator in the Texas State 
Senate.
    Mr. Grijalva. Without objection.
    [NOTE: The statement submitted for the record by Senator 
Lucio has been retained in the Committee's official files.]
    Mr. Grijalva. Let me now turn to the Ranking Member, a 
member of the full Natural Resources Committee, the gentleman 
from Colorado, Mr. Tancredo, for comments.

 STATEMENT OF THE HON. THOMAS G. TANCREDO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tancredo. Thank you, Mr. Chairman. I sincerely 
appreciate your holding this hearing for our Subcommittee today 
because border security, or lack thereof, is an issue that has 
far-reaching environmental impacts, and I am pleased that we 
are finally taking time to address it. The impact of mass 
illegal immigration on national security, on economic security, 
on cultural cohesiveness and the rule of law have tended to 
characterize the debate up to this point. On the other hand, 
environmental degradation, the safety of our national parks and 
natural resources, and the preservation of the wilderness areas 
rarely have been considered despite the fact that roughly 43 
percent of the border with Mexico is Federal land.
    In the 1990s we used fencing to secure the high-volume 
corridor in San Diego and El Paso, but we left the vast tracts 
of border vulnerable. The resulting shift in illegal alien 
activity in areas without fencing is now threatening to destroy 
Federal wildlife refuges and the treasured national monuments. 
Make no mistake, this damage continues today and will only 
worsen if we do not act to protect these areas with fencing and 
infrastructure.
    Illegal aliens and smugglers have created hundreds of new 
trails and roads while crossing borderlands, and in doing so 
destroyed saguaro cactus and other sensitive vegetation that 
can take decades to recover, including habitat for endangered 
species. These roads and trails disturb wildlife, cause soil 
erosion and compaction, along with the hundreds of vehicles 
abandoned by smugglers which are found on Federal lands each 
year and are not only expensive to remove, but towing them from 
remote areas can result in additional damage.
    Tons of trash and human waste are left behind each year, 
affecting wildlife, vegetation and water quality. I'm sure most 
of us on this panel, many of us in this room, have seen sites 
where after a period of time literally sometimes thousands of 
people have gathered and left tons of trash only to despoil the 
land and provide a danger to the wildlife in the area and to 
the cattle that are being raised in the area.
    The risk of fires is increased from migrants' traffic as 
well. Illegal aliens start warming fires and cooking fires and 
then leave them unattended, and extinguishing those fires has 
added a degree of danger--as if that task needs to be even more 
hazardous. Just last week a fire started in the Coronado 
National Forest. Because of the established dangers and well-
known routes for illegal immigration and drug-running through 
this area, a law enforcement presence was required to protect 
the firefighters. This is a common practice out there and an 
all-too-common activity.
    The ecological impacts of uncontrolled illegal immigration 
on the national forests and parks along our southwest border 
are no secret. The GAO recently documented some of the 
challenges faced by Federal agencies tasked with managing our 
land. As a member of the Natural Resources Committee I helped 
commission the June 2000 report entitled ``Border Security: 
Agencies Need To Better Coordinate Their Inner Strategies and 
Operations on Federal Land.'' The GAO found that illegal border 
activity, especially alien border crossings and drug smuggling 
on Federal lands and private lands in the Southwest have risen 
sharply since the mid-1990s, creating previously unforeseen 
problems for land management agencies, posing new dangers to 
law enforcement officers, visitors, employees, and the 
environment.
    I note with dismay that despite the broad public interest 
and 75 percent support for additional border fencing, the 2009 
budget for the cost of the Border Patrol contains no new 
funding for border fences and barriers beyond the the Secure 
Border Initiative's dubious commitment to technological 
solutions. Only 168 miles of the 370 miles of planned 
construction of fencing has been completed through March of 
2008, along with the 135 miles of the planned 300 miles of 
vehicle barriers. In 2008 we will have 370 miles of border 
fencing on a 1,950-mile Southwest border.
    I hope we can continue to work together to expand our 
border security through fencing and infrastructure that has 
proven its effectiveness. Our Federal lands deserve this 
protection. Ultimately, both wilderness and property owners are 
only as secure as our weakest link. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. And before Mr. Hunter speaks and--
he asked for the privilege and we're happy to accommodate that. 
In my introductions I failed to include the committees that my 
colleagues chair. Obviously Congressman Reyes, Chairman of the 
full Select Committee on Intelligence; Ms. Grace Napolitano, 
who is with us today, from Natural Resources, our committee. 
She's the Chair of the Subcommittee on Water and Power. Mr. 
Ortiz, Armed Services Readiness and Military Construction 
Subcommittee Chair. And our good friend from American Samoa, 
Mr. Faleomavaega, who is the Chair of the Subcommittee on Asia, 
the Pacific, and the Global Environment under Foreign Affairs. 
And we're proud to have them with us today. And with that, let 
me turn to our colleague Mr. Hunter for any comments he may 
have. Sir.

   STATEMENT OF THE HON. DUNCAN HUNTER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Well, thank you, Mr. Chairman. Thank you for 
inviting me to the hearing and letting me participate even 
though I'm not a member. And I want to--it's kind of neat to 
have such great colleagues here at this table along with you 
and Mr. Tancredo; my great colleague from the Armed Services 
Committee, Silvestre Reyes, who I regard as probably the 
greatest Border Patrol chief in history and a great Chairman of 
the Intelligence Committee in the House of Representatives; Mr. 
Faleomavaega, my good friend; and Grace Napolitano, my 
colleague from California; and, of course, Ms. Bordallo, who 
represents Guam so ably; and Solomon Ortiz, who has given so 
much to the Armed Services Committee in issues of security. So 
it's good to be with you.
    And, you know, one reason I asked to be here is because I 
wrote the border fence law of 1986--or of 2006. It was signed I 
believe October 26 of 2006 by the President. And originally I 
wrote it to mandate almost 854 miles of double border fence 
across the smuggling corridors of the Southwest. And the reason 
I did that was simple. First, the fence was necessary. And I 
found that in my home district in San Diego--and I've got a 
couple of pictures up there in front that show the San Diego--
the smugglers' corridor between San Diego to Tijuana that 
existed before we built that fence, and then a picture after we 
built the fence. And that's a double fence with a high-speed 
road running between it.
    And when we built that fence, we did it because the border 
was absolutely out of control. We had 300 drug trucks a month 
roaring across the border loaded with cocaine and marijuana for 
America's kids. We had massive smuggling of illegal aliens. We 
had massive crime. In fact, we had criminal gangs that roamed 
the border and went back and forth robbing and raping and 
murdering, an average of 10 to 11 murders a year in that deadly 
border area where nobody would go down from either side of the 
border as the night went down because of the gangs.
    And it was so bad that we finally had to put a plainclothes 
police unit in who dressed like illegal aliens and waited for 
the border gangs to attack them so that they could protect the 
people who were coming across from being murdered or hurt.
    When we built the double fence, we stopped all the drive-
through drug smuggling cold. We stopped those 300 drug trucks a 
month. We put the border gangs out of business--and many of 
them were armed with automatic weapons--because they lost their 
ability to move back and forth and that's how they found their 
security. If they were pursued from the north by law 
enforcement, they would step south across the border. If they 
were pursued from the south by the Mexican law enforcement 
groups, they would step north across the border.
    When we put up the double border fence, we took away their 
mobility and that put them out of business. The drive-through 
drug smuggling went down to zero. The murders on our sector of 
the border went down to zero. The smuggling of people and 
narcotics was reduced from over 202,000 arrests before we put 
the border fence in to less than 9,000. That's a reduction of 
more than 90 percent.
    And when we built the fence in Yuma over the last couple of 
years, we've seen a reduction there from an astounding figure 
of 138,000 arrests to down to less than 4,000. That's a 
decrease of more than 95 percent.
    So the first point I would make simply, Mr. Chairman, is we 
needed the fence. And, in fact, my great friend Silvestre Reyes 
was one guy who came before our committee as the Border Patrol 
chief and testified in favor of the fence when we were having 
such a tough time getting it through in the 1990s.
    Now, the fence is necessary, and I think the statistics 
show very clearly that the fence works. And it's necessary for 
a couple of reasons beyond those we saw in San Diego. Since 9/
11 we have to be worried about knowing who comes into this 
country and what they bring with them when they come in.
    Now, we caught over 58,000 folks coming across from Mexico 
last year who were not citizens of Mexico. We caught over 800 
people from Communist China. We caught 14 people from Iran, and 
we caught three people from North Korea. That means anybody in 
the world who has a television set knows that the way to get 
into the United States is no longer through the airports. You 
get to Mexico--if you have a few bucks you can do that--and you 
come across that border into the United States. We have to know 
who is coming into this country and what they're bringing with 
them.
    Now, the question comes up about the waivers. You know, I 
wrote the waiver language also that was inserted in the REAL ID 
Act. And I want to tell you, Mr. Chairman, why I did that. The 
last piece of fence that we tried to build in San Diego was 
Smugglers Gulch. That's a 4-mile stretch where cocaine and 
people continued to be smuggled after we built the rest of the 
double border fence. And we started to get sued by 
environmentalists.
    We had one action by the environmentalists that required a 
year of study to see if the gnatcatcher would fly over. The 
gnatcatcher is a little bird. It lives on both sides of the 
border. But we had to delay the fence for one year to see if 
the gnatcatcher would fly over the 10-foot high fence. After we 
determined that, yes, indeed, the little critters could get 
airborne for 10 feet, we then had a series of stalling actions 
by the California Coastal Commission, by Fish and Wildlife and 
other regulatory agencies, and by groups suing. And it took us 
12 years; 12 years to get that 4 miles of fence started at 
Smugglers Gulch. At that rate it would take us 2 or 300 years 
to get the Southwest border fence built.
    And that, Mr. Chairman, is the reason why I wrote the 
waiver language that allows the Homeland Security Secretary, 
Mr. Chertoff, to make those waivers. Now, he's had--despite the 
fact that he has waived--he's invoked and triggered the 
waivers, he has had lots of mitigating actions that have been 
initiated for fish and wildlife. He's had hundreds of town 
meetings with people along the border, with groups, with office 
holders. I think he's done the right thing.
    And, finally, I would say this. I think that every family 
in America who has been touched by the tragedy of illegal drugs 
has a stake in getting this border fence built and built very 
quickly. Thank you very much.
    Mr. Grijalva. Thank you. And let me extend the privilege to 
my colleagues. Let me begin with the Chairman, Mr. Reyes, for 
any comments you might want to add as an opening statement, 
sir.
    Mr. Reyes. Well, thank you, Mr. Chairman. I have a full 
statement for the record.
    Mr. Grijalva. No objection.

  STATEMENT OF THE HON. SILVESTRE REYES, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Reyes. Thank you. Mr. Chairman and Chairwoman Bordallo 
and my great friend Congressman Ortiz and also Dr. Garcia, good 
to see you again. Good to be back here. Across the way we have 
the sector chief, Chief Vitiello. Thanks for your work and 
please thank all the Border Patrol agents for the work that 
they do to keep us safe. I know how hard they work. I know how 
dangerous that job can be. And I know the circumstances in 
which you find yourself here before this hearing. So thank you 
for being here and thank you again for your leadership.
    Mr. Vitiello. Thank you.
    Mr. Reyes. And to my very good friend and someone that I 
first met right here in Brownsville, Congressman Hunter, who 
was my Chairman on the Armed Services Committee, and who is 
correct, I did testify before one of the committees when I was 
chief in El Paso about the unique circumstances and why fencing 
was necessary out in Congressman Hunter's district at the time 
in California.
    I've always said that it's important that we consider the 
tools that are necessary with which to keep our agents safe, 
with which to make their job much more effective. But fencing 
should be utilized where it makes sense. I've always been asked 
how much fencing do we need on the southern border. Because 
everybody always talks about the southern border and forgets 
that we have a border on the north as well. And I've always 
said probably 10 percent of the border needs to--we need to 
consider the potential for fencing.
    I certainly don't think that we need 700 miles of border. I 
think it's ludicrous to even contemplate 2,000 miles of border. 
We're having many issues with the areas where we have installed 
border west of El Paso where the fence is so high and so heavy 
that it's now splitting apart and, literally, an individual can 
come through that fencing.
    It's a separate issue when we talk about vehicles. It makes 
sense to put a system in that prevents vehicles from running 
through, trucks loaded with narcotics and other things.
    I also believe very strongly that we're better off by 
working with the Mexican government and working toward a 
solution where we both co-manage the border. It makes--to me it 
makes better sense. I always prioritize. I was a chief here for 
nine years and three-and-a-half years in El Paso before 
retiring, and I've always believed that it's important to 
prioritize working with your counterparts across the border. I 
know that the chief, and really all chiefs along the nine 
sectors with Mexico, believe that that's also an essential 
priority that is important.
    Right now we're working on what we are calling the Merida 
initiative. It's a window of opportunity to work with Mexico to 
help them with training and with equipment and also 
intelligence communications equipment so that they can work 
with our Border Patrol. And we're also looking at having them 
reinstate their own Border Patrol, which they had in place up 
until the early '60s.
    So there are ways that we can work toward a better-managed 
border. But certainly 700 miles of border or 2,000 miles of 
fence to me is not the solution. We need to understand that 
there is a unique relationship between Mexico and the United 
States. We have the best law enforcement officers in the world 
wearing that green uniform, and they're the most capable.
    The chief here and chiefs along the border should be 
consulted by DHS and by Congress about what works and what 
doesn't. If we were to do that, we wouldn't have to spend $50 
billion on 700 miles of border. We wouldn't have to spend money 
that we're going to go back and reinvest in maintenance because 
it's too high, too heavy, and splitting apart under its own 
weight.
    And the last thing I want to say is that communities like 
the one that we're in here--we just came from talking to the 
director of the Audubon, and he had some people there from 
Seattle who told us that they're able to see the area and they 
are able to enjoy a habitat that is better than even Central 
America. These are the things we're going to give up if we 
succumb to the fear that we need 700 or 2,000 miles of border. 
We need common sense is what we need. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Reyes follows:]

    Statement of The Honorable Silvestre Reyes, a Representative in 
                    Congress from the State of Texas

    Good morning. I want to begin by thanking Chairman Raul Grijalva 
and Chairwoman Madeleine Bordallo for convening this important hearing. 
I also want to thank my good friend and colleague who represents the 
city of Brownsville, Congressman Solomon Ortiz.
    Thank you for the opportunity to join you. Today's hearing is 
extremely important to those of us who represent border communities, 
and the issues we will discuss are especially important to the 
residents of these communities who will suffer the consequences of 
political games played by a Republican-led Congress.
    Before coming to Congress, I served for 26 1/2 years as a Border 
Patrol agent, thirteen of which as a Sector Chief, first in McAllen, 
Texas and later in El Paso. On a daily basis, I was forced to deal with 
the realities of border enforcement and illegal immigration. Our 
mission was to protect America's 6,000 miles of international land 
border and 2,000 miles of coastal waterways and to detect and prevent 
people from entering the United States illegally.
    During the course of my career, I patrolled the rough terrain of 
the United States-Mexico border region, supervised thousands of hard-
working, dedicated Border Patrol agents, and did everything within my 
power to strengthen our borders and reduce illegal immigration. It was 
a responsibility that my Border Patrol colleagues and I took very 
seriously.
    Nobody understands America's borders or has a greater interest in 
securing our nation's borders than those of us who live and work along 
them every day. That is why since coming to Congress, I have lobbied my 
colleagues for greater resources for border security, including 
additional Border Patrol agents, equipment, and technology.
    As a Border Patrol chief, I supported strategic placement of 
fencing along the border to assist with operational control. However, I 
do not support fencing along the entire border or even 370 miles for 
that matter. I voted against the Secure Fence Act of 2006, which was a 
perfect example of political forces masquerading as security measures 
during Republican control of Congress.
    I have always been a vocal advocate for local community concerns 
which must be taken into account before the Department of Homeland 
Security begins construction on new border fencing. On a number of 
occasions, I arranged Congressional briefings to ensure other Members 
of Congress received the proper information regarding the fence. 
Recently, however, the concerns of the border have been overlooked and 
often disregarded.
    When border communities raised legitimate concerns about an issue 
of great local importance a few months ago, Department of Homeland 
Security Secretary Chertoff remarked that border communities ought to 
``grow up.'' This ``grow up'' comment was a disappointing message which 
suggests a lack of understanding of the dynamic nature of border 
communities. Most recently, the Secretary's blatant disregard of 
community concerns was once again demonstrated by his use of a waiver 
authority to set aside more than 30 laws in order to construct the 
barrier.
    I recently joined 13 of my colleagues in submitting an amicus brief 
asking the Supreme Court to hear an appeal filed by the Sierra Club and 
the Defenders of the Wildlife. I firmly believe that the waiver 
authority was intended to be used as last resort. Instead, the 
Department has taken the easy way out and shirked its responsibility to 
faithfully execute the laws of the land.
    With that, thank you again for allowing me to participate today. I 
look forward to hearing from the other Members of the panel and our 
witnesses.
                                 ______
                                 
    Mr. Grijalva. Thank you. Thank you very much. Let me now 
turn to my colleague on the Natural Resources Committee, 
Congresswoman Grace Napolitano from California, for any 
comments she may have. Madam Chair.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chair. I will submit some 
comments for the record. But, first of all, let me say I'm glad 
to be home. I was born and raised and attended Brownsville High 
School and in '54 graduated and I am partially a part of the 
Texas Southmost College as recognition mentor. So it's good to 
be home.
    I do associate myself with the remarks of Congressman Reyes 
in regards to the words about the necessity of a fence and the 
protection of the men and women who work on our Border Patrol. 
And I've known this for many years--since I was in the 
California State House and conducted a three-year study on 
immigration--that we have a failed policy in immigration. So 
you will consider--you will--may as well get used to the fact 
that nothing is going to change until immigration policy is 
taken care of, because then we would be able to hold that flow. 
We should be going after people who pay these individuals under 
the table and are not honest with them.
    The deportations, unless they're formal, we don't have 
enough jails to put people in, Federal jails. And it's 
unfortunate that we have the fence being considered in the 
south but not on the Canadian border. But where does the 
concern--the terrorists that supposedly came through the 
Canadian border and not through the Mexican border. And, 
unfortunately, we seem to take a very dim view of people that 
look like me and the rest of us up here, brown skin.
    I am concerned because it is very hypocritical to say that 
we do not want that cheap labor that keeps our economy going in 
the U.S. And, unfortunately, we don't want to render services, 
we don't want to be able to take care of them, they should go 
home if they get sick. Unfortunately, our laws are not made to 
help those that help our economy and that help us in the United 
States.
    So not only is the fence ludicrous--and I agree, we need to 
stop that ability for people to come across, especially when 
they're smugglers, when they're rapists, when they're people 
who break our laws. Those are the ones we do not want in the 
United States. But people who come and help our economy, pay 
their taxes, send their kids to school, and are law abiding, I 
have no problem with them continuing to be a part of the U.S. 
economy, which is what makes this country so great.
    Mr. Chair, we ought to be open and transparent, have honest 
dialogue. And while I was reading some of these submissions, 
that some of the dialogue was only written, was not made 
public, was not open, was not transparent, I think that's 
wrong. I want to see that hopefully this committee will ask for 
copies of those submissions by the general public.
    And we need to be able to, as Congressman Reyes did, work 
with our Mexican government to address some of these issues and 
be a little more perceptive of what really needs to be done in 
the border where the people who are suffering will be able to 
have input in the process. Thank you very much.
    Mr. Grijalva. Thank you. Let me, if I may, to the people in 
the audience, I understand as much as anybody else the 
importance of this issue and the level of emotion, concern and 
frustration that this issue brings to many of us. I would ask 
you if you could refrain--you should refrain from the applause 
or comments from the audience. The decorum of this hearing--
it's an important hearing and I would hope that you will join 
with me in respecting that decorum, respecting the panelists. 
And as much as you agree or disagree with a comment that's made 
here, I would hope that you would refrain from expressing that 
publicly. Thank you.
    Let me now turn to my colleague also from the Natural 
Resources Committee, Mr. Faleomavaega, for any comments, the 
gentleman from American Samoa. Sir.

  STATEMENT OF THE HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN 
         CONGRESS FROM THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. I also would 
like to submit for the record my opening statement, and I also 
want to commend you and our Madam Chair Bordallo for calling 
this joint hearing. I would be remiss if I would not also 
express my deepest appreciation to our colleague, Congressman 
Solomon Ortiz, whose district this is and for which hospitality 
and courtesy has been extended to us, I deeply appreciate; and 
Dr. Garcia, who's president of this great university, for all 
the goodness in allowing us to hold this hearing in this 
facility.
    Mr. Chairman, also I want to note a special sense of 
appreciation of my colleagues Congressman Hunter and 
Congressman Tancredo. They will not be with us next Congress, 
of course, assuming that we get reelected, which we don't know. 
But I do want to commend them. Philosophically, we have very, 
very different ideas--I acknowledge these--in terms of what 
direction our country should go. But, nevertheless, I have the 
highest respect for them and they will be sorely missed and--
serving as members of this great institution in the House of 
Congress.
    Mr. Chairman, I would like to submit for the record with 
the members' consent the 37 Federal laws that Secretary 
Chertoff as of April 1 of this year has waived to allow him to 
conduct this border fencing construction project. We have an 
unwritten rule, Mr. Chairman, as I'm sure that all of our 
colleagues tend to agree--at least I certainly agree--that we 
should always respect the sentiments and the views of the 
member whose district he or she represents.
    And we're here specifically to find out what the leaders 
and the citizens of this great city of Brownsville and within 
the district of the representation that Congressman Ortiz 
offers. I really think that our colleagues should pay close 
attention on the sense of the community. And I think we do have 
some very, very critical issues in the fact that we've got this 
2,000-mile borderline between Mexico and the United States.
    I, for one, as I'm sure my colleagues agree, that what 
Congressman Hunter has shared with us about the serious 
problems between California and Mexico with the drug 
trafficking and all the things that go on there, there should 
be some sense of--you know, of border fencing, if that's the 
purpose. But when it comes to the fact that this border fencing 
thing seems to have little cracks in between, that there seems 
to be some exceptions, that this is really not a fence for a 
2,000-mile stretch, but little potholes that I would call it--
why exceptions?
    And I really--it's my intention, Mr. Chairman, in the 
course of this hearing that I want to look at closely also on 
the treaty relationship existing between Mexico and the United 
States on the borders. And if I'm reading this right about 
Secretary Chertoff given the right to waive even the borders 
existing under the treaty relationship between Mexico and the 
United States, we have some very serious problems here. And it 
will definitely be my intent to share this concern with the 
Chairman of the House Foreign Affairs Committee, to pursue this 
as to whether or not we're honoring our treaty relationship 
with Mexico when it comes to considering the borderline itself.
    So with that, Mr. Chairman, I do want to commend you and 
Madam Chairman Bordallo for calling this hearing. I welcome our 
witnesses and look forward to hearing from them. Thank you, Mr. 
Chairman.
    Mr. Grijalva. Thank you. Last, but certainly not least, let 
me turn to my colleague in whose district we are having the 
privilege of holding this hearing. Mr. Ortiz, any comments? And 
thank you for your hospitality.

  STATEMENT OF THE HON. SOLOMON P. ORTIZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Ortiz. Thank you, Mr. Chairman. Before I open my 
statement I would like to have unanimous consent to enter into 
the record statements from our local community for the record.
    Mr. Grijalva. Without objection, sir.
    [NOTE: A list of documents retained in the Committee's 
official files can be found on the last page of this hearing.]
    Mr. Ortiz. And I'd like to thank all the members who are 
here with us today. Chairman Hunter, of course, was my Chairman 
for many years on the House Armed Services Committee. Tancredo 
and I serve on the Natural Resources Committee. And I'd like to 
thank Chairman Bordallo and Chairman Grijalva for blocking this 
time so that we could be here in Brownsville. Chairman Reyes 
and I have known each other for many years when he was the 
Border Patrol sector chief and I was sheriff in Corpus Christi. 
Mr. Faleomavaega and Grace--you know, I think that Brownsville 
is blessed to have two congressmen, Grace and I, to represent 
this area.
    But let me say that every day in Congress we hold committee 
hearings and subcommittee hearings on different issues, topics 
and pieces of legislation. Today this hearing is addressing 
something that will directly impact the culture and the 
livelihood of our South Texas communities, the proposed 
building of the wall along the border.
    The goal here is to give the public a voice and an avenue 
to discuss their concerns over the border wall and how this is 
going to impact our sensitive environmental lands. I am 
encouraged by all those in attendance today, which shows how 
important this issue is and the vast number of people who will 
be affected if this wall is built.
    You know, securing our nations borders is one of Congress's 
main priorities. We need to address illegal immigration, drug 
trafficking, and the violence that happens on our communities, 
both on the border and everywhere else in the United States of 
America. This problem, however, would not be solved by 
constructing a wall that tears through our public and 
historical lands, forces our citizens to surrender their 
property, and reverses all the work and investment that 
Congress and the local community have done to protect the 
natural environment.
    Now, take, for instance, the very property we're meeting on 
right now. Right behind this building we have the historic Ft. 
Brown. It served as an integral battleground of the Mexican-
American War, and troops stationed there fought in the last 
Civil War battle. The proposed border wall would put Ft. Brown 
on the Mexican side. Would we put a wall to divide the 
battlefield at Gettysburg?
    The Sabal Palm Audubon Center here in Brownsville, home to 
rare birds and endangered wildlife, may also end up on the 
Mexican side of a planned wall. It is also disturbing that the 
government is fooling citizens by not giving them a fair market 
value on the lands it intends to seize. Yet our communities are 
not even being given the opportunity to truly voice their 
concerns.
    The people along the American borders are the most impacted 
by border security policy. We all support border security, but 
simply ask for smart policies. The funding for the wall and the 
process used to begin its construction is not--in my opinion 
and the opinion of many people, is not a smart policy.
    By now we have all heard about the Department of Homeland 
Security's decision to waive 36 laws that protect our health, 
environment and quality of life with the stroke of a pen. These 
36 laws, some of them were enacted back in 1918, and some of 
them eight, 10 years ago. If they're able to waive these 36 
laws, what is next, that you won't be able to buy a diesel 
truck because it's too expensive to buy the gasoline? What is 
the next law that they're going to waive?
    And I know that my Chairman controls the time very close to 
his heart, so my time is about to run out. I want to thank the 
panelists for joining us this morning. President Garcia, thank 
you for allowing us on this beautiful university, and I hope 
that it will remain intact. Thank you so much. Thank you.
    [The prepared statement of Mr. Ortiz follows:]

   Statement of The Honorable Solomon P. Ortiz, a Representative in 
                    Congress from the State of Texas

    I'd like to thank all of my good friends and colleagues, especially 
Chairwoman Bordallo and Chairman Grijalva, for organizing and attending 
this hearing and taking time out of their busy schedules to visit South 
Texas.
    Every day in Congress, we hold committee and subcommittee hearings 
on different issues, topics, and pieces of legislations.
    Today, this hearing is addressing something that will directly 
impact the unique culture and livelihood of our South Texas 
communities--the proposed building of a wall along the border.
    The goal here is to give the public a voice and an avenue to 
discuss their concerns over the border wall and how it will impact our 
sensitive environmental lands.
    I am encouraged by all those in attendance today, which shows how 
important this issue is and the vast number of people who will be 
affected if this wall is built.
    Securing our nation's borders is one of Congress' main priorities. 
We need to address illegal immigration, drug trafficking, and the 
violence that happens on our communities--both on the border and 
everywhere else in America.
    These problems, however, will be not be solved by constructing a 
wall that tears through our public and historical lands, forces our 
citizens to surrender their property, and reverses all the work and 
investment the Congress and local community have done to protect the 
natural environment.
    Take for instance the very property we are meeting on right now.
    Right behind this building we have the Historic Fort Brown. It 
served as an integral battleground of the Mexican-American war and 
troops stationed there fought in the last Civil War battle.
    The proposed border wall will put Fort Brown on the Mexican side.
    Would we put up a wall to divide the battlefield at Gettysburg?
    The Sabal Palm Audubon Center here in Brownsville, home to rare 
birds and endangered wildlife, may also end up on the Mexican side of a 
planned wall.
    It is also disturbing that the government is bullying citizens by 
not even giving them a fair market value on the lands it intends to 
seize.
    Yet, our communities aren't even being given the opportunity to 
truly voice these concerns.
    The people along America's borders are the most impacted by border 
security policies. We all support border security, but simply ask for 
smart policies.
    The funding for the wall, and the process used to begin its 
construction, is not smart policy.
    By now, we have all heard about the Department of Homeland 
Security's decision to waive 36 laws that protect our health, 
environment, and quality of life with the stroke of a pen.
    The National Environmental Policy Act. The Clean Air Act. The 
Federal Water Pollution Control Act. The Farmland Protection Policy 
Act. Are these laws, some that have been on the books since 1900, not 
important enough to consider when we talk about building a border wall?
    In 2005, the Republican-controlled Congress granted DHS this power 
by including it into a bill that provided funding for our brave troops 
in Iraq/Afghanistan and relief to those suffering in the wake of 
Hurricanes Katrina and Rita.
    Is that what our federal government is reduced to? Slipping in 
provisions granting them overreaching authority into legislation that 
is aimed to support our troops abroad and our citizens suffering from 
natural disasters?
    This isn't the way the founders of our Constitution envisioned our 
government to be.
    There are many opinions on the issue of the border wall, and I 
sincerely believe Congress abdicated some of its responsibilities by 
giving DHS this blanket waiver authority.
    We live in a country ruled by checks and balances, and this 
decision by DHS will set a dangerous precedent.
    I know DHS wants to construct the wall by the end of the year, but 
we should be more concerned with being good stewards of the taxpayers' 
dollars and doing it right not fast.
    In neighboring Hidalgo County, DHS is working with the local 
officials to put together a plan that will fortify the deficient levees 
and fulfill the wall requirements.
    The long-overdo refortification of our region's levees would 
prevent the potentially disastrous damage a flood in the Rio Grande 
Valley could do.
    This is the type of coordination that needs to be ongoing with all 
groups, including those that are concerned about the environment.
    I therefore fully support Chairman Grijalva's Borderlands bill, 
which remedies this problem and gives DHS the flexibility to decide 
what approach is best for border security and allow for land managers, 
local officials and communities to be a part of the border security 
discussion.
    Again, I thank the Committee, my colleagues and all the witnesses 
for coming to South Texas to discuss this important issue.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Ortiz. And let me welcome the 
panel finally. I was trying to avoid us all doing that, but, 
oh, well. Let me ask you--let me at the outset let you know 
that--all the panelists know that we'll be swearing in the 
witnesses today. So pursuant to Clause 2 of House Rule 11, I 
ask that the witnesses on this panel please stand and raise 
your right hand and be sworn in. Please repeat after me.
    [Witnesses sworn.]
    Mr. Grijalva. Let the record indicate that the witnesses 
answered in the affirmative. You are now under oath and we can 
begin with the opening statements. Let me welcome all of you 
and begin the panel discussion with Mr. Rick Schultz, National 
Borderland Coordinator, Department of Interior. Welcome, sir. 
Your testimony.

  STATEMENT OF RICK SCHULTZ, NATIONAL BORDERLAND COORDINATOR, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Schultz. Thank you. Mr. Chairman, Madam Chairwoman and 
honorable members of the Subcommittees, I am Rick Schultz, the 
National Borderland Coordinator for the Department of the 
Interior. I appreciate the opportunity to provide the 
department's view on the construction of border security 
infrastructure along our nation's Southwest border.
    Mr. Grijalva. If I may, Mr. Schultz, if you want to bring 
the microphone closer to yourself. OK. Thank you.
    Mr. Schultz. How does this sound?
    Mr. Grijalva. Much better.
    Mr. Schultz. DOI and its agencies take very seriously the 
responsibilities to administer the uniquely beautiful and 
environmentally sensitive lands along the Southwest border. 
Recognizing their ecological and cultural value, we strive to 
maintain their character on behalf of the American people.
    Unfortunately, the safety of our visitors and employees on 
DOI lands has been compromised by drug trafficking and illegal 
immigration. These unsafe conditions were markedly illustrated 
within DOI by the tragic death in 2002 of Mr. Kris Eggle, a 
National Park Service Ranger. In addition, natural and cultural 
resources have been adversely affected by the illegal 
activities. These impacts include destruction of wildlife 
habitats and the dumping of trash and vehicles along the 
border.
    Due in part to our experiences, we recognize the need for 
our nation to enhance its border security. In this regard we 
acknowledge the border security issues facing the Department of 
Homeland Security, and believe they fulfill a critical mission 
for the nation.
    We have made it a priority to work closely with DHS as they 
seek to construct 670 miles of border fence by December of 
2008. In particular, we have strived to assist DHS in 
minimizing impacts on wildlife, ecosystems, and cultural 
resources.
    Building border infrastructure, an undertaking with 
numerous players and many moving parts, would present 
significant challenges even under normal conditions. These 
challenges are heightened given the short time frame mandated 
by law for completing border fencing.
    We have regular and open dialogue with DHS at several 
levels and have found them to be sensitive to DOI's mission. 
Where avoidance or minimization of impacts upon environmental 
and cultural resources was not possible, DHS has significantly 
mitigated these impacts.
    Still, there have been some challenges related to DHS's 
extremely compressed time frame and the complexity of the 
issues. These factors have challenged our field managers as 
they strive to fulfill their missions and uphold their 
statutory responsibilities. We very much appreciate their hard 
work, their concerns and their dedication as they address these 
difficult border security issues.
    When Secretary Chertoff recently invoked REAL ID Act 
waivers of certain environmental and DOI-administered statutes, 
he reaffirmed DHS's commitment to environmental stewardship. 
This commitment included mitigation funding up to $50 million 
for threatened and endangered species to offset impacts 
associated with pedestrian and vehicle fences. DHS also 
identified the need for wetland and cultural resource 
mitigation.
    As requested, my written testimony contains several 
examples that illustrate our efforts. These include cooperative 
efforts to remove the invasive salt cedar on DOI lands and 
Cocopah tribal lands for security purposes. They include DHS 
mitigation funding for several endangered species, including 
the Sonoran pronghorn, and they include the remediation of 
inadvertently damaged cultural resource sites. Collectively 
these projects reflect the DHS and DOI commitment to minimize 
the impact of border infrastructure on these natural and 
cultural resources.
    Without diminishing the value of the above efforts, the 
construction of border security infrastructure on DOI land 
results in a mixed bag of environmental benefits and adverse 
environmental effects. Although some of our ecological 
communities may recover, due to the infrastructure, the 
footprint of the fence and the associated access roads result 
in other adverse impacts. These impacts include inhibiting the 
movement of certain wildlife species, some of which are 
threatened or endangered species.
    Within national wildlife refuges and wilderness areas, our 
governing statutes prohibit us from permitting the construction 
of certain border security infrastructure. When we informed DHS 
of these facts, they ultimately chose to exercise their waiver 
under the REAL ID Act.
    Now, in an ideal world, the need would not exist to 
construct border fences to enhance our nation's security. In 
reality, however, Congress has directed DHS to construct this 
border security infrastructure. Our challenge has been 
achieving the above while maintaining the integrity of these 
ecologically and culturally sensitive lands. Although more 
needs to be done, we believe we're on the right track in 
developing open dialogue, tangible mitigation alternatives, and 
a strong relationship with our colleagues within DHS.
    And this concludes my remarks. And thank you, Mr. Chairman 
and Madam Chairman, for the opportunity to express our views.
    [The prepared statement of Mr. Schultz follows:]

      Statement of Rick Schultz, National Borderland Coordinator, 
                    U.S. Department of the Interior

    Mr. Chairman, Ms. Chairwoman, and Members of the Subcommittees, I 
am Rick Schultz, National Borderland Coordinator, Department of the 
Interior (DOI).
    I appreciate the opportunity to provide the Interior Department's 
view on the construction of border security infrastructure along our 
Nation's southwest border. As manager of one in every five acres of the 
United States, the DOI's land managing agencies, the Bureau of Land 
Management, the National Park Service, the U.S. Fish and Wildlife 
Service, and the Bureau of Indian Affairs, take very seriously our 
responsibility to administer uniquely beautiful and environmentally 
sensitive lands along the southwest border. Recognizing the significant 
ecological and cultural values of extensive lands managed by Interior 
near this border, we strive to maintain their character and fulfill our 
mission to protect and preserve these assets on behalf of the American 
people.
    The safety of both visitors and employees on DOI lands has been 
significantly compromised by drug trafficking and the illegal, cross-
border flow of people. These unsafe conditions were markedly 
illustrated by the tragic deaths of Mr. Kris Eggle, a National Park 
Service Ranger, at Organ Pipe Cactus National Monument in 2002 and of 
Luis Aguilar, a senior U.S. Border Patrol agent, earlier this year at 
the BLM's Imperial Sand Dunes Recreation Area in California. Many of 
the natural and cultural resources under our responsibility have also 
been adversely affected by the illegal activities. These impacts 
include but are not limited to destruction of wildlife habitats; 
trampling of vegetation and increased soil erosion; and the deposition 
of human trash and vehicles along the border, including within 
wilderness areas.
    We recognize the need for our Nation to enhance its border 
security. In this regard, we acknowledge the border security issues 
facing the Department of Homeland Security (DHS). DHS fulfills a 
critical mission for the Nation.
    Several years ago, DOI, USDA, and DHS recognized the need to 
coordinate management of border security with the management of DOI and 
USDA managed lands near the border. Consequently, a Memorandum of 
Understanding (MOU) between DHS, the Department of Agriculture, and DOI 
was entered into in 2006. This MOU, which is focused on land management 
and law enforcement related issues, has served to set the tone for 
ongoing dialogue and a positive relationship between DHS and DOI.
Consultation with DHS
    Due to our significant interests in the southwest border, Interior 
has made it a priority to work closely with DHS as DHS seeks to 
construct 670 miles of border fence by December 2008. In particular, 
Interior has strived to assist DHS in minimizing impacts on wildlife, 
ecosystems, and cultural resources. Building border infrastructure, an 
undertaking with numerous players and many moving parts, would present 
significant challenges even under normal conditions. These challenges 
are heightened given the short timeframe mandated by law for completing 
border fencing. Despite these circumstances, DHS has included Interior 
in discussions focused on constructing border security infrastructure 
in a manner that minimizes its impact upon environmental and cultural 
resources.
    Consultation between DHS and DOI on border environmental and 
cultural resource issues occurs both at the national and field levels. 
We have regular and open dialogue with DHS concerning a variety of 
issues. Recently, DOI established the position of National Borderland 
Coordinator, the position I currently occupy. My primary 
responsibilities are to work with DHS to address environmental and 
cultural resource issues that otherwise could not be resolved at the 
field level. My presence and involvement in border security activities 
have been well-received within DHS. This connection has helped 
strengthen the working relationship between our respective agencies.
    I have found both leadership and staff in DHS headquarters to be 
sensitive to DOI's mission, responsibilities, and related concerns. 
Where avoidance or minimization of impact upon environmental and 
cultural resources was not possible, DHS has demonstrated its 
commitment to mitigating these impacts. Several examples within this 
testimony illustrate this commitment.
    Still, there have been some challenges related to DHS's extremely 
compressed time frame, their use of several contractors and 
subcontractors, and the complexity of issues. These factors have 
challenged our managers as they strive to fulfill their missions and 
uphold their statutory responsibilities. In many cases, including the 
construction of the border fence within the Lower Rio Grande Valley, 
the infrastructure was modified to accommodate DOI concerns.
    We appreciate the hard work and dedication of our field managers as 
they have strived to address border security issues affecting their 
units. Our managers operate in often risky circumstances along the 
border. They share the Nation's desire for a secure and safe border. At 
the same time, they are dedicated to fulfilling this Department's 
mission and upholding our statutory and regulatory responsibilities.
    Working with DHS remains a priority, one that continues following 
Secretary Michael Chertoff's decision to invoke Real ID Act waivers of 
certain environmental, DOI-administered, and other statutes in April of 
2008. DHS remains committed to working with DOI to address complex 
border issues, including environmental issues. We see the continuing 
need for a long and productive relationship between our respective 
agencies that extends far beyond the construction of border security 
infrastructure.
    When DHS Secretary Chertoff invoked two Real ID Act waivers for the 
expedited construction of border security infrastructure, he reaffirmed 
DHS's commitment to environmental stewardship. This commitment, as it 
applies to DOI-administered lands and programs, included mitigation 
funding up to $50 million for threatened and endangered species. 
Projects to be funded are conservation measures previously identified 
by Fish and Wildlife Service (Service) field biologists in cooperation 
with others. DHS also identified the need for wetland and cultural 
resource mitigation. In addition to these funding provisions, Secretary 
Chertoff has also reaffirmed DHS's commitment to solicit and respond to 
the needs of State, local, and tribal governments, other agencies of 
the federal government, and local residents. Overall, these measures 
represent a very positive commitment by DHS in recognizing its 
environmental stewardship responsibilities for endangered species, 
wetlands, and cultural resources.
    Securing our Nation's border is our collective challenge. How do we 
best enhance our Nation's border security while maintaining the 
integrity of these ecologically and culturally sensitive lands? 
Although we have yet to fully address all of these issues, we believe 
we are on the right track in developing open dialogue, tangible 
mitigation alternatives, and a strong relationship with our colleagues 
within DHS.
DOI Experiences
    As you requested, I would like to provide several examples that 
illustrate our collective efforts at the border.
    <bullet>  Example 1. U.S. Fish and Wildlife Service IPaC System. 
The Service is currently working with DHS on ways to streamline and 
enhance the endangered species consultation process. As part of this 
effort, the Information Planning and Consultation (IPaC) system is 
being developed, with some funding provided by DHS. This online system 
will result in timely input and faster decisions associated with 
threatened and endangered species. In addition, the preparation of 
biological assessments and associated biological opinions for future 
border security activities will be streamlined.
    <bullet>  Example 2. Sonoran Pronghorn Mitigation. As mitigation 
for construction of a hybrid pedestrian fence on the Barry M. Goldwater 
Range and for a vehicle fence on Cabeza Prieta National Wildlife 
Refuge, the Service and DHS reached agreement in 2006 on conservation 
measures for the Sonoran pronghorn that inhabits the area. More 
specifically, $811,980 will be provided to the Service for development 
of three wells, three forage enhancement plots, and associated water 
supplies. DOI is currently working with DHS on the potential impacts to 
the pronghorn in other areas. For example, we are currently in 
discussions with DHS regarding the significant adverse effects that 
towers proposed on the Cabeza Prieta National Wildlife Refuge would 
have on the Sonoran pronghorn. We have provided DHS with options for 
relocating these towers to an area that would minimize their effects, 
but still address border security concerns.
    <bullet>  Example 3. San Pedro National Riparian Conservation Area. 
The Real ID Act waiver of certain Federal environmental laws and select 
DOI-administered statutes in October 2007 allowed construction of a 
pedestrian fence on this Bureau of Land Management (BLM) unit to move 
forward on schedule. The Secretary invoked his waiver authority to 
ensure the expeditious construction of the fencing in light of a 
lawsuit filed by the Defenders of Wildlife alleging the inadequacy of 
the National Environmental Policy Act review of this project. Despite 
the waiver and as a result of close coordination with DOI, a historic 
corral and one prehistoric Native American village and burial site 
located within the footprint of the fence construction activities were 
not disturbed during construction because DHS developed and implemented 
a data recovery plan that was completed at a cost of over $800,000. 
Currently, the BLM, which is responsible for administering the Native 
American Graves Protection and Repatriation Act in this area, is 
properly caring for the remains from the disturbed grave sites. We 
believe this experience highlights the benefits of effective field 
level coordination between DHS and DOI for projects of this nature.
    <bullet>  Example 4. Buenos Aires National Wildlife Refuge. In 
2007, DHS proposed to construct 0.8 miles of pedestrian fence across 
Buenos Aires National Wildlife Refuge in Arizona. Its footprint, 
including the access road, was located outside the Roosevelt 
Reservation and comprised approximately 5.8 acres. Since the 
construction of the fence would be inconsistent with the National 
Wildlife Refuge System Administration Act, the Service and DHS reached 
agreement to execute a land exchange for the property in question. 
Currently, potential lands for this exchange have been identified and 
appraisals of these properties are in process. The benefit to the 
Service was an agreement with DHS to replace adversely affected acreage 
with land of equal monetary value and possibly higher quality habitat.
    <bullet>  Example 5. Remediation of Cultural Resource Sites. A 
cultural resource site located near Columbus, New Mexico, was 
inadvertently damaged by a National Guard unit working on behalf of DHS 
in the fall of 2006. DHS reached an agreement with the BLM under which 
DHS committed to paying the full cost of restoring this site. Funds 
amounting to approximately $250,000 from DHS have been made available 
for this remediation.
        Inadvertent damage to a second cultural resource site was also 
        discovered in southeastern Arizona on BLM lands. Work is 
        proceeding in cooperation with DHS to fully remediate this site 
        as well.
    <bullet>  Example 6. Lower Rio Grande National Wildlife Refuge. The 
Service has been working very closely with DHS to minimize impacts to 
threatened and endangered species from the proposed pedestrian fence on 
the Lower Rio Grande National Wildlife Refuge. Several field meetings 
were held and, initially, fence design and locations were modified to 
either avoid or minimize impacts particularly as they related to the 
wildlife corridor. Where avoidance or minimization was not achieved, 
the Service proposed the acquisition of an additional 1,700 acres of 
land to offset the impacts of the proposed pedestrian fence. The cost 
of these lands is estimated at $7 million which DHS has committed to 
providing as part of the $50 million set aside for threatened and 
endangered species mitigation projects.
    <bullet>  Example 7. Organ Pipe Cactus National Monument. The 
southeastern portion of this unit of the National Park Service (NPS) 
was identified for pedestrian fence near the Lukeville, Arizona, Port 
of Entry. Of particular concern to NPS was the impact of this proposed 
fence and its access road on ecological communities located on Monument 
Hill. From the DHS security perspective, control of illegal entry 
within this area using pedestrian fence was very important. After 
extended negotiations at the field level, DHS was permitted to 
construct the fence in exchange for mitigation. To offset the 
environmental impacts of this infrastructure, DHS committed to funding 
conservation measures amounting to $964,000 (as part of their 
commitment to fund up to $50 million for threatened and endangered 
species). These conservation measures were largely determined by 
Service biologists in consultation with the NPS and DHS engineers.
    <bullet>  Example 8. Lower Colorado River Limitrophe. High numbers 
of rapes, robberies, and assaults on immigrants and border patrol 
agents were occurring on BLM and Bureau of Reclamation-managed lands 
located in the Lower Colorado River Limitrophe in Arizona (on the 
border by Baja, California, Mexico). Heavy vegetation provided cover to 
drug traffickers and other criminals. In April 2007, BLM led a 
cooperative effort to begin expeditious removal of invasive salt cedar 
that was providing cover for this criminal activity. The multi-agency 
team, including the BLM, Reclamation, DHS, the Fish and Wildlife 
Service, the State of Arizona, Yuma County, and the Cocopah Tribe, are 
continuing this effort to treat the remaining 1,895 acres of DOI-
managed lands, 3,020 acres of Cocopah tribal land, and 337 acres of 
private land.
Impacts upon National Wildlife Refuges and Federal Treaty Obligations
    As indicated above, the construction of border security 
infrastructure on public lands, national parks, national wildlife 
refuges, and tribal lands results in a mixed bag of environmental 
benefits and adverse environmental effects. On one hand, valuable 
wildlife habitats and ecological communities may benefit from the 
infrastructure by reducing illegal, cross-border immigration. On the 
other hand, the construction of pedestrian barriers also inhibits the 
movement of large mammals, some of which are threatened or endangered 
species. To a certain degree, DOI-recommended modifications to fence 
designs or fence locations have minimized the adverse effects of the 
fence on these species. In other cases, offsetting mitigation measures 
are required to reduce the overall impact of the border security 
infrastructure.
    Within national wildlife refuges and wilderness areas, our 
governing statutes prohibit us from permitting the construction of 
certain border security infrastructure as proposed by DHS. In light of 
this, we informed DHS of these facts as they were preparing to 
construct infrastructure on these lands. Ultimately, DHS chose to 
exercise its authority under the Real ID Act to waive these and other 
statutes associated with the administration of DOI lands.
    During our discussions, DHS was made aware of our responsibilities 
for migratory bird species under the Migratory Bird Treaty Act. 
Although additional work needs to be completed in this area, several 
best management practices developed in cooperation with DHS for 
threatened and endangered species also apply to migratory birds. At a 
minimum, use of these best management practices will reduce the impact 
of the border infrastructure on these species.
Closing Comments
    In an ideal world and under differing circumstances, the need would 
not exist to construct border fences and related infrastructure to 
enhance our Nation's security or reduce the influx of drug trafficking. 
In reality, however, Congress has directed DHS to construct border 
security infrastructure. A project of this scope cannot be accomplished 
without affecting both environmental and cultural resources. The 
challenges for DOI and DHS are complex. On the negative side, we have 
some adverse environmental impacts. On the positive side, border 
infrastructure, including pedestrian and vehicle fences, is expected to 
increase our visitor and employee safety, reduce drug trafficking, 
reduce the deposition of human trash, and in some cases lessen adverse 
environmental effects to wildlife habitats and related ecological 
communities. We also appreciate DHS's commitment to provide funding for 
mitigation activities, and pledge to use those funds to implement 
critical measures that will help minimize possible adverse impacts to 
natural and cultural resources.
    In closing, I want to thank you, Mr. Chairman, and you, Ms. 
Chairwoman, for the opportunity to express our views. As stated above, 
both DHS and DOI have faced some complex challenges in balancing our 
Nation's security with maintaining the quality of our environment. We 
do not expect these challenges to diminish, which means that our close 
working relationships will continue to be crucial to our effectiveness 
far into the future.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Let me now turn to Chief 
Ronald Vitiello, Chief Patrol Agent, Rio Grande Valley Sector, 
Office of Border Patrol, United States Customs and Border 
Patrol, United States Department of Homeland Security. Thank 
you, sir, for being here, Chief, and we appreciate and look 
forward to your testimony.

STATEMENT OF RONALD D. VITIELLO, CHIEF PATROL AGENT, RIO GRANDE 
  VALLEY SECTOR, OFFICE OF BORDER PATROL, CUSTOMS AND BORDER 
    PATROL, U.S. DEPARTMENT OF HOMELAND SECURITY<plus-minus>

    Mr. Vitiello. Thank you, Chairwoman Bordallo, Chairman 
Grijalva and distinguished members. My name is Ronald Vitiello. 
I'm the Chief Patrol Agent of the Border Patrol's Rio Grande 
Valley Sector. I am honored to appear on behalf of the U.S. 
Border Patrol to discuss our duties, responsibilities, 
operations, and national strategy.
    U.S. Customs and Border Protection is responsible for 
protecting more than 4,000 miles of border with Canada, 1,900 
miles of border with Mexico, and about 2,600 miles of coastal 
border to include the island of Puerto Rico.
    The U.S. Border Patrol is the sole entity responsible for 
securing our nation's borders between the official ports of 
entry and bases its operations on the national Border Patrol 
strategy. To that end our objectives are to apprehend 
terrorists and terrorist weapons illegally entering the United 
States; to deter entries through improved enforcement; detect, 
apprehend and deter smugglers of humans, drugs and other 
contraband; and to improve the quality of life of border 
communities by reducing crime and the economic vitality--and 
enhancing economic vitality in these areas.
    The Border Patrol uses a combination of efforts in 
achieving our goals. The Border Patrol depends on a defense in 
depth posture utilizing agents in the field, interior 
immigration checkpoints, and coordinating enforcement 
operations, as well as partnerships with other Federal, tribal 
and state law enforcement agencies.
    During Fiscal Year 2007 alone, the Border Patrol 
apprehended nearly 877,000 persons attempting to enter the 
United States illegally, including human smugglers, drug 
traffickers and illegal aliens, and seized over 1.8 million 
pounds of marijuana and more than 14,000 pounds of cocaine. As 
of April 20th, 2008, this Fiscal Year 2008, the Border Patrol 
has arrested 422,000 illegal aliens, seized 952,847 pounds of 
marijuana and over 6,600 pounds of cocaine. In this area of 
responsibility, my area, the Rio Grande Valley Sector, in 2008 
we have apprehended just over 42,000 illegal aliens and seized 
189,377 pounds of marijuana and 3,461 pounds of cocaine.
    Securing our nation's diverse border terrain is an 
important and complex task that cannot be resolved by a single 
solution alone. To secure each unique mile of border requires a 
balance of personnel, technology and tactical infrastructure 
that is tailored to each specific environment. The installation 
of fencing has proved to be an effective tool to slow, redirect 
and deter illegal entries, especially in certain areas where 
personnel and technology alone cannot sufficiently secure the 
border.
    It is important to note that the flow of illegal traffic 
not only jeopardizes our ability to secure our borders, but it 
has also caused severe and profound impacts to the environment. 
For example, illegal roads divert the normal flow of water and 
rob native plant cover of the moisture it depends on to 
survive. Illegal entrants also leave trash and high 
concentrations of human waste, which impact wildlife, 
vegetation and water quality. Numerous wildfires caused by 
campfires of illegal entrants have caused a significant threat 
to human safety and the lands along the border, as well as 
impacts--increased impacts to soil, vegetation, cultural sites 
and other sensitive resources.
    We believe the efforts to stem illegal border--cross border 
activity in certain areas of high traffic will result in an 
improvement to the environment and increase the public's 
ability to enjoy it as a resource.
    In addition to our commitment to responsible environmental 
stewardship, CBP continues to solicit and respond to the needs 
of state, local and tribal governments, other agencies of the 
Federal government, and local residents.
    CBP has gone to great lengths to obtain public input 
throughout our planning efforts regarding the construction of 
fence along the Southwest border. As a result of these outreach 
efforts, there were many instances where we were able to make 
modifications to our original plans to accommodate landowner/
community concerns while still meeting our operational needs.
    One of the best examples of our cooperation efforts can be 
seen in the levee barrier project in Hidalgo County, Texas. 
Hidalgo County had plans to use local funds to raise levees 
along the Rio Grande River to address flood protection 
concerns. The county and other local officials proposed 
integrating a concrete retaining wall into the levee 
improvement project along the 22 miles of the southern side of 
the levee and committed to completing the project within CBP's 
planned cost.
    Within the Rio Grande Valley we have also made numerous 
alignment changes to the proposed fence segments to limit 
impacts to the U.S. Fish and Wildlife National Wildlife Refuge 
areas, a bird watching observation facility in the city of 
Roma, and negate the need to relocate approximately 30 
residents.
    The Border Patrol's objective is nothing less than securing 
operation control of the border. We recognize the challenges of 
doing so and we have done so for many years. Our national 
strategy gives us the means by which to achieve our ambitious 
goal. We face these challenges every day with vigilance, 
dedication to service, and integrity, as we work to strengthen 
and protect America and its citizens.
    In closing, let me add some important points to assist in 
understanding our operations. Those of us pursuing operational 
control of the border recognize that fencing alone will not 
solve our problems. It is not a solution. We have always 
planned to supplement tactical infrastructure and mix it 
properly with significant technology enhancements, along with a 
well-informed and equipped Border Patrol agent deployment.
    Despite predicted changes in traffic patterns once the 
fencing is installed, we will continue to deploy much as today. 
Here in the Rio Grande Valley we will be present along the 
border on both sides of any fence. We will be in the river, at 
the water's edge, and on the patrol roads used currently and 
those constructed with fencing. No land will be ceded to 
Mexico.
    I would like to thank you for the opportunity to present 
this testimony today and for your support of the CBP and DHS 
missions. I will be pleased to respond to your questions, and I 
would also like to thank Dr. Garcia for her continued 
hospitality to the Border Patrol and for allowing this hearing 
today.
    [The prepared statement of Mr. Vitiello follows:]

Statement of Ronald D. Vitiello, Chief Patrol Agent, Rio Grande Valley 
 Sector, Office of Border Patrol, U.S. Customs and Border Protection, 
                    Department of Homeland Security

    CHAIRWOMAN BORDALLO, CHAIRMAN GRIJALVA, AND DISTINGUISHED MEMBERS: 
My name is Ronald Vitiello, and I am the Chief Patrol Agent of the 
Border Patrol's Rio Grande Valley Sector. I am honored to appear on 
behalf of the U.S. Border Patrol to discuss our responsibilities, 
operations, and National Strategy.
    U.S. Customs and Border Protection (CBP) is responsible for 
protecting more than 4,000 miles of border with Canada, 1,900 miles of 
border with Mexico, and 2,627 miles of coastal border to include the 
island of Puerto Rico. The U.S. Border Patrol is the sole entity 
responsible for securing our Nation's borders between the official 
ports of entry and bases its operation on the Border Patrol National 
Strategy. To that end, our objectives are to apprehend terrorists, and 
terrorist weapons illegally entering the United States; to deter 
entries through improved enforcement; detect, apprehend and deter 
smugglers of humans, drugs, and other contraband; and to improve the 
quality of life in border communities. The Border Patrol uses a 
combination of efforts in achieving our goal. The Border Patrol depends 
on a ``defense in depth'' posture, utilizing agents in the field, 
interior immigration checkpoints, and coordinated enforcement 
operations, as well as partnerships with other federal and state law 
enforcement agencies.
    During Fiscal Year (FY) 2007 alone, Border Patrol agents 
apprehended 876,704 persons (858,638 on the southwest border) 
attempting to enter the United States illegally, including human 
smugglers, drug traffickers, and illegal aliens, and seized 1,859,299 
pounds of marijuana and 14,242 pounds of cocaine. As of April 20, 2008, 
in FY2008, the Border Patrol has arrested 422,433 illegal aliens 
(411,329 on the southwest border) and seized 952,847 pounds of 
marijuana and 6,625 pounds of cocaine. In my area of responsibility, 
the Rio Grande Valley Sector, in FY2008 alone we have apprehended 
42,004 illegal aliens and seized 189,377 pounds of marijuana and 3,461 
pounds of cocaine.
    Securing our Nation's diverse border terrain is an important and 
complex task that cannot be resolved by a single solution alone. To 
secure each unique mile of the border requires a balance of personnel, 
technology, and tactical infrastructure (such as roads, pedestrian and 
vehicle fencing, and lights) that is tailored to each specific 
environment. The installation of fencing has proven to be an effective 
tool to slow, redirect, and deter illegal entries, especially in 
certain areas where personnel and technology alone cannot sufficiently 
secure the border.
    For example, in an urban environment, an illegal entrant can be 
across the border and into the community in a matter of minutes, 
sometimes seconds. In this environment, fencing provides a critical 
barrier. In a rural environment agents have more time to bring an 
illegal incursion to the proper resolution, making it more likely that 
vehicles will be used as a conveyance for getting from the point of 
entry to staging areas and community infrastructure that supports them. 
In this environment, vehicle fence can be utilized to prevent vehicles 
from entering and limit the speed and carrying capability of illegal 
entrants, along with sensor and surveillance technology to detect and 
track illegal entrants on foot. Remote areas may be completely 
uninhabited with no roads at or near the border. It could take someone 
hours or even days to be able to cross the border and get to a road or 
community infrastructure. Vehicle fence could be applied to remote 
areas where a vehicle could travel cross-country.
    The effectiveness of tactical infrastructure can be seen in the 14-
mile congressionally mandated fence in San Diego, California, which, in 
combination with increased personnel and technology, has proved 
effective in reducing the number of apprehensions made in the San Diego 
Sector. Over a 12 year period between 1992 and 2004, overall 
apprehensions made in the San Diego Sector declined by 76 percent. The 
Imperial Beach and Chula Vista Stations, whose areas of 
responsibilities fall within the 14-mile project area, combined for 
361,125 apprehensions in 1992. By 2004, total apprehensions in these 
two stations dropped to 19,038 as a result of the increase in fencing, 
manpower, and technology.
    In the Yuma Sector during the same 12 year period, apprehensions 
increased by 591 percent. More recently, however, no sector has seen a 
bigger decrease in apprehensions and vehicle drive-throughs. With the 
addition of tactical infrastructure and increased staffing over the 
past two years, apprehensions in the Yuma Sector in FY2007 decreased by 
68 percent and are down 76 percent to date in FY2008. Vehicle drive-
through traffic within the Barry M. Goldwater Range (BMGR) decreased 
from 694 in FY2006 to 251 in FY2007 and 150 in FY2008 (all statistics 
covering only the timeframe between October 1 and April 3 of the given 
fiscal year). Vehicle drive-through activity elsewhere within the Yuma 
Sector during the same time period decreased from 423 in FY2006 to 145 
in FY2007 and 0 in FY2008.
    In fact, Congress recognized that tactical infrastructure is 
critical to securing the Nation's borders by mandating that the 
Department of Homeland Security (DHS) ``achieve and maintain'' 
operational control of the border and requiring DHS to construct--in 
the most expeditious manner possible--the infrastructure necessary to 
deter and prevent illegal entry. DHS is responding to this mandate and 
installing fencing, barriers, roads, lighting, cameras, and sensors on 
hundreds of miles of the southwest border. DHS will have 670 miles of 
pedestrian and vehicle fencing completed by the end of December 2008. 
These priority miles of fencing are to be constructed in areas where 
fencing would be most practical and effective in deterring smugglers 
and aliens attempting to gain illegal entry into the United States.
    Operational assessments by the local Border Patrol agents and 
Chiefs--based on illegal cross-border activity and the Border Patrol's 
extensive field experience--identified multiple locations where fencing 
would most effectively enhance border security. These operational 
assessments identified approximately 370 miles of pedestrian fencing. 
In Rio Grande Valley Sector, I identified approximately 70 miles of 
border on which pedestrian fencing is operationally necessary to gain 
effective control of the border, and my fellow Sector Chiefs performed 
these same assessments in their areas of operation.
    In addition to the Border Patrol's operational assessments, several 
other factors contribute to decisions to construct tactical 
infrastructure in certain locations, including engineering assessments, 
which include the cost to construct; environmental assessments; and 
input from state and local stakeholders, including landowners. Each of 
these steps is a standard element of the planning process that enables 
us to make informed decisions in deploying the right mix of tactical 
infrastructure.
    As noted earlier, to meet our operational goals, DHS is committed 
to building a total of 370 miles of pedestrian fence and 300 miles of 
vehicle fence along the southwest border by the end of December 2008. 
In a letter to Secretary Chertoff on March 20, 2008, Associate Deputy 
Secretary of the Interior James Cason informed him that while 
Department of the Interior (DOI) managers were attempting to facilitate 
the construction of border infrastructure on federal land, they had 
come to realize DOI could not accommodate approval of some tactical 
infrastructure projects based on legal obligations.
    Given these obstacles and the ambitious timeline for a project of 
this scope and scale, on April 1, 2008, Secretary Chertoff determined 
that it was necessary to utilize the authority given to him by Congress 
to waive any legal requirements he determined necessary to ensure the 
expeditious construction of infrastructure needed to secure the border. 
Absent the Secretary's use of the waiver authority, it would not be 
possible to achieve the objectives set forth. The first waiver applies 
to certain environmental and land management laws for various project 
areas along the southwest border, encompassing roughly 470 total miles. 
The waiver will facilitate additional pedestrian and vehicle fence 
construction, towers, sensors, cameras, detection equipment, and roads 
in the vicinity of the border. The second waiver was signed for the 
levee-border barrier project in Hidalgo County, Texas. This roughly 22-
mile project will strengthen flood protection in the area while 
providing the Border Patrol with important tactical infrastructure. In 
addition to environmental and land management laws, this waiver 
addresses other legal and administrative impediments to completing this 
project by the end of the calendar year.
    In planning for a project of this magnitude, DHS cannot anticipate 
every potential legal impediment that may arise during construction. 
Accordingly, each law listed in the waivers was either an immediate 
impediment to expeditious construction or was determined to be a 
potential source of administrative delay or litigation. As Secretary 
Chertoff stated in his April 1, 2008, press release concerning the 
waiver, ``criminal activity at the border does not stop for endless 
debate or protracted litigation.''
    However, the Secretary's decision to invoke his waiver authority 
does not mean that CBP has turned its back on environmental stewardship 
or continued consultation with stakeholders who will be directly 
affected by the construction of new border infrastructure. We will 
continue to coordinate closely with the federal land managers to ensure 
impacts to the environment, wildlife, and cultural and historic 
artifacts are minimized to the fullest extent practicable.
    As an example of our commitment to the environment, U.S. Fish and 
Wildlife Service (USFWS) representatives participated in the first 
comprehensive review of the proposed fence alignment in the Rio Grande 
Valley in September 2007. USFWS provided comments on each fence section 
and made suggestions, where necessary, relative to fence realignments 
that would substantially reduce potential impacts to threatened and 
endangered species, or would impact components of the Lower Rio Grande 
Valley National Wildlife Refuge and nature reserves in the region. 
Throughout the planning process, the USFWS has continued to provide 
advice on the fence types and alignment of the fence project segments, 
including input regarding incorporating cat passages into the fence in 
specific areas that have the potential to serve as movement corridors 
for the ocelot and jaguarondi.
    It is important to note that the flow of illegal pedestrian and 
vehicle traffic across the border not only jeopardizes our ability to 
secure our borders, but it has also caused severe and profound impacts 
to the environment. For example, illegal roads divert the normal flow 
of water and rob native plant cover of the moisture it depends on to 
survive. Illegal entrants also leave trash and high concentrations of 
human waste, which impact wildlife, vegetation, and water quality. 
Numerous wildfires caused by campfires of illegal entrants have caused 
a significant threat to human safety and the lands along the border, as 
well as increased impacts to soil, vegetation, cultural sites, and 
other sensitive resources. We believe that efforts to stem illegal 
cross border activity in certain areas of high traffic will result in 
an improvement to the environment and increase the public's ability to 
enjoy it as a resource.
    In addition to our commitment to responsible environmental 
stewardship, CBP continues to solicit and respond to the needs of 
state, local, and tribal governments, other agencies of the federal 
government, and local residents. CBP has gone to great lengths to 
obtain public input throughout our planning efforts regarding the 
construction of fence along the southwest border. CBP has engaged in 
extensive discussions about the placement of fencing with state and 
local stakeholders, including repeated consultations with landowners. 
CBP has contacted more than 600 different landowners, hosted 11 public 
open houses, held 15 publicly-advertised town hall meetings, and 
conducted 84 meetings with state and local officials and public groups.
    As a result of these outreach efforts, there are many instances 
where we were able to make modifications to our original plans to 
accommodate landowner/community concerns while still meeting our 
operational needs. For example, we made numerous alignment changes to 
the Rio Grande Valley segments to limit impacts to the USFWS National 
Wildlife Refuge areas, a bird watching observation facility in the City 
of Roma, and negate the need to relocate approximately 30 residences. 
The fence alignment at the Roma Port of Entry (POE) was initially 
proposed to be on top of a 30-foot bluff. During our site visit in 
September, it was determined that placing the fence at the top of the 
bluff would impact historical buildings and bring about 
constructability issues. Based on these findings, Border Patrol, U.S. 
Army Corps of Engineers, and USFWS came to a compromise to construct 
the fence at the bottom of the bluff, where it would still provide 
operational utility. We will continue to consult with our state and 
local stakeholders, including landowners, to ensure that our 
investments effectively balance border security with the diverse needs 
of those that live in border communities.
    The Border Patrol's objective is nothing less than securing 
operational control of the border. We recognize the challenges of doing 
so, as we have dealt with them for many years. Challenges continue to 
lie ahead and the need for a comprehensive enforcement approach 
remains. Our national strategy gives us the means by which to achieve 
our ambitious goal. We face these challenges every day with vigilance, 
dedication to service, and integrity as we work to strengthen national 
security and protect America and its citizens. I would like to thank 
you for the opportunity to present this testimony today and for your 
support of CBP and DHS. I would be pleased to respond to any questions 
that you might have at this time.
                                 ______
                                 
    Mr. Grijalva. Thank you, Chief. Let me now ask The 
Honorable Chad Foster, Mayor, City of Eagle Pass, for your 
comments. Welcome, Mayor. Thank you.

           STATEMENT OF THE HON. CHAD FOSTER, MAYOR, 
                   CITY OF EAGLE PASS, TEXAS

    Mr. Foster. Thank you, sir. Chairman Grijalva, Chairwoman 
Bordallo, and Subcommittee members. I'm Chad Foster, mayor of 
the City of Eagle Pass and Chairman of the Texas Border 
Coalition. I'm speaking today on behalf of 2.1 million 
Americans in 14 border counties on the 1,250-mile Texas-Mexico 
border. Our region is a region of contrast, tradition and 
culture. The multinational, multicultural nature of our 
community on both sides of the international boundary gives our 
region a distinct sense of place.
    You are in a place today where the blending of cultures is 
unique, where Brownsville and Matamoros played central roles in 
shaping the history of our continent. Two civil wars occurred 
simultaneously right here and created such a cross-cultural 
alliance that we could spend days rediscovering it. Welcome to 
our home.
    The Texas Border Coalition thanks you for your leadership 
in exploring the issues related to the border wall and the 
waivers of the Federal law executed by the Department of 
Homeland Security--Michael Chertoff, Secretary--to expedite the 
construction.
    The proposed fencing of the Texas-Mexico border has been 
built on a false premise that one size fits all. The reality is 
that Texas is the only southern state with a natural 
international boundary in the majestic Rio Grande River.
    Farmers irrigate from the river, ranchers water their herds 
from the river, and children are baptized in the river. It 
truly is a river of life. That's why any physical barrier must 
first take into consideration how to minimize the impact on 
private landowners as well as the many municipalities that hug 
the banks of the river. To this day, this has not been the 
case.
    The Texas Border Coalition supports smart and effective 
measures that will achieve true border security, such as the 
Vega Project in Webb County, the Eagle Pass Park project, the 
Brownsville Weir and Reservoir project, and clearing the banks 
of the Rio Grande, north and south, of vegetation such as 
carrizo cane and salt cedar that provide hiding places for 
illegal border crossers.
    We support physical barriers in areas where they make sense 
and are agreed to by elected county and municipal officials. We 
support smarter, more effective solutions where fences won't 
work, that include radar, cameras, sensors, and more effective 
deployment of Border Patrol personnel.
    The Texas Border Coalition believes that Congress committed 
a strategic error in the approval the Secure Fence Act and then 
compounded that error in providing the Secretary of Homeland 
Security with the unilateral authority to waive--in effect 
repeal--all Federal laws to expedite the construction of the 
wall. We support repeal of the unconstitutional waiver-repeal 
authority and urge the repeal of the Secure Fence Act in favor 
of measures that will provide our region with real security.
    Illegal border crossing arrests at the Texas-Mexico border 
have been falling for more than two years without a wall, a 
great tribute to the deterrence of our Border Patrol and Border 
Protection agents. Arrests this year along the southern border 
are likely to--are roughly going to be half of the nearly 1.6 
million we saw during the peak of the year 2000.
    We are winning control of the border between the ports of 
entry, and that puts our ports under greater stress. According 
to the Government Accountability Office, we need 4,000 new 
officers to secure the ports of entry. We need $4 billion in 
infrastructure and technology. If the goal is security, and 
that is one of the main concerns of the Texas Border Coalition, 
we need your help to fund these priorities that are ignored by 
President Bush's budget.
    Let me remind you the 9-11 terrorists entered the United 
States through ports of entry. Most undocumented aliens enter 
the United States through ports of entry. Most illegal drugs 
enter the United States through ports of entry. No border wall 
will solve those problems.
    It is in this context that we question whether DHS 
commitment to secure the border is no more than a hollow 
promise that depends on ineffective measures. We have 
recommended alternative measures at both ports of entry and 
between them that will provide for a safer border region and a 
safer America. We need more boots on the ground with the 
equipment required to provide for commerce and security.
    The Administration has developed a pattern of rejecting 
these practical ideas and effective solutions in order to 
pursue a misguided policy. That pattern has reached a logical, 
ridiculous extreme with the waivers executed by Secretary 
Chertoff.
    We've met with Secretary Chertoff to share our concerns, 
which he's acknowledged, but said Congress tied his hands. He 
told us to change the law. Our delegation did just that, 
repealing restrictive portions of the Secure Fence Act and 
authorizing him flexibility, all in the Fiscal 2008 
Comprehensive Appropriations Act. He has chosen to ignore the 
new law in pursuit of the strategy he devised to accomplish the 
old statute.
    In their headlong rush to achieve an arbitrary deadline to 
erect an ineffective wall, the Administration has chosen to 
abandon our nation's laws that commit us to preserving our 
environment, our culture, our history and our religious 
liberties.
    These waivers will affect the natural movement of animal 
species, including large mammal species that are on the 
threatened or endangered species lists and cause irreparable 
harm to the unique ecosystems and biosystems located along the 
Rio Grande River.
    Mr. Grijalva. If we could wrap it up now, I would 
appreciate it. Are you about to wrap it up?
    Mr. Foster. Can I have just two minutes--30 seconds and 
I'll wrap it up.
    They will provide carte blanche for the destruction of our 
cultural and religious artifacts that are irreplaceable to our 
heritage. The avoidance and mitigation of these damages is not 
an inconvenience to the government. They are essential elements 
of our national fabric guaranteed to the people of the United 
States under Articles I and II of the Constitution. We don't 
demand the enactment of new law. We have already achieved that. 
We demand that Congress require the enforcement of our 
commitment to being a nation of laws.
    The Texas Border Coalition believes we can do better. Based 
on our experience, the only way to restore the rule of law is 
to repeal the Secretary's waiver authority. We need change. To 
achieve it, we also urge your Subcommittees to support the 
repeal of the Secure Fence Act in favor of measures--of 
measures that will provide more security for our region.
    [The prepared statement of Mr. Foster follows:]

Statement of The Honorable Chad Foster, Mayor of Eagle Pass, Texas, and 
                 Chairman of the Texas Border Coalition

    Chairman Grijalva, Chairwoman Bordallo and subcommittee members, I 
am Chad Foster, mayor of Eagle Pass, Texas and Chairman of the Texas 
Border Coalition. I am speaking today on behalf of 2.1 million 
Americans in 14 border counties of the 1,250-mile Texas-Mexico border. 
Ours is a region of contrasts, exhibiting differences and similarities 
of language, culture, tradition, and economy. The multi-national, 
multi-cultural nature of our communities on both sides of the 
international boundary gives our region a distinct sense of place.
    You are in a place today where the blending of cultures is unique, 
where Brownsville and Matamoros played central roles in shaping the 
history of our continent. Two civil wars occurred simultaneously right 
here, and created such cross-cultural alliances and enmities that we 
could spend days rediscovering them. Welcome to our home.
    The Texas Border Coalition thanks you for your leadership in 
exploring the issues related to the border wall and the waivers of 
federal law executed by Department of Homeland Security Secretary 
Michael Chertoff to expedite the wall's construction.
    The proposed fencing for the Texas-Mexico border has been built on 
a false premise that one-size fits all. The reality is that Texas is 
the only southern state with a natural international boundary in the 
Rio Grande.
    Farmers irrigate from the river, ranchers water their herd in the 
river, and children are baptized in the river. It truly is a river of 
life. That's why any physical barriers must first take into 
consideration how to minimize impact on private landowners as well as 
the many municipalities that hug the banks of the river. To this date, 
this has not been the case.
    The Texas Border Coalition supports smart and effective measures 
that will achieve true border security, such as the Vega Project in 
Webb County, the Eagle Pass Park project, the Brownsville Weir and 
Reservoir project, and the clearing of the banks of the Rio Grande--
north and south--of vegetation such as carrizo cane and salt cedar that 
provide hiding places for illegal border-crossers. We support physical 
barriers in areas where they make sense and are agreed to by elected 
county and municipal officials. We support smarter, more effective 
solutions where fences won't work that include radar, cameras, sensors 
and more effective deployment of Border Patrol personnel.
    The Texas Border Coalition believes that Congress committed a 
strategic error in the approval of the Secure Fence Act and then 
compounded that error in providing the Secretary of Homeland Security 
with the unilateral authority to waive--in effect repeal--all federal 
laws to expedite construction of the wall. We support repeal of the 
unconstitutional waiver-repeal authority and urge the repeal of the 
Secure Fence Act in favor of measures that will provide our region with 
real security.
    Illegal border crossing arrests at the Texas-Mexico border have 
been falling for more than two years, without a wall, a great tribute 
to the deterrence of our Border Patrol and Border Protection agents. 
Arrests this year along the southern border are likely to be roughly 
half the nearly 1.6 million during the peak in 2000.
    We are winning control of the border between the ports of entry, 
and that puts our ports under greater stress. According to the 
Government Accountability Office, we need 4,000 new officers to secure 
the ports of entry. We need $4 billion in infrastructure and 
technology. If the goal is security, and that is the one of the main 
concerns of the Texas Border Coalition, we need your help to fund these 
priorities that are ignored by the president's budget.
    Let me remind you that the 9-11 terrorists entered the United 
States through ports of entry. Most undocumented aliens enter the 
United States through ports of entry. Most of the illegal drugs 
entering the United States come through ports of entry. No border wall 
will solve those problems.
    It is that context that we question whether the DHS commitment to 
secure the border is no more than hollow promise that depends on 
ineffective measures. We have recommended alternatives both at the 
ports of entry and between them that will provide for a safer border 
region, a safer America. We need more boots on the ground with the 
equipment required to provide for commerce and security. The 
Administration has developed a pattern of rejecting these practical, 
effective solutions in order to pursue a misguided policy. That pattern 
has reached a logical, ridiculous extreme with the waivers executed by 
Secretary Chertoff.
    We've met with Secretary Chertoff to share our concerns, which he 
acknowledged but said Congress tied his hands. He told us to change the 
law. Our delegation did just that, repealing restrictive portions of 
the Security Fence Act and authorizing him flexibility, all in the 
fiscal 2008 Comprehensive Appropriations Act. He has chosen to ignore 
the new law in pursuit of the strategy he devised to accomplish the old 
statute.
    In their headlong rush to achieve an arbitrary deadline to erect an 
ineffective wall, the Administration has chosen to abandon our nation's 
laws that commit us to preserving our environment, our culture, our 
history and our religious liberties.
    These waivers will affect the natural movement of animal species, 
including the larger mammal species that are on the threatened or 
endangered species lists and cause irreparable harm to the unique eco-
systems and bio-systems located along the Rio Grande River. They will 
provide carte blanche for the destruction of cultural and religious 
artifacts that are irreplaceable to our heritage. The avoidance and 
mitigation of these damages is not an inconvenience to the government. 
They are essential elements of our national fabric, guaranteed to the 
people of the United States under Articles I and II of the 
Constitution. We don't demand the enactment of new law. We've already 
achieved that. We demand that Congress require the enforcement of our 
commitment to being a nation of laws.
    The Texas Border Coalition believes we can do better. Based on our 
experience, the only way to restore the rule of law is to repeal the 
Secretary's waiver authority. We need change and to achieve it we also 
urge your subcommittees to support the repeal the Secure Fence Act in 
favor of measures that will provide our region with real security.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Mayor. Let me now turn to a 
good friend from my part of the world, the Chairman of the 
Tohono O'odham Nation, Mr. Ned Norris. Your comments are 
welcome, sir. Good to see you.

            STATEMENT OF NED NORRIS, JR., CHAIRMAN, 
                     TOHONO O'ODHAM NATION

    Mr. Norris. (Speaking in O'odham language)--Ned Norris, Jr. 
Good morning, Mr. Chairman, Chairwoman Bordallo, and 
distinguished Subcommittee members. My name is Ned Norris, Jr., 
and I am the Chairman of the Tohono O'odham Nation. Thank you 
for the opportunity to testify today. In the words of the 
United States Supreme Court, Indian tribes predate the United 
States. We are older than the international boundary with 
Mexico, but our land is now cut in half, with O'odham sacred 
sites, salt pilgrimage routes, and families divided. We did not 
cross the 75 miles of border within our reservations. The 
border crossed us. And the border comes at a price.
    According to the United--according to Customs Border 
Protection estimates, there were 15,500 illegal entries on 
Tohono O'odham Nation lands just last month. The O'odham suffer 
from break-ins and other crimes committed by border crossers, 
coastal resources destruction, increased demands on tribal law 
enforcement and health services, migrant waste, and 
environmental degradation from CBP and its contractors.
    Each year $3 million of the Nation's limited law 
enforcement funds are spent on our unfunded mandate to secure 
the border, which we all know is a Federal, not a tribal 
obligation.
    In response to the border crossing crisis, the Nation has 
repeatedly partnered with CBP and actively supported 
alternatives to walls, including vehicle barriers, towers, 
checkpoints and other measures that reduce negative impacts on 
tribal lands. Despite the Nation's cooperation, DHS's 
inflexible desire to move forward with an unreasonable time 
frame continues to damage the environment and cultural 
resources.
    When the Nation objected to construction methods within a 
known jaguar habitat near the reservation's eastern boundary, 
the CBP told us during an August 2007 meeting that the project 
could be postponed for two weeks for further review, and then 
proceeded as planned a few days later.
    After the Nation approved the use of barriers to block 
illegal vehicle traffic, CBP contractors failed to cap bollards 
used in construction. The resulting bird kills are being 
investigated as violations of the Migratory Bird Treaty Act. 
When environmental assessments were conducted on ancestral 
O'odham lands between Naco and Douglas, numerous archaeological 
sites were identified in the construction zone. During an 
October 2007 field visit, fragments of human remains were found 
in heavy equipment tracks on the Christian Ranch archaeological 
site, a site now crossed by barriers and the border road. 
Imagine a bulldozer in your family graveyard turning up bones.
    As Secretary Chertoff has issued more waivers, the 
destruction has increased. After the 2007 waiver within 
traditional Hia Ced O'odham lands on the Barry M. Goldwater 
Range, a Boeing subcontractor widened 15 miles of the El Camino 
del Diablo, a desert crossing route listed on the National 
Register of Historic Places, without first performing an 
archaeological clearance. Two known Hohokam archaeological 
sites were damaged from the blading.
    Today, it is as if Congress never passed NEPA or acted to 
protect lands within waiver zones. The Department of Homeland 
Security is, of course, not the only Federal agency on the 
border. The Department of the Interior's mission is to protect 
our natural and cultural heritage on nearly 800 border miles, 
and is mandated by Executive Order 13175 to recognize tribes' 
inherent sovereign powers over their territory.
    Interior has, however, abandoned its mission. In a March 
20, 2008 letter, the Department of the Interior acknowledged 
that its statutory obligations prevented it from approving 
DHS's proposed border security infrastructure. But Interior 
supported the DHS waiver of these very laws. Twelve days later, 
Secretary Chertoff issued a waiver covering 470 border miles, 
including 55 miles on our reservation. Interior never consulted 
us before turning its back--before turning its back on the 
Nation or the land it is sworn to protect, nor did DHS consult 
with the Nation before issuing that waiver. In doing so, the 
DHS undermined our partnership and the Nation's resolution 
supporting vehicle barriers, which expressly required Federal 
officers to perform cultural resource clearances and fully 
comply with the National Environmental Policy Act.
    For all these reasons, the Nation and the National Congress 
of American Indians support 2593 and the repeal of the DHS 
Secretary's Section 102 waiver authority.
    Mr. Chairman and Chairwoman Bordallo, I am here to urge you 
to restore the rule of law. We support border security, but not 
at the price that is now being paid. Thank you. I will be happy 
to answer any questions you might have.
    [The prepared statement of Mr. Norris follows:]

         Statement of The Honorable Ned Norris, Jr., Chairman, 
                         Tohono O'odham Nation

INTRODUCTION
    S-ke:g si'alim. Ban ce:gig Ned Norris, Jr. Good morning Chairman 
Grijalva, Chairwoman Bordallo, and distinguished subcommittee members. 
My name is Ned Norris, Jr. and I am the Chairman of the Tohono O'odham 
Nation. Thank you for the opportunity to testify today.

I.  The Tohono O'odham Nation is negatively impacted by the border and 
        has worked closely with Customs and Border Protection to find 
        appropriate alternatives that will improve border security.
    In the words of the United States Supreme Court, Indian tribes 
``predate'' the United States. We are older than the international 
boundary with Mexico and had no role in creating the border. But our 
land is now cut in half, with O'odham communities, sacred sites, salt 
pilgrimage routes, and families divided. We did not cross the 75 miles 
of border within our reservation lands. The border crossed us.
    And the border comes at a price.
    According to Customs Border Protection (``CBP'') estimates, there 
were 15,500 illegal entries on the Tohono O'odham Nation in March 
alone. The O'odham suffer from break-ins and other crimes committed by 
undocumented aliens and drug traffickers, damage to our cultural 
resources, increased demands on tribal law enforcement and health 
services, migrant waste, stolen vehicles that are abandoned by 
smugglers and often disabled by federal agents, and environmental 
degradation from vehicles driven by smugglers and CBP agents alike.
    Each year, $3 million of the Nation's limited law enforcement funds 
are spent on our unfunded mandate to secure the border, which we all 
know is a federal, not a tribal, obligation.
    In response to the border crisis, the Nation has repeatedly 
partnered with CBP and actively supported alternative strategies to 
walls, including vehicle barriers, towers, checkpoints, integrated 
camera-radar systems, and other measures that reduce negative impacts 
on tribal lands while still achieving the overarching goal of increased 
border security.

II.  The Department of Homeland Security's rush to install border 
        security infrastructure and waive critical laws has seriously 
        damaged environmental and archeological resources.
    Despite the Nation's willingness to work cooperatively, DHS's 
inflexible desire to move forward within an unreasonable timeframe has 
unnecessarily damaged the environment and cultural resources.
    When the Nation objected to construction methods within a known 
jaguar habitat near the reservation's eastern boundary, the CBP told 
Nation's officials during an August 2007 meeting that the project could 
be postponed for two weeks for further review, and then proceeded as 
planned a few days later.
    After the Nation approved the construction of barriers to block 
illegal vehicle traffic but allow animal migration, CBP contractors 
failed to cap bollards at border construction sites, resulting in bird 
kills in violation of the Migratory Bird Treaty Act and the project's 
Final Environmental Assessment.
    When Environmental Assessments were conducted on ancestral O'odham 
lands between Naco and Douglas, archeological sites were identified 
within the border construction zone. During an October 2007 field visit 
to the Christiansen Ranch site, Site AZ FF:9:10, fragments of human 
remains were observed in the tire tracks of the heavy construction 
equipment. Barriers and the border road now cross the site.
    Imagine a bulldozer parking in your family graveyard, turning up 
bones. This is our reality.
    As Secretary Chertoff has increasingly exercised his Section 102 
waiver authority the destruction on federal lands has likewise 
increased. After the 2007 waiver was applied to traditional Hia Ced 
O'odham lands on the Barry M. Goldwater Range, a Boeing Company 
subcontractor widened 15 miles of the El Camino del Diablo, a desert 
crossing route listed on the National Register of Historic Places, 
without first performing an archaeological clearance. Two known Hohokam 
archaeological sites were damaged from the blading.
    Today, it is as if the Congress never passed NEPA or acted to 
protect lands within the waiver zones, and as if the numerous 
agreements between the Nation and the CBP never existed.

III.  The Department of the Interior violated its duty to Indian tribes 
        and the lands under its jurisdiction by supporting Section 102 
        waivers.
    The Department of Homeland Security is, of course, not the only 
federal agency on the border. The Department of the Interior has 
jurisdiction over nearly 800 miles of the border. Interior's mission is 
to protect our common natural and cultural heritage, and it is mandated 
by Executive Order 13175 to recognize tribes' ``inherent sovereign 
powers over their members and territory.''
    Interior has, however, abandoned its mission.
    In a March 20, 2008 letter, the Department of the Interior 
acknowledged that its legal obligations under the Wilderness Act and 
other statutes prevented it from approving DHS's proposed border 
security infrastructure. But Interior supported the DHS waiver of these 
very laws. Twelve days later, Secretary Chertoff issued a waiver that 
is applicable on 470 miles of the border, including 55 miles on our 
reservation. Interior never consulted us before turning its back on the 
Nation or the land it is sworn to protect.
    Nor did DHS consult with the Nation before issuing that waiver. In 
doing so, the DHS undermined our partnership and the Nation's 
resolution supporting vehicle barriers, which expressly required 
federal officers to ``perform cultural resource clearance and fully 
comply with the National Environmental Policy Act.'' (Tohono O'odham 
Legislative Council Resolution No. 04-095.) Has the Nation's sovereign 
power to make laws also been waived?

IV.  Indian tribes across the United States support legislation to 
        repeal the Secretary of Homeland Security's Section 102 waiver 
        authority, mandate consultation, and restore the rule of law.
    For all these reasons, the Nation, the Inter Tribal Council of 
Arizona, and the National Congress of American Indians support H.R. 
2593, the Borderlands Conservation and Security Act of 2007, and other 
legislation that would repeal the DHS Secretary's Section 102 waiver 
authority, require consultation with tribes and border communities, and 
otherwise respect existing laws and citizens' rights in the effort to 
secure the border.
    We know from our own experience living on the border that security 
can be improved while respecting the rights of tribes and border 
communities, while fulfilling our duty to the environment and to our 
ancestors, and without granting any person the power to ignore the law.

CONCLUSION
    Chairman Grijalva and Chairwoman Bordallo, I am here to provide the 
Nation's unqualified support for H.R. 2593 and to urge you to restore 
the rule of law on the border. We support border security but not at 
the price that is now being paid.
    Thank you.
                                 ______
                                 
Attachments
    <bullet>  Tohono O'odham Legislative Council Resolution No. 04-095, 
``Supporting Vehicle Barriers and All-Weather Road Project Along the 
International Boundary Within the Tohono O'odham Nation''
    <bullet>  March 20, 2008 Letter from Associate Deputy Secretary 
James E. Cason to Homeland Security Secretary Michael Chertoff
    <bullet>  National Congress of American Indians' Resolution # ECWS-
08-001, ``Supporting Amending Secure Fence Act and Requiring DHS 
Secretary to Consult and Coordinate with Tribes in Jointly Developing a 
Border Strategy for Tribal Lands along the Unites States' International 
Borders''
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Grijalva. Let me join with my other colleagues, Dr. 
Garcia, in thanking you and this wonderful institution for 
their hospitality and for helping arrange not only this hearing 
room but all the other work that had to go along for this--for 
this hearing to occur. Thank you. And with that let me 
introduce Dr. Garcia, President, University of Texas 
Brownsville and Southmost College. Thank you.

STATEMENT OF JULIET V. GARCIA, PH.D., PRESIDENT, UNIVERSITY OF 
           TEXAS AT BROWNSVILLE AND SOUTHMOST COLLEGE

    Ms. Garcia. Good morning, Chairman Grijalva and Madam Chair 
Bordallo, Congressman Solomon Ortiz. Grace Napolitano, we're 
glad to have you back on our campus. And, of course, 
Congressman Silvestre Reyes and all of our new friends that 
come to understand, from the very community that might be so 
affected, the important issues that we face.
    Early last summer we were notified of plans by the 
Department of Homeland Security to build a fence 18 feet high 
on top of the levee on the university's--the levee north of the 
university's ITEC campus--ITEC campus is the campus where we 
teach international technology and educational center--
essentially placing all of the ITEC on the Mexican side of the 
fence. In addition, the plans would also build a fence 18 feet 
high on top of the levee just south of the Scorpion baseball 
field and of our parking lot, essentially placing our entire 
golf course on the Mexican side of the fence.
    In October we received a letter from U.S. Customs and 
Border Protection asking for a right of entry onto university 
property. The request sought access to university land for 
possible construction of a fence. The same document informed us 
that there was some question if they would be responsible for 
any damage done during this time of their activities.
    I did not sign the document that would have granted access 
for several reasons. It is my responsibility as president to be 
a good steward of the resources that have been entrusted to my 
care. To have signed this request, this right of entry would 
have violated that public trust. There was first a risk to 
property investment because the government sought access to 
lands from the levee to the building in the very heart of our 
campus adjacent to the student union, very close to where we 
sit in this building and the life and health sciences building.
    Our campus is one of the fastest growing in the UT system 
with an enrollment of 17,000 students and expected to grow to 
20,000 within five years. The campus currently has eight 
construction projects in different stages of development for a 
total investment by the taxpayers of this community and in the 
State of Texas of over $140 million in new construction alone. 
Allowing the Department of Homeland Security unlimited access 
to a large portion of the campus had the potential of 
jeopardizing a significant public investment that it was our 
duty to protect.
    It is also my responsibility as president to guard the 
safety of our students. If I am aware of potential danger to 
them, I am required to take necessary action to ensure their 
safety. The right of entry was refused because it was meant to 
support preparations for the building of a fence that would 
jeopardize campus security.
    DHS has repeatedly reported to us that they plan to build a 
fence on the levee for the purposes of channeling illegal 
entrance to a point presumably for easy apprehension. That 
point is the same opening in the fence that would also be used 
for entry and exit to the golf course--the headquarters of our 
golf team--and directly behind the baseball park and the 
recreation center.
    I could not sign the original right of entry because having 
an opening in an 18-foot high fence for the purpose of 
channeling all illegal entrance, including criminals, in the 
heart of our campus right next to classroom buildings, the 
library and the recreation center, the baseball park and the 
soccer field, would gravely endanger, not protect, our students 
and jeopardize campus security and safety.
    I could not sign the original right of entry because there 
had been a lack of opportunity for genuine public input. When 
congressmen call town meetings, it goes to gather its citizens 
engaged in civil discourse. In contrast, here the only public 
hearing that we were afforded was held on December 12 at the 
Brownsville Events Center, where we were required to submit 
feedback through a computer terminal or through a court 
reporter surrounded by armed agents. For those of us who chose 
to participate through verbal input, it was necessary to meet 
in an open field across from the Events Center while being 
photographed.
    I could not sign the original ROE because the university 
has become a key player in the promotion of the ecotourism 
industry and the reclamation of important wildlife areas 
inclusive of thousands of acres of the Bahia Grande area. Many 
have worked for decades to design a campus that is respectful 
of the natural and rich environment of this very special 
ecological zone. Signing the right of entry would have 
jeopardized ecological systems of our region and obstructed the 
development of the campus environment.
    Finally, I was unable to sign the ROE because it 
jeopardized the historical nature of the campus as you've 
already heard. What was being demanded of us under threat of 
legal action was unimpeded access by military and civilian 
agencies to a UT system campus in state and locally financed 
buildings for an extended period of time for purposes of 
determining that the land and the buildings could be condemned 
and seized.
    In January we were notified that a suit had been filed in 
Federal court because of our refusal to sign, yet we continued 
to meet with various representatives from the Federal 
government at the same time that they were filing the suit. 
After days of intense negotiations between the university and 
the U.S. Department of Justice, an agreed settlement was 
reached just hours before we went to Federal court. The order--
not our request, but the court order by a Federal judge, now 
requires consultation with the university before accessing the 
property, and they must take care to minimize and jointly study 
environmental impact, environmental problems and impact on the 
culture of the campus and on the historical nature of the 
campus. Judge Andrew Hanen stated that the agreed settlement 
could be used as a template for working with other landowners.
    I thank you for the time you have spent on our campus. 
There are many of us in Brownsville who did not have the honor 
of being able to address you. But just so you know, there are 
many voices that have similar feelings to what you have heard 
from the mayor and from others on this podium today. Thank you 
so much. I appreciate it.
    [The prepared statement of Ms. Garcia follows:]

           Statement of Juliet V. Garcia, Ph.D., President, 
       University of Texas at Brownsville, and Southmost College

    Good Morning Chairman Grijalva and Madam Chair Bordallo and members 
of the joint oversight committee. Thank you for this invitation to 
testify before you on this very important issue.
    The first topic you have asked me to address was the level of 
consultation between the Department of Homeland Security and our 
university to review and revise project segments slated to cross our 
campus and the surrounding community.
    As background, I will provide a quick timeline of the events that 
have transpired over the last year.
    Early last summer, we were notified of plans by the Department of 
Homeland Security to build a fence 18 feet high on top of the levee 
north of the university's International Technology Education and 
Commerce campus (ITEC), essentially placing ITEC on the Mexican side of 
the fence. In addition, the plans would also build a fence 18 feet high 
on top of the levee just south of the University baseball field and of 
the Education and Business Complex parking lot, essentially placing our 
golf course on the Mexican side of the fence, literally dividing our 
campus.
    In October, we received a letter from U.S. Customs and Border 
Protection asking for the right of entry onto University property. The 
request sought access to survey University land for the possible 
construction of the fence, to store equipment and supplies, take 
samples and to do any other work they found necessary for the proposed 
construction of the fence.
    The same document informed us that there was some question as to 
whether they would be responsible for any damage done during this time 
by their activities. Finally, the letter stated that should they 
determine a need for any University land, the University would be paid 
market value for the land.
    I did not sign the document that would have granted access for 
several reasons. I felt the action posed serious harm to the University 
on many fronts, including risk to property investment, student safety, 
execution of our mission, disruption of the university ecosystem and 
the region's ecotourism industry, as well as damage to the historical 
nature of the campus.
    Because we could not in good conscience sign the document granting 
right of entry, the Department of the Army Corps of Engineers notified 
us in December 2007 of potential litigation to gain entry to the 
campus.
    What was being demanded, under threat of legal action, was 
unimpeded access by military and civilian agencies to a UT System 
campus and its state and locally financed buildings for an extended 
period of time for purposes of determining if land and buildings would 
be condemned and seized.
    The only public hearing we were afforded was held on December 12 at 
the Brownsville Events Center where we were required to submit our 
feedback through a computer terminal or through a court reporter 
surrounded by armed agents.
    In January, despite requests from our attorney for extensions of 
time to engage in discussions of alternatives, we were notified that a 
suit had been filed in federal court because of our failure to sign the 
original Right of Entry request (ROE). This heavy handedness and 
unwillingness to genuinely discuss alternatives to the ROE's conditions 
was sufficient cause for serious concern.
    Yet we continued to meet with various representatives from the 
federal government including the local Border Patrol officials, the 
Department of Homeland Security, and the Army Corps of Engineers. While 
it was frustrating at times, when the various federal agencies did not 
have knowledge of the others' activities, we persisted, believing that 
a compromise could be reached that would allow the Department of 
Homeland Security to proceed with its goal of better securing the 
border, while at the same time allowing the university to preserve the 
integrity of our region and our educational mission and moreover, 
protect the safety and welfare of our students, faculty and staff. 
However, we feel that the purpose of meetings from the government's 
standpoint was simply another opportunity for them to tell us of their 
intention to build a fence, rather than to explore alternatives.
    After days of intense negotiations between the University and 
United States Department of Justice attorneys, an agreed settlement was 
reached on March 19th, just hours before the federal hearing was to 
take place.
    Federal Judge Andrew S. Hanen approved the agreement, which states 
the following:
    <bullet>  The University has agreed to a limited right of entry to 
DHS for six months for the purpose of studying the implementation of 
security measures on the border in the campus area.
    <bullet>  DHS will work with the University to jointly assess 
alternatives to a physical barrier.
    <bullet>  DHS has been authorized to conduct such studies, 
including environmental assessments, as required to consult with the 
University regarding alternatives to a physical barrier.
    <bullet>  DHS will consider the University's unique status as an 
institution of higher education and will take care to minimize impact 
on its environment and culture.
    <bullet>  DHS will conduct investigations to minimize the impact of 
any tactical infrastructure on commerce and the quality of life for the 
communities and residents located near the University.
    <bullet>  DHS will take all reasonable action to promote safety and 
minimize any impact on the University's educational activities.
    <bullet>  DHS will coordinate all entry to the campus and give 
prior notice of all activities on campus to Campus Police.
    <bullet>  DHS has agreed that should damage to University property 
occur they will repair or make an appropriate fair market value 
settlement.
    <bullet>  DHS has agreed to hire contractors that carry sufficient 
liability insurance.
    <bullet>  DHS has agreed to not clear land, mow grass or otherwise 
alter the physical landscape of University property without the 
University's consent.
    <bullet>  The University retains the right to assert statutory and/
or constitutional challenges to future government actions affecting 
University property.
    During the hearing, Judge Hanen thanked both the University and the 
federal government for working hard to reach an equitable solution. He 
felt that the dialogue between the two sides would hopefully lead to a 
better resolution regarding this temporary easement, as well as any 
potential future barrier. Judge Hanen also stated that the agreed 
settlement could, perhaps, be used as a template for working with other 
landowners involved.
    While we have often felt during this process that the Department of 
Homeland Security was unwilling to openly and legitimately consult with 
local communities regarding the effects an 18-foot high wall would have 
on our region, we are pleased that the court system fulfilled the 
purpose our forefathers had planned. It brought together two parties to 
be fairly represented and heard.
    Since the hearing the Department of Homeland Security, through the 
U.S. Border Patrol, has notified the University of various 
archeological and environmental surveys and/or assessments that have 
taken place. While we have received notification from the federal 
government that they are conducting surveys and/or assessments on IBWC 
and University property we have not been provided the opportunity to 
jointly participate in assessing alternatives to a physical barrier. 
There is a meeting between representatives of the University and DHS 
scheduled for tomorrow, and we are hopeful that will be the beginning 
of the joint assessment, and not simply a repeat of the previous 
unproductive one-way communications.

Potential Impact on property investment and safety
    As a native of this community, I can speak to the fact that every 
piece of infrastructure you see in the Rio Grande Valley today was hard 
fought. We didn't have a university in the Lower Rio Grande Valley 
until 1991 when UT Brownsville was established. We still do not have a 
veteran's hospital closer than San Antonio. The lack of infrastructure 
is compounded by our rapidly growing population, and the need for 
expanded trade and commerce.
    Seizing land for a border fence poses a great risk to our property 
investment. In the case of our university, our campus is one of the 
fastest growing in the UT System with an enrollment of 17,000 and 
expected to grow to 20,000 within five years. The campus currently has 
8 construction projects in different stages of development for a total 
investment by the taxpayers of the local community and of the state of 
more than $140 million dollars in new construction alone. Allowing the 
DHS unlimited access to a large portion of the campus has the potential 
of jeopardizing a significant public investment that it is our duty as 
stewards to protect.
    It is also my responsibility as President to guard and protect the 
safety of our students. If I am aware of a potential danger to them, I 
am required to take necessary action to ensure their safety.
    DHS had repeatedly reported to us that the plan to build a fence on 
the levee was for the purpose of channeling illegal activity to a point 
presumably for easy apprehension. That point in the proposed fence, is 
the same opening used for entry and exit to the golf course. The golf 
course is home not only to our Scorpion golf team, but also to members 
of the community including other school children. This site serves as a 
laboratory for learning in our community, just as any other facility on 
our campus.
    The current plans call for an opening in the 18-foot high fence for 
the purpose of channeling all illegal activity, into the heart of our 
campus right next to classroom buildings, the library, the Recreation, 
Education and Kinesiology Center, the baseball park, and the new soccer 
field would greatly endanger our students and jeopardize campus 
security and safety.

Potential Impact on the Academic Environment
    In addition, the building of a fence on this campus or adjacent to 
the campus runs counter to our mission, which is in part to convene the 
cultures of its community, foster an appreciation of the unique 
heritage of the Lower Rio Grande Valley, encourage the development and 
application of bilingual abilities in its students and provide academic 
leadership to the intellectual, cultural, social and economic life of 
the bi-national urban region it serves.
    To support a plan that would build an 18-foot-high steel barrier 
between two friendly countries would be to directly contravene our 
mission and destroy the campus climate that has been so painstakingly 
and carefully created.

Potential Impact on the Environmental and Historic Environment
    The University has become a key player in the promotion of the 
ecotourism industry and in the reclamation of important wildlife areas 
inclusive of the thousands of acres of the Bahia Grande area. Many have 
worked for decades to design a campus that is respectful of the natural 
and rich environment of this special ecological zone. We also strive 
for the development of a campus environment that fosters the physical 
and mental well-being of our students. To create this environment we 
are designing and constructing bike trails, jogging paths and eco-
trails.
    In our master plan, which was created four years ago, we defined 
our core values which include:
    <bullet>  Respecting the Educational Nature of the Campus
    <bullet>  Providing a Safe and Secure Environment
    <bullet>  Encouraging Community Involvement
    <bullet>  Providing Accessibility
    <bullet>  Creating Harmony in Design
    <bullet>  Planning for Openness in Design and Space
    <bullet>  Creating Intimate Gathering Areas
    <bullet>  Providing an Inviting Ambiance
    <bullet>  Respecting the Historical Nature of the Campus
    <bullet>  Being sensitive to the Ecology
    <bullet>  Incorporating the Region's Unique Cultural Character
    Clearly, an 18-foot high wall running through our campus would 
negate all that we have worked so hard to create.
    UTB/TSC has a unique cultural nature. The campus encompasses 
several significant historical sites, including historic Fort Brown and 
Fort Texas.
    Of course, we believe in protecting our borders.
    Of course, we believe in strong immigration policy.
    But we also understand that a process of intended or unintended 
intimidation is no substitute for either.
    Every attempt we have made up until this week has proved fruitless 
in discovering common ground for a solution.
    I love our country and the best that it represents of an experiment 
to govern a free people. My life's work has been spent trying to 
guarantee that the next generation has access to an education and 
becomes vested in protecting, participating in and defending this 
democracy. It has been my duty to be a good steward not only of the 
resources entrusted to me, but also of the values and principles of our 
democracy.
    I remain hopeful that we can make genuine progress toward a 
meaningful, consultative conversation and that the Agreed Order with 
the conditions specified has for the first time, the potential to 
discover an innovative and effective manner to achieve the mutual goals 
of the DHS and of the University.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. And, Doctor, I had the 
privilege and the pleasure of meeting with community members 
yesterday most of the day from Veteran organizations to 
religious groups to people that work here at this institution. 
And your comments and I think the mayor's comments were 
repeated time and time again. And so I appreciated that 
opportunity to do that.
    Let me begin with a couple of quick questions and then move 
along and allow my colleagues the same opportunity. Let me 
direct us to Mr. Schultz and the Chief. If you could briefly 
explain to me this inconsistency that we have. If we are 
believing that the premise for the wall and the fence barrier 
is the uniformity of security across the southern border, then 
this begs the question--this is where I have the--I can't 
explain it to myself.
    We had to have a court order in order for the university 
here to participate in consultation and planning because the 
fence is going--the wall is going through that property. Yet we 
have properties that perhaps are less security needed, such as 
the Hunt property, such as the property at the River Bend. And 
yet we have single property owners that their property is--
their security there is high end. And I'm assuming the security 
in the Hunt property, which is 5 to 6,000 acres, and at the 
River Bend, then that must not be--there must not be a security 
need because those have been exempt. Am I correct in that 
assessment?
    Mr. Vitiello. It's important, Congressman, to understand 
that what I've done since my assignment here in July and when 
this project started within the sector confines is for us to go 
out and look at current activity levels, look at the kind of 
access that was available and is required to secure particular 
parts of the border.
    I'm not familiar with us having particular land that they 
own along the border. I'm familiar with the River Bend 
requirement. And what we did is we looked at the kind of access 
we had. We looked at the kind of activity that was occurring in 
those locations, and then made an assessment about where--if 
the terrain was enhanced, if the features--the terrain features 
were enhanced with fencing, would that assist us in being more 
efficient and being more effective in those particular 
locations. And where that was the case, where we believed that 
this fencing gave us some an additional advantage, then we've 
made that a part of the plan, the proposal that we'd like to go 
forward and have the installation occur in those locations.
    Mr. Grijalva. And Interior's discussion with Homeland 
Security, so I'm assuming these two exempted area are of higher 
environmental quality, therefore an exception is something that 
was worked out?
    Mr. Schultz. I don't understand the question, Chairman.
    Mr. Grijalva. If Interior is working with Homeland Security 
as we go along, according to your testimony----
    Mr. Schultz. That's right.
    Mr. Grijalva [continuing]. And we have two major exemptions 
as other property owners are having to litigate in order to get 
the consultation, I'm assuming in your consultations those 
exceptions were something that you felt were environmentally 
high enough to be exempt.
    Mr. Schultz. I'm not sure what you mean. Do you mean exempt 
from the----
    Mr. Grijalva. Fence, wall.
    Mr. Schultz. From the fence. I don't know what the answer 
is to that question. I don't think, at least at the 
headquarters level, we had that type of detailed discussions 
about those sections of fence. They could have been discussed 
at the local level in consultation with local officials.
    Mr. Grijalva. So as we go through this process, would it 
not be good to quantify and qualify the exemptions that occur 
in this whole fence-building, why, whether it's environmental, 
whether it's not pertinent to operational control, whether it 
is some other reason. Don't you think that kind of inventory 
would be important.
    Mr. Schultz. It would be helpful, I guess. We have relied 
on the Border Patrol for their decisions on where they believe 
they need the fence. And once they decide where they need the 
fence, we will work with them as much as possible to try to 
minimize the impact on the infrastructure on DOI interest.
    Mr. Grijalva. Mr. Chairman, and perhaps for my renewed 
edification and the edification of my colleagues that probably 
don't need it--I'm probably the one that does--briefly, the 
government-to-government meaningful consultation and 
relationship between the Nation and the Federal government and 
its impact on what is occurring on your Nation right now given 
the waiver and how--did that consultation occur at all prior to 
that?
    Mr. Norris. No. I can't honestly sit here and tell you, Mr. 
Chairman and members of the committee, that that consultation 
did, in fact, occur. There are many things that are occurring 
on our Nation's lands that are done without consultation. In 
fact, as recent as four, almost five years ago, we had to bring 
in the representatives from the Tucson Sector into a meeting at 
our offices and discuss with the Border Patrol why they were 
doing some--conducting some of the activities they were doing 
on our Nation's lands.
    And it became apparent that we were talking to the wrong 
people because their continued comments to us, ``Well, we're 
just following orders. We get our orders from Washington, D.C., 
and that's what we're following.'' And so we immediately let 
them know that we're talking to the wrong people, that we need 
to deal with Washington, D.C.
    We have continuously made efforts to consult with and have 
continuously numerous times invited Secretary Chertoff to the 
Tohono O'odham Nation's lands so that way we can have a face-
to-face contact with him and express our concerns about what's 
been going on on our Nation's lands. And we have not been 
honored any invitation that we have extended to him.
    Secretary Chertoff finds the opportunity to visit border 
areas to the east of the Tohono O'odham Nation's lands and to 
the west of the Tohono O'odham Nation's lands, but has never 
made--acknowledged our request to come visit us and discuss 
these issues that are critically important to us on the Nation.
    Mr. Grijalva. Thank you, and my time is up. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have a 
couple of questions for this round. In your statement, Chief 
Vitiello, you reference as a reason for Secretary Chertoff to 
use his authority to issue a blanket waiver of over 30 
environmental statutes as a response to the Department of 
Interior's inability to accommodate approval of some tactical 
infrastructure projects. And this raises the question of why 
did the Secretary issue a blanket waiver when it was known that 
Interior only objected to a portion of the projects on Federal 
lands? Can you give me an answer on how many project segments 
did Interior say they could not accommodate and what percentage 
of the total does this represent?
    Mr. Vitiello. I'm happy to get back to the committee about 
specific technical details of which parts that you refer to 
within the Department of Interior's and our consultations. I 
can only tell you that in our particular area, there are 
approximately 70 miles of fence that we have established 
locations along the border where we feel that fencing would 
assist us in our--in our work. And we also know, based on the 
time lines authorized in appropriation, that the waiver makes 
sense in order for us to complete under the time line outline.
    Ms. Bordallo. I guess that's really not my question. I just 
wondered what percentage. Because Interior had said that they 
only object to some, not all.
    Mr. Vitiello. I don't have that technical knowledge about 
that.
    Ms. Bordallo. All right.
    Mr. Vitiello: I would be happy to get back to you.
    Ms. Bordallo. The other one, Chief, was--I was really very 
impressed with how you informed 600 different landowners, 
hosted 11 public open houses, held 15 publicly advertised town 
hall meetings, and conducted 84 meetings with state and local 
officials and public groups. It seems to me you covered 
everything. But you discussed your agency's activities, as I 
have just repeated--the other Federal agencies and local 
residents, including uncounted numbers of meetings, open 
houses, town hall meetings--while it is somewhat reassuring to 
know that your agency can at least demonstrate that it has 
conducted public outreach, your statement provides no 
reassurance about the quality of the consultation.
    So I would like you to explain or describe the kind of 
information that is provided during public outreach sessions, 
what kind of information is solicited, and then describe the 
process the agency uses to incorporate this information into 
your decision making. And after listening to Chairman Norris, 
his Nation was never informed.
    Mr. Vitiello. Typically these meetings, in our experience 
here, would have been a scenario where we have identified 
particular parcel landowners. In some cases we went to county 
commissions, local leadership, mayors and such, and informed 
them about what we knew of the state of the situation; about 
where we were requesting fencing; what we felt our operational 
requirement is; where we thought fencing made sense in 
particular locations. Some was an edification for why given the 
activity level.
    The quality--and I'll give you an assessment here locally. 
There are about 400 different people who are impacted directly, 
as in they own land right along the border here in the Rio 
Grande Valley. We've talked to each and every one of them, both 
through my office, the Army Corps of Engineers, the people at 
SBI and at CBP and the totality of the people that would 
necessarily need to be involved in an operation or in a 
construction project like that. And with about 400 landowners 
in this area, we're in a situation where just over 270 or so 
were ready to proceed. We are in a dialogue and continue to be 
in discussions with them, and the balance are in varying forms 
of ongoing consultation, or, in some cases, the litigation 
aspect.
    Ms. Bordallo. Well, Chief, I don't know what the outcome 
was after all of this interaction with the landowners and so 
forth, but it seems that we have a roomful of people here that 
don't agree that they were even informed. Chairman Norris, 
would you like to comment on the exchange you had.
    Mr. Norris. Yes, I would. And thank you, Chairwoman, for 
the opportunity. It seems to me that our experience has been 
that the attitude with the Department of Homeland Security has 
been that it's pretty much the attitude that, ``Well, we're the 
Federal government. We're the United States government and 
you're a Federal reserve, and so we're going to go and come in 
and do whatever the hell we want to do within the Federal 
Indian reservation,'' which is an unfortunate situation because 
that is definite ignorance of the tribal sovereignty authority 
that we have in the tribal government.
    And that's all we ask. We want to be at the table with the 
United States government. We want to be able to discuss with 
them--and, you know, it's not the say that the Nation itself 
has not extended itself to the effort to secure the border. We 
have allowed various vehicle barriers. We have allowed SBI in. 
We have allowed the establishment of law enforcement centers. 
We have allowed the increase of border presence on our Nation's 
lands. So we are working with them.
    But with regards to the long-term, the impact of a wall on 
our Nation's lands, the Tohono O'odham Nation will never agree 
to a wall fence. And the primary reason for that, 
Congresswoman, is the fact that we have 1,500 enrolled tribal 
members that live south of the international border. We have 
nine tribal communities that exist. We have about almost 5,000 
people that are eligible for membership in the Tohono O'odham 
Nation's lands.
    Ms. Bordallo. Thank you very much, Chairman Norris. My time 
is up.
    Mr. Norris. Thank you, Chairwoman.
    Mr. Grijalva. Let me now turn to our Ranking Member, Mr. 
Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman, and thank you all 
for your testimony. One of the things that I think I heard more 
often than anything else that seemed I think inaccurate in 
terms of describing the project that we are to focus on today 
is the implication that the wall is a singular solution to a 
problem. I do not know of anyone, either Border Patrol or the 
Administration--certainly I have never thought of a barrier 
along the southern border, no matter how long, as the 
solution--as the solution to the problem with illegal entry 
into this country. It is just simply part of a solution. It 
just helps us begin to control parts of the border where we 
presently do not have that control.
    And so I just wanted to emphasize, at least from my point 
of view and my observation of this issue, that the thing we're 
arguing about today is not the simplistic application of some 
sort of barrier that will then solve all of our immigration 
policies--problems. That is certainly not the case. I 
understand that.
    I also believe that there may certainly have been problems 
with the kind of communication that should go on and is 
necessary to go on in order to obtain the support of the local 
community for an ongoing effort of this nature. And I turn to 
the Chairman in particular because I have visited the Nation on 
more than one occasion.
    I remember several years ago when I was there and there was 
an--a concern expressed to me by almost every single person, 
every single member of the tribe, that the present situation 
was untenable; that the amount of drug trafficking through the 
area was--certainly that it could not be dealt with by the 
local law enforcement activity or agency that was involved, the 
number of people that you had on the force; that the effect of 
the drug activity wasn't just simply the passage of drugs 
through the tribal lands, it was what was happening on the 
tribal lands, the number of children who had become addicted.
    And I remember a long litany of concerns. And I also 
remember at the time that one of the things that was described 
as a potential solution was some sort of barrier. I also 
remember the discussion about the need to have this kind of 
transportation--open transportation--for the people who live on 
both sides of that border today and who are also part of the 
Tohono O'odham tribe.
    Do you not think--and I totally believe and understand the 
frustration that you expressed, the kind of--the way that this 
thing has unfolded on the land. But do you not believe that 
there is a need for something there that will restrict that 
movement and allow people, allow members of the tribe to 
actually get back and forth for various purposes and just 
visiting, but at the same time try to restrict the ability of 
people coming through there who are doing such great damage to 
the tribe? And do you not think that if a--some sort of barrier 
is constructed that comes up let's say to tribal lands and ends 
there, that that does create even a greater threat to the 
environment and to the tribe itself? Because, of course, it 
becomes a funnel. And that's the whole purpose of what we're 
trying to do here, is actually funnel people into areas where 
we can stop them with human resources. But it seems like--that 
unless we can progress with some sort of barrier there, that we 
are--potentially the tribe is open to far more danger and far 
more destructive elements than it is without something.
    Now, I guarantee you I would work with you--and to the 
extent that I have time to do so in the Congress that I'm in 
and will be in my term sometime--but the time I'm there, I 
commit to you my efforts to try to bring together some degree 
of cooperation, if that is your desire. But I just need to know 
specifically what it is you believe would protect both the 
sovereignty of your Nation and the security of our borders.
    Mr. Norris. Mr. Chairman--Mr. Chairman, Madam Chairwoman, 
members of the committee, all those situations that you 
described, sir, are--continue to be concerns of the Tohono 
O'odham Nation and its people. Those situations do exist. We're 
a little bit tired of being tour guides. We've had a number of 
people from Congress come out and visit our Nation and see 
what's going on on our Nation's lands and see the increased 
border issues that are impacting our Nation, but we don't see 
any result of that. We continue to expend tribal dollars, to 
the tune of $3 million a year, on the United States 
government's immigration problem. And we need to take the 
situation to the next level.
    Definitely we are concerned about the influx of human 
cargo. We are concerned about the influx of drug trafficking. 
We are concerned about the fact that too many of our tribal 
members are being bought into that business. And, yes, 
definitely we want to be able to see what we can do together. 
Not imposed on, but together in working with the Department of 
Homeland Security, allowing us to be at the table to discuss 
these issues with them, allowing us to share with them what 
impacts their activity is going to have on our Nation's lands, 
allowing us to be able to share with them what sovereignty 
issues we are concerned about when it comes to dealing with us 
on a government-to-government level.
    So, definitely, sir, we welcome and continue to offer the 
opportunity to sit at the table with the United States 
government, and would like to be able to do that with the 
Department of Homeland Security. We continue to invite 
Secretary Chertoff. We want him out here. We want him out to 
our Nation's lands. He's probably one of the only visitors we--
that we haven't had the opportunity to tour on our Nation's 
borders and express our concerns. We want that opportunity, but 
we want some action. We want some active--opportunity to 
actively participate in the decisions that are being made in 
Washington, D.C., that are negatively impacting our people and 
our land.
    Ms. Bordallo. I thank the gentleman, and now I'd like to 
recognize the gentlelady from the State of California, Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair. OK. I am on. In 
all this process, I don't see the Department of Homeland 
Security represented here. And I'm not sure why. But that 
should be one of the things----
    [Applause.]
    Mrs. Napolitano. Please. It takes my time. Please.
    That--in order to be able to get answers from some of the 
agencies, we need to have them present, or at least it goes on 
the record. Dr. Garcia, those words that you talked about, have 
them submitted for the record for this hearing, because it will 
be open for 10 days. Anybody can submit for the record. That is 
law.
    Now, one of the other things that we have heard repeatedly 
is it's a tough process. We all agree with you. We have not 
been able to get that done for a number of reasons because 
there's people in Congress stymieing the process that we try to 
put through.
    And, Mr. Schultz, on your second paragraph you indicate 
this impact by this illegal migration. But the fences and the 
roads don't damage that environment?
    Mr. Schultz. Congressman----
    Mrs. Napolitano. Congresswoman, sir.
    Mr. Schultz. Congresswoman. Pardon me.
    Mrs. Napolitano. I'm a woman.
    Mr. Schultz. The roads and the fences do damage the public 
land as well, which is why we need to work with them to try to 
minimize the impacts of the roads and fences on those natural 
and cultural resources.
    Mrs. Napolitano. Because of what I'm reading from some of 
the testimony that was provided to us prior to today, there are 
a lot of this--and Mr. Chairman Norris indicates that there was 
no consultation with them as to how to minimize or what their 
ability is to be able to have input, to be able to do that. Dr. 
Garcia is saying the same thing in essence.
    Mr. Schultz. Congresswoman, there has been significant 
discussion between Fish and Wildlife Service folks, folks that 
work with the Bureau of Land Management and Park Service folks 
to try to minimize the impact.
    Mrs. Napolitano. OK. But that's only between the agencies. 
What about the people who are affected, the farmers? And my 
understanding is that this was taken into a computer or sent to 
a separate room to put in their input without public opinion 
being open. I mean, we're--if people want to accept the 
dialogue, the plans that you have, you have to be transparent. 
And if you are not, then you're going to have people sit up and 
say, ``Hey, wait a minute. This is the United States.'' We 
don't follow that anymore.
    We don't--you know, building a wall--we're tearing down 
China--the Berlin Wall. And so other areas that we are seeing 
we do not need walls. We need more security for the people that 
work the borders, more technology, more funding. But we end up 
taking those funds away. And I know Interior could use the 
funds. In my Subcommittee, I can tell you I go through that all 
the time.
    And to Mr. Norris, were you included at all in any of the 
planning? I think you said, but I want it for the record 
specifically. Were you included? Were you asked to be at the 
table? Were you asked for input about how it would impact your 
tribal lands?
    Mr. Norris. Initially we were not. After we had raised the 
concern of not being at the table, after we--and I'm talking 
about previous administrations to mine continuously asking that 
we need to be at the table, continuously pressuring the local 
sectors of the Border Patrol at our office and being told, 
``Well, these decisions are made in Washington, D.C.'' And that 
we need to be at the table in Washington, D.C., we have had 
some impact and some ability to share our thoughts and our 
positions.
    One of the things that we did find out is that the 
Department of Homeland Security was consulting with the Bureau 
of Indian Affairs. And what we found out was that once we had 
seen an increase in border presence on our Nation's lands, we 
understood that they got the approval and the permission from 
the Bureau of Indian Affairs to be increasing their presence on 
these lands.
    Mrs. Napolitano. Did the BIA----
    Mr. Schultz. We weren't involved in that process.
    Mrs. Napolitano. Did the BIA ever consult you?
    Mr. Norris. No.
    Mrs. Napolitano. Did any other agency consult you?
    Mr. Norris. Well, not at the Federal level. But at the 
local level we have been knocking on their doors and they have 
opened those doors.
    Mrs. Napolitano. You have been knocking. They have not--as 
part of the landowners--been asked to participate.
    Mr. Norris. We have not.
    Mrs. Napolitano. Thank you, Mr. Chair. I won't take any 
more time, but I do have some questions for the record.
    Mr. Grijalva. Thank you very much. And let me now turn to 
our colleague, Mr. Hunter, for any questions you might have, 
sir.
    Mr. Hunter. Thank you, Mr. Chairman. And, again--and, 
incidentally, I didn't realize this is Solomon Ortiz's 
district. And I just would be remiss if I didn't say as a 
fellow member of the Armed Services Committee what a great job 
he's done on that committee. We've flown on a lot of choppers 
together--from down in Central America with the 82nd Airborne, 
in the DMZ in Korea--on lots of those trips accompanied by 
the--Mr. Reyes, a very articulate gentleman. And I appreciate 
you letting us be here, Solomon----
    Mr. Ortiz. You're quite welcome.
    Mr. Hunter [continuing]. To have this hearing. You know, 
folks, we're all in this together. And what I've gotten from 
your testimony is a couple of things. One thing is that we all 
acknowledge you've got to control the border. The second thing 
is that there's lots of custom making to be done along this--
along this border to ensure that controlling the border is 
consistent with local communities.
    Now, Chairman Norris, you started out by showing your--
showing the damage that's being done by the smugglers moving 
massive numbers of people and narcotics through the 
reservation, right? And you'd like it to stop. But you 
haven't--you haven't come up with a solution. And, you know, 
I've looked at this for a long time and we tried to do the same 
thing in San Diego. We tried lots of stuff, and we also tried 
to do it at one time just by amassing Border Patrol. In fact, 
we had a third of all the Border Patrol for the entire U.S.-
Mexico and U.S.-Canada border all together. We had about a 
third of that Border Patrol just in San Diego. And we still 
couldn't stop that flow with people alone.
    And one of our institutions said, ``You have to have 
something that slows folks down. You've got to have a fence.'' 
They recommended a triple fence. And I will get my friend, 
Silvestre Reyes, in trouble by reminding him that he helped me 
get the first triple fence in. I'm sure he's going to remind me 
that that's not in good taste after this hearing is over. But 
hopefully we're friends so we'll get past that.
    But, you know, I've looked at all the things we've tried to 
use as a substitute. We just tried one of the substitutes in 
Arizona, a so-called virtual fence. I told the Department of 
Homeland Security it wasn't going to work. I said, ``You're 
going to spend a ton of money on the problem. You're going to 
have guys with alligator shoes selling you this radar stuff. 
They're going to be late. They're going to be way over budget, 
and in the end it's going to be a mess.'' And it ends up with 
guys in a radar tower trying to vector guys in off-road 
vehicles down through gullies and through brushland after a 
moving target once these folks come into the U.S.
    Whereas if you have the double fence and it's not a wall, 
it's two fences with a high-speed road in between, the Border 
Patrol can move 60 miles an hour on that road. That means in 
one minute a Border Patrolman who is a mile away, once he's 
alerted, can be at the scene of entrance by smugglers coming 
into the United States.
    Now, Chairman Norris, my first question to you would simply 
be wouldn't that be desirable for the Nation if you also had 
several ports of entry where members of the tribe, legitimate 
members of the Nation could come through and where they would 
monitor that border to make sure that people who are not 
members of the Nation did not come through without U.S. 
clearance? Would a fence with ports of entry make sense to you?
    Mr. Norris. Mr. Chairman, members of the committee, 
Congressman Hunter, I don't necessarily agree that the answer 
is a port of entry. When you look at the Nation--and as I 
described in my testimony, we didn't cross the border, the 
border crossed us. You know, we have had traditional passage of 
what is now the international border since time immemorial. We 
have enjoyed the opportunity to live as a people since time 
immemorial, well before the United States was even here, well 
before this international border was established.
    You asked me that we haven't come up with any solutions. We 
may not have come up with any solutions, but we have also 
allowed the establishment of vehicle barriers; we have allowed 
the establishment of the virtual fence; we have allowed the 
establishment of law enforcement centers; we have allowed the 
establishment of beacon lights; we have allowed the 
establishment of many more activities that the Border Patrol 
has wanted to establish within our Nation's lands, all in the 
interest of assisting and securing the--securing the United 
States border. We have done that as a people. We have allowed 
that as a people.
    We don't believe that the full-fledged wall is the answer 
along the international border. We have too many people that we 
have to be concerned about as far as tribal members of the 
Nation is concerned. We have too much interest in Mexico as a 
people--both historically, both culturally, both spiritually--
that we have to be able to traverse back and forth in and 
outside of Mexico into the United States.
    And so the answer isn't a wall. The answer isn't a wall to 
continue to divide our people from what has been traditionally 
their opportunity to come in and outside of the United States 
and participate in cultural, participate in spiritual, 
participate in traditional activities of our people. So, you 
know, in answer to your question, you know, we have done--we 
believe that we have done what we have allowed you--for the 
United States government to allow to establish that.
    We want a place at the table. If you're planning to build a 
wall along our international--75 miles of international border, 
we want to know about it. We want to know today and we want to 
know what opportunities we have to have some discussions with 
you about that type of activity.
    Mr. Hunter. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Mr. Reyes, any questions?
    Mr. Reyes. Thank you, Mr. Chairman. I am proud to call my 
friend--Duncan Hunter a friend and certainly a colleague. And 
where--I think I said on this 2,000-mile border with Mexico, 
about 10 percent is--in my opinion, based on 26 and a half 
years of working as a Border Patrol agent--is about what I 
think we would need. In the area that Chairman Hunter was 
talking about in San Diego, that was certainly a huge challenge 
because it was known as a soccer field and you had these huge 
waves of undocumented people coming through and we just did not 
have enough Border Patrol agents at that time.
    Now, we're on our way to hiring 18,000 Border Patrol 
agents. I think when you talk about the investment--foolish 
investment, in my opinion--of $50 billion on a fence or a wall, 
it doesn't make sense. I'd rather invest that in Border Patrol 
agents. These guys are trained, they're dedicated, they're 
professional. And I just can't say enough about the difference 
between hiring agents and putting up these kinds of barriers.
    If you go back and you look at any area--and you saw when 
Dr. Garcia put up the areas here at the university. You saw how 
that border zigzags here in this particular area. There is no 
way that you can, I think, engineer a fence or a wall--and 
correct me if I'm wrong, Chief--that would go through like a 
Chinese snake around the border area. To me it makes sense--
this is a perfect example of where we would use technology, we 
would use personnel, we would go to the community and say, 
``This is what--this is the challenge that we're facing. This 
is what we need to do. This is how we intend to do it. Give us 
your feedback and let's come up with an agreed-upon strategy.''
    That's--I've had many conversations with Secretary Chertoff 
and raised with him about consulting the local communities. I 
mean, making local communities partners because that's--I 
think--I believe that's the right way to do it. When I put in 
``Hold the Line'' in El Paso, I was told, ``It will never 
work,'' you know. ``None of that will be possible.'' Well, we 
proved people wrong.
    I think if you give the Chief an opportunity, if you give 
him the resources, the personnel--don't hang a fence around his 
neck. And, of course, he's sitting here. I've been in his 
position before. He's sitting here toeing the party line. He's 
got to if he wants to remain chief of this sector.
    Mr. Vitiello. And I do.
    Mr. Reyes. But I can tell you, these guys are the 
professionals. I've been out of that line of work for 12 years 
now in Congress, and I would put my--I would stake my 
credibility, my reputation, on these guys right here. Because 
they will tell you what to do. They will get together with the 
other chiefs there and say, ``Look, how do you think we need to 
do this thing? Let's work this as partners.''
    But, Chairman Hunter, we need to--instead of forcing 700 
miles of fence, as you and I have discussed many times, let's 
give them the resources, let's hire the agents, let's get the 
technology in place. I know that the mayor--because I've had 
many conversations with Mayor Foster and the mayors of the 
coalition--there are ways that we can address it.
    And the other part, by the way, is let's make Mexico a 
partner in this thing. We are wasting billions of dollars in 
the Middle East on a weekly basis. It seems to me like we ought 
to be able to invest a couple or $3 billion with a partner like 
Mexico to help manage this border. I think there is that 
solution.
    Now, I just wanted to ask one question. Mayor, in the 
context of your issue in Eagle Pass, we have been told that 
there are multiple strategies with multiple types of fencing 
that--that could be considered for an area like Eagle Pass. 
Could you tell this committee the consultations that you've 
had, the options that you've been provided, the--perhaps the 
opinions that have been sought?
    Mr. Foster. I want a fresh clock. Yes, sir. We've worked 
with DHS--I'm going to say '06 after the Secure Fence Act came 
out--but we've been working with them. Our municipal golf 
course goes up to the river between our two international 
bridges and continues to our golf course north of Bridge 1 in 
the city park. They want to eradicate 1.25 miles of carrizo 
cane, which is a wonderful idea. It would open up the golf 
course, the city park. It would open up the Cedar River. They 
wanted to overlay a structure to support Border Patrol vehicles 
on top of the existing cart path. Great idea. They wanted to 
continue that road along the banks of the river into our city 
park. Wonderful idea. They wanted to put 15 stadium light 
towers about a quarter of a mile off the river to illuminate 
our golf course and our city park at night. Wonderful idea. 
Then they wanted to put a decorative fence along that same 
alignment. Well, we, like most Texas border communities, have a 
resolution against any fences or any form of physical fiscal 
barrier within the city limits. And we tabled the item.
    I was approached by DHS late December of '06 and they made 
me aware, ``Washington has allowed us to take the fence facet 
off of that project.''
    ``Let me get you on a council meeting.'' They were on our 
first council meeting of '07, January 9. They made the same 
presentation, but with the deletion of the fence facet. To me, 
it's a park improvement project. We're a five-member council. 
We approved that project on a 3-2 vote. After the council 
meeting I asked the two dissenting council members, ``What is 
your issue with this project?''
    ``We do not trust them.'' That was on January 9th. Later 
that January, the Texas Border Coalition had the opportunity to 
meet with Secretary Chertoff in Washington, and I used that as 
an example of how border communities can work with DHS and 
everybody walk off with a win-win. He said, ``My hands are tied 
by the Secure Fence Act, and in my comments, that's been 
changed.''
    As the President's signature hit the paper on December 26th 
of 2007, we're no longer bound by the Secure Fence Act. In the 
State of Texas where you have such a magnificent natural 
boundary as the Rio Grande River, we continue to advocate 
eradicating the carrizo cane, the salt cedar that facilitates 
line-of-sight to the Border Patrol agents to the physical banks 
of the river. Let's upgrade our technology, our sensors that 
are embedded in the banks of the river. And let's get more 
boots on the ground. Because these gentleman have a tireless 
job, but they are so very successful.
    In our Texas border I think statistically speaking 
apprehensions are down somewhere in the neighborhood of 78 
percent. Conversely, on the California border, where you do 
have physical barriers, apprehensions are up somewhere in the 
neighborhood of 10 percent. So I think we can--we have control 
of our Texas border. The statistics speak for themselves. But 
the analogy is we've got a kitchen sink with a broken pipe. 
Instead of sending in a plumber to fix the pipe, which is 
immigration reform, we keep sending in more money. And when we 
fix the sink, we're going to get the neighbors off, get them 
off the river, and we're going to put them on the bridge as a 
guest worker. Canada, as we speak, is flying guest workers from 
Monterrey and Mexico City to Canada. And we can do the same. 
But we lack immigration reform.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Now let's turn to the gentleman 
from American Samoa for any questions you might have, Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I've been 
listening very attentively at some of the questions and--not 
wanting to be repetitious of some of the questions that were 
raised by members of the panel. Mr. Schultz, I have read I 
think there are approximately 30 Federal laws that come under 
the jurisdiction of the Department of Interior that have been 
waived by Secretary Chertoff. And I just wanted to ask you, in 
your capacity as a National Borderland Coordinator, do you work 
directly under the Secretary of the Interior.
    Mr. Schultz. I work--Mr. Congressman, I work for the Deputy 
Secretary of the Interior.
    Mr. Faleomavaega. With the Deputy Secretary of the 
Interior. So we have the Under Secretary of the Interior, the 
Deputy Under Secretary, then the Assistant Secretary of the 
Interior, then the Deputy Assistant Secretary of the Interior. 
So you are under the Deputy Under Secretary of the Interior?
    Mr. Schultz. I'm under Deputy Secretary of the Interior 
Lynn Scarlett. That's who I work for.
    Mr. Faleomavaega. And in the process of screening and 
approving these 30 Federal laws that Chertoff decided to waive, 
what was your procedure in waiving these Federal laws? Was it 
extensive, or just DHS says, ``We want to waive these laws 
whether you like it or not''.
    Mr. Schultz. Congressman, over the past nine months or so 
we've been working with Homeland Security on a variety of 
issues, including statutes that we deal with, and also the 
relatively compressed time frame under which DHS is required to 
build a fence.
    Mr. Faleomavaega. You mentioned--in your testimony you said 
you're under extremely compressed time. Are you saying that 
come December 2008, if the border fence does not appear between 
Brownsville and Matamoros, is all hell going to break loose.
    Mr. Schultz. Congressman, that's not my decision. What 
we're trying to do is respond to requests in a timely fashion 
that we have received from Homeland Security for access to our 
lands and for permits.
    Mr. Faleomavaega. How many illegal aliens have been 
monitored in this borderline you have between Matamoros and 
Brownsville as an example.
    Mr. Schultz. Honestly, Congressman, I don't have the 
answer.
    Mr. Faleomavaega. Maybe we should have checked it out.
    Mr. Vitiello. So far for the fiscal year, Congressman, the 
Rio Grande Valley Sector has apprehended just over 42,000 
illegal aliens in this particular area, and that includes folks 
that are smuggling drugs and human smugglers as well.
    Mr. Faleomavaega. Mr. Vitiello, you said that no land will 
be ceded to Mexico. And after listening to Dr. Garcia's 
testimony, the whole golf course is going to be ceded over 
there--am I correct--in the way the fence is being proposed 
now.
    Mr. Vitiello. As currently proposed, the fence will be 
north of what is the golf course now. But our activity with 
regard to enforcement--the enforcement footprint, if you will, 
that is exercised by the Border Patrol--will remain as it is 
today. We'll be patrolling the river by boat as we do now. 
Agents will be on the river's edge and using the levee roads 
and the roads that are constructed along with this fence to 
patrol the border much in the same manner that we are now.
    Mr. Faleomavaega. So, the good citizens of Brownsville have 
to get permission to go over and play golf.
    Mr. Vitiello. That's not correct. We're going to be present 
on both sides of that fence.
    Mr. Faleomavaega. And how many Border Patrol people are 
going to be involved in the security and the monitoring and 
all.
    Mr. Vitiello. Between Brownsville and Ft. Brown there is 
approximately--there's well over 600 agents that are on duty in 
this area, that are assigned to these regions.
    Mr. Faleomavaega. Just between the borderline between 
Mexico and the U.S. now, speaking just to Congressman Ortiz's 
district, what's the total mileage that we're talking about in 
the borderline between Mexico and the U.S.
    Mr. Vitiello. I'm not sure about the jurisdiction of the 
district. My area, the Rio Grande Valley sector, is 316 miles 
U.S.-Mexico border, and it's like 380 miles up along the Texas 
Gulf Coast.
    Mr. Faleomavaega. That 300-some miles, can you just wing 
it? About how many is involved in Congressman Ortiz's district?
    Mr. Vitiello. I'm going to be--it's going to be in the 
neighborhood of 60, 70.
    Mr. Faleomavaega. And there's going to be fences in that 
whole 300-mile stretch.
    Mr. Vitiello. No, that's not correct. What we've got--I 
don't know how many segments, but if you add up the segments 
that we've requested, it's just under 70 miles.
    Mr. Faleomavaega. So there are some exceptions.
    Mr. Vitiello. They're not exceptions. What we looked at 
were the activity levels and made an assessment where fencing 
would assist us in the work that we do. Typically in this area 
the fencing is dedicated to locations where there's an urban 
interface where both cities in Mexico and the U.S. are close to 
the border or are built up close to the border. That fencing in 
those areas assists us in being more efficient and more 
effective.
    Mr. Faleomavaega. I just want to say to Chairman Norris it 
was my privilege a couple of years ago to visit your Nation. 
And hopefully a couple of my relatives playing for the Arizona 
Wildcats will come and help your football team. Chairman 
Norris, one thing you mentioned about being at the table. If 
you're not at the table, you're going to be on the menu. And 
please stay the course and continue your efforts in making sure 
that the people and your Nation's needs and interests are 
protected.
    And, Mayor Foster, you know, as someone once said, unjust 
laws are no laws at all. And would you consider these waivers 
of these 37 laws just an effort on the part of the Federal 
government to do this?
    Mr. Foster. Yes, sir, absolutely. We--our country is based 
on law. We are based on and we operate by law. I mean, that 
would be lawless if we had--again, for that reason, we're 
asking to have the Secretary's waiver authority repealed. I 
mean, where does it end?
    Mr. Faleomavaega. Is this proposed fence construction, is 
it going to have any impact on economics between Matamoros and 
Brownsville as an example?
    Mr. Foster. Yes. In the Valley, there's 69.9 miles of 
fencing scheduled that would be within 1 to 3 mile slips. It 
will have an economic impact. I mean, we have--one of the 
issues with the Texas border, of the 2,000 miles of southern 
border, Texas enjoys approximately 1,250 miles. We're the most 
populated border. We have the most relations with sister 
cities. That's not to say that we don't have issues on those 
borders.
    Mr. Faleomavaega. I'm sorry, Mr. Foster. The Chairman is 
going to kill me if I continue with the questioning.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, sir. Mr. Ortiz.
    Mr. Ortiz. Thank you so much. You know, we are talking 
about and I've talked to some people here about creating 
funnels. They would call it a certain way, but we have created 
a funnel. Because when we have a 2,000-mile border and only 700 
miles of fences, they don't think they can go around those 700 
miles and go to those 1,300 miles? And one of the things that 
we haven't touched on today is the Canadian border. What have 
we done--Chief, maybe you can help me. Are we doing anything on 
the Canadian border?
    Mr. Vitiello. I'm not aware of any specific projects that 
are ongoing with the Canadian border in regards to fencing as a 
separate infrastructure. I can tell you that in my previous 
assignment in Vermont on the Canadian border, the only 
particular areas of that border where we knew that 
infrastructure to block the paved roads and unpaved roads that 
crossed the border--we looked for tactical infrastructure to 
stop that traffic, that traffic that we knew was putting us all 
in jeopardy. So there may not be the same kind of tactical 
infrastructure contemplated for the northern border, but it 
will be part of a complete solution.
    But let's not forget that the fence that we're requesting 
here is not an ultimate solution. We recognize that people can 
defeat physical infrastructure. We're asking for fencing. We're 
doing very well in improving the level of staff, Border Patrol 
agents and mission support folks in every sector. And then 
we're looking on top of all, where there will be fence and 
where there won't be fence, a technological solution that cues 
the activity and increases our efficiency. So it's not just 
walls or fences. It's part of a complete solution that includes 
all three elements.
    Mr. Ortiz. Am I correct that the border, the length of the 
border in Canada is twice as long as the Mexico side?
    Mr. Vitiello. Yes.
    Mr. Ortiz. OK. Are you familiar--and I know you are--with 
the OTMs?
    Mr. Vitiello. Yes.
    Mr. Ortiz. Have you heard of that?
    Mr. Vitiello. It's the agency vernacular for folks that we 
arrest that are not from Mexico.
    Mr. Ortiz. And I can remember, you know, and I think I 
brought that to the forefront, that the--if you were coming 
across, you know, and if you were a Mexican, those were the 
only ones that were apprehended. Am I correct?
    Mr. Vitiello. Well, there was and there is a difference in 
sort of the options available for folks that are not from 
Mexico that are arrested here. Since Mexico is our neighbor, 
the people that are apprehended here from Mexico are treated in 
a separate way under the administrative process.
    Mr. Ortiz. But the thing is this. Now, I remember going to 
some of the checkpoints here. People would come in and say, 
``I'm not Mexican. Arrest me. Arrest me. I'm not Mexican.'' 
They had no identification whatsoever. And they were given a 
piece of paper with no picture, no fingerprints, no nothing, 
and they were told to report to an immigration law office 
within 45 days.
    Mr. Vitiello. Previously we did not have the detention 
space or funding available to hold folks that were arrested 
here that weren't from Mexico to allow them to have their due 
process right. Under the administrative proceeding, they were 
given a notice to appear. That policy has ended.
    Mr. Ortiz. But it lasted for about two or three years.
    Mr. Vitiello. I'm sorry.
    Mr. Ortiz. Or maybe longer than that. The OTMs, how long 
was it being done?
    Mr. Vitiello. It was for many years. But I can tell you 
that in 2006 in this sector and all the others in the south 
along the border, those folks are now detained and held in 
custody until their administrative process is completed. So 
that the policy of catch and release--called catch and 
release--has been ended. With the great support from Congress 
and the leadership shown by the Department of Homeland 
Security, we are now able to detain everyone who is amenable to 
deportation proceedings within the United States.
    Mr. Ortiz. And I know we have numbers. We have two more 
panels. But it looks to me like all of a sudden we saw the 
light. The fence--the fence, you know, that's what we need to 
do after we let thousands and thousands and thousands, maybe 
millions of people come in, not only from Mexico--most of the 
people from Mexico come here looking for jobs. People from all 
over the world came through because they were not Mexicans. And 
all of a sudden we've seen the light and the answer is a fence, 
a 700-mile fence--and let me--and I want to be real quick now. 
Are we having any damages done to the fencing that is being 
built now?
    Mr. Vitiello. I'm aware that once infrastructure is in 
place on the border, if it's not protected and patrolled 
adequately, smugglers will try to defeat any physical 
infrastructure. That's part of our charge when we're trying to 
take operational control of the border, we're aware of when 
that activity occurs and do our best to stop it.
    Mr. Ortiz. Can you give us an estimate as to how much it 
costs to repair?
    Mr. Vitiello. I'm happy to go back to the agency and get 
this sort of nationwide wrap-up on these types of things but I 
don't have it today.
    Mr. Ortiz. And we appreciate the work that you do and I 
know that sometimes you're mandated by higher-ups and we 
understand that.
    Mr. Vitiello. We appreciate the support. And let me be 
clear that the 69.6 miles that we've requested for the Rio 
Grande Valley is something that I've been able to validate 
since my assignment began in July. And I would not be asking 
the taxpayers or the Congress or the department, the CBP, to 
support that if I didn't believe it was necessary.
    Mr. Ortiz. We can't afford to be spending another $20 
million like we did on technology in Arizona when our people 
are having to pay $4 a gallon on gasoline. And that's, to me, 
you know, taxpayers' money. That's the taxpayers' money. I 
appreciate the work you've done. And, again, we have two other 
panels. I think--go ahead.
    Mr. Foster. Maybe the Secretary could get Boeing to waive 
that fee.
    Mr. Grijalva. Thank you, Mr. Vitiello. Anyway, let me--I 
have--in lieu of follow-up questions, I would encourage my 
colleagues at the dais here to forward written questions. I 
certainly had a couple of rounds, but I think that for the sake 
of time and for the sake of our other panelists that have 
patiently been waiting, I will submit those for the record. And 
with that, let me thank this panel very much for your testimony 
today. It's much appreciated and invite the next panel up. 
Thank you.
    [Brief recess.]
    Mr. Grijalva. Thank you very much. Pursuant to Clause 2 of 
House Rule 11, I ask that the witnesses please stand and raise 
their right hand to be sworn in.
    [Witnesses sworn.]
    Mr. Grijalva. Let the record indicate that the witnesses 
answered in the affirmative. You're now under oath and we'll 
begin to hear your testimony. And we'll begin with The Most 
Reverend Raymundo Pena, Bishop of Brownsville. And, Bishop, 
with all due respect, you don't know how uncomfortable I was 
swearing you in right now. That's another story for another 
time. Welcome, sir. Thank you, Father, for your time, and we 
look forward to your testimony.

         STATEMENT OF THE MOST REV. RAYMUNDO J. PENA, 
                     BISHOP OF BROWNSVILLE

    Bishop Pena. Thank you. Good afternoon, Mr. Chairman, Madam 
Chair, and members of the Subcommittee on Fisheries, Wildlife 
and Oceans. I thank you for this opportunity to speak to you 
regarding this very important issue. As I begin my testimony, 
let me offer a few observations that will allow for a 
substantive and truthful discussion on the proposed topic of 
this hearing. As a man dedicated to pastoral ministry, let me 
remind everyone here that the issues before this Subcommittee 
should not be used for partisan advantage. We have to guard 
against policy disputes that encourage or excuse ethnic 
hostility or discrimination. We must continue to seriously 
discuss legitimate concerns regarding the protection of our 
borders, curbing the flow of unlawful immigration, the 
potential displacement of native workers and the possibility of 
exploitation with guest worker programs.
    These issues are not to be ignored, exaggerated, dismissed 
or used as political weapons. The Church calls for charity and 
justice at all times and especially in a public forum such as 
this.
    The wall has been discussed very frequently and thoroughly 
in this part of Texas because our community is a border 
community. For many Americans the emphasis is on the word 
border, but for us who have lived in this area for generations, 
the reality is that community comes first, and our community 
has existed long before the border was ever drawn.
    This wall, built on U.S. soil, will not only move the U.S. 
border inward from the Rio Grande River, but will also alienate 
people and businesses who live and work between the wall and 
the border, in effect creating a zone where U.S. citizens and 
businesses exist south of the border.
    In addition to the existing human community, which has 
thrived in this land for hundreds of years, the Rio Grande 
Valley houses several wildlife refuges and parks that preserve 
God's creation. Therefore, let me humbly advise the 
Subcommittee that the word ``expedite'' should not be part of 
the dialogue. For a great many people living in the Rio Grande 
Valley, building a wall along the border would not mean 
protection from the outside world, but the building of a 
barrier between families, friends and businesses.
    I am very concerned as well about the wall's proposed 
location and the possibility that it might be a barrier that 
may prevent us from fulfilling our pastoral mission in parts of 
this diocese. It would be wrong to discuss this in terms of 
expecting--of expediting construction before our community has 
had a chance to voice its opinion on the merits of why we 
oppose the wall.
    We oppose the construction of the wall because one-
dimensional solutions may be simple, but they are often 
illusions and can make things worse. No fence we can build will 
be long enough or high enough to wall out the human and 
economic forces that drive undocumented immigrants into our 
country. We oppose the wall because immigration policies that 
begin and end at our borders will not be successful. We oppose 
the wall because residents of the Valley and visitors from 
across the country stand to lose the opportunity to visit and 
enjoy the vibrant wildlife areas unique to our Valley, places 
where all can discover and connect with God's creations and 
with one another.
    I have, therefore, supported Valley Interfaith's petition 
against the border wall and have invited our parishioners to 
support it as well. To date over 10,000 registered voters have 
signed this petition. Instead of a wall, we need Congress to 
pass comprehensive immigration reform. Instead of a wall, we 
need national policies that help overcome the pervasive poverty 
and deprivation, violence and oppression that push people to 
leave their own homes. We need policies that promote family 
unity, debt reduction, economic development, foreign aid and 
fair global trade. These are essential elements that the Church 
recommends for effective comprehensive immigration reform.
    Let me say again that rather than debating the impacts of a 
wall, what we need is a constructive discussion that neither 
diminishes our nation nor divides our communities, but instead 
achieves realistic, practical and principled steps toward 
solving the challenges that face our nation. I thank you for 
this opportunity. I thank you for your attention and I will 
welcome your questions.
    [The prepared statement of Bishop Pena follows:]

           Statement of The Most Reverend Raymundo J. Pena, 
                  Bishop of the Diocese of Brownsville

    Good Morning Mr. Chairman and good morning to all the members of 
the Subcommittee on Fisheries, Wildlife and Oceans. I thank you for 
this opportunity to speak to you regarding this very important issue 
and I welcome you to our beautiful State of Texas and our home in the 
Rio Grande Valley. My name is Raymundo J. Pena and I am the Bishop of 
the Roman Catholic Diocese of Brownsville. Our diocese operates one 
hundred and seven parishes and missions for the approximately eight 
hundred thousand Catholics who live in the Valley and we also serve the 
greater population of nine hundred and forty thousand through a shrine 
and retreat center, twelve parochial schools, five centers for social 
services, three homes for the aged, and religious education programs at 
all parishes and missions.
    As I begin my testimony, let me offer a few observations that will 
allow for a substantive and fruitful discussion on the proposed topic 
of this hearing, ``Walls and Waivers: Expedited Construction of the 
Southern Border Wall and Collateral Impacts to Communities and the 
Environment.''
    This title sounds imposing and, indeed, the topic of building a 
wall between the United States and Mexico has generated a lot of 
controversy in our community. Passion and strong convictions can be 
good ingredients for an informative civic discourse, however, anger is 
no substitute for wisdom, attacks are no substitute for dialogue, and 
feeding fears will not help us find solutions to the challenges that 
lie before us.
    As a man dedicated to pastoral ministry, let me remind everyone 
here that the issues before this Subcommittee should not be used for 
partisan advantage. We have to guard against policy disputes that 
encourage or excuse ethnic hostility or discrimination. We must 
continue to seriously discuss legitimate concerns regarding the 
protection of our borders, curbing the flow of unlawful immigration, 
the potential displacement of native workers, and the possibility of 
exploitation within guest worker programs. These issues are not to be 
ignored, exaggerated, dismissed, or used as political weapons. The 
Church calls for charity and justice at all times, and especially in a 
public forum such as this.
    The ``Wall'' has been discussed very frequently and thoroughly in 
this part of Texas, because our community is a border community. For 
many Americans the emphasis is on the word ``border'' but for those 
families that have lived in this area for generations, the reality is 
that the community comes first and our community has existed long 
before the border was ever drawn. This Wall, built on U.S. Soil, will 
not only move the U.S. border inward from the Rio Grande River, but 
will also alienate people and businesses who live and work between the 
Wall and the border, in effect creating a zone where U.S. citizens and 
businesses exist ``south of the border.'' This is problematic not only 
for the movement of people and goods between the U.S. area north and 
south of the wall, but also because it creates a new mentality of who 
is and who is not a U.S. citizen.
    In addition to the existing human community, which has thrived in 
this land for hundreds of years, the Rio Grande Valley houses several 
wildlife refuges and parks that preserve God's creation. Wildlife areas 
including the International Falcon Reservoir, Bentsen-Rio Grande Valley 
State Park, Santa Ana National Wildlife Refuge, Lower Rio Grande Valley 
National Wildlife Refuge, Nature Conservancy's Southmost Preserve and 
Texas Sabal Palm Sanctuary would be threatened by such a wall. These 
parks enhance family life in our community.
    Therefore, let me humbly advise the Subcommittee that the word 
``expedite'' should not be a part of this dialogue. For a great many 
people living in the Rio Grande Valley building a wall along the border 
would not mean protection from the outside world, but instead, the 
collateral impact of building a wall would mean building a barrier 
between families, friends, and businesses. The wall would mean 
physically living, on a daily basis, with a massive edifice that almost 
no one here wants. There is a great deal of confusion in our community 
about the location of the wall and which properties and communities 
would be directly impacted. I am very concerned about the wall's 
proposed location and the possibility that it might be a barrier that 
may prevent us from fulfilling our pastoral mission in parts of this 
diocese. It is not clear to me if our historic church properties and 
missions might be impacted. It would be wrong to discuss this in terms 
of expediting construction before our community has had a chance to 
voice its opinion on the merits of why we oppose the wall.
    We oppose the construction of the wall because one-dimensional 
solutions may be simple, but they are often illusions and can make 
things worse. No fence we can build will be long enough or high enough 
to wall out the human and economic forces that drive undocumented 
immigrants into our country. We oppose the wall because immigration 
policies that begin and end at our borders will not be successful. We 
oppose the wall because it poses a serious threat of increased flooding 
in our region in the event of a hurricane, which on this coast is not a 
possibility, but a reality. We oppose this wall because residents of 
the Valley--and visitors from across the country--stand to lose the 
opportunity to visit the vibrant wildlife areas unique to our Valley, 
places where all can discover and connect with God's creation and with 
one another. I have, therefore, supported Valley Interfaith's petition 
against the Border Wall and have invited parishes in the diocese to 
support it, as well. To date over 10,000 registered voters have signed 
this petition.
    Instead of a wall, we need Congress to pass comprehensive 
immigration reform. Instead of a wall, we need national policies that 
help overcome the pervasive poverty and deprivation, violence and 
oppression that push people to leave their own homes. We need policies 
that promote family unity, debt reduction, economic development, 
foreign aid and fair global trade. These are essential elements that 
the Church recommends for effective comprehensive immigration reform.
    I should also add that a collateral consequence from Congress not 
passing any comprehensive immigration reform has been the flood of 
local and state proposals in Texas to deal with this federal issue. In 
our most recent session of the state legislature, more than sixty bills 
were introduced that attempted, among other things, to fund local law 
enforcement agencies to act as federal border agents, bar the 
undocumented from access to any public education or emergency 
healthcare, and deny citizenship to any child born in Texas to 
undocumented parents. Fortunately, nearly all of these punitive 
measures were defeated, last year. Our next legislative session is 
scheduled to begin in January and we are bracing for all these bills to 
be re-introduced.
    Let me say again, that rather than debating the impacts of a wall, 
what we need is a different type of debate. We need a constructive 
discussion that neither diminishes our nation nor divides our 
communities, but instead achieves realistic, practical, and principled 
steps towards solving the challenges that face our nation.
    Thank you again for your attention, I look forward to any questions 
that you might have for me at this time.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me now call upon Ms. Betty 
Perez, local private landowner active in this community. 
Looking forward to your testimony.

       STATEMENT OF BETTY PEREZ, LOCAL PRIVATE LANDOWNER

    Ms. Perez. Thank you. My name is Betty Perez. I am with No 
Border Wall, a grassroots coalition of people coming from many 
different perspectives to oppose the wall. We thank you, 
Chairman Grijalva and Chairwoman Bordallo, for having this 
field hearing here in the Valley, and we thank you all for 
coming down to the border to hear from the community that will 
suffer most of the consequences of the border wall.
    Members of the coalition, of the No Border Wall Coalition, 
may differ as to the solution of the immigration problems and 
the security problems the U.S. suffers, but we are all united 
in one aspect, we don't believe this wall is the answer. Our 
diverse group consists of people who really care about the Rio 
Grande Valley's environment and who don't want to see it 
scarred, social activists and clergy who believe that we are 
treating desperate Mexican people inhumanely, farmers and 
ranchers who mostly want to get water to their crops and their 
cattle and easily access their land, business professionals 
worried about the effects a wall will have on the economy of an 
already impoverished area, and historians and archaeologists 
who are afraid we'll lose some of our rich history. There are 
people in this group that think this wall is plain and blatant 
racism, those that are afraid the border is becoming more and 
more militarized, and those who are dismayed at the way the 
government is trampling upon our Constitutional rights.
    We don't want a war zone in the Valley. We don't want to 
make enemies of our Mexican friends and neighbors, and we fear 
that the United States is trending toward isolating itself from 
the rest of the world when we wall ourselves off.
    We know that Secretary Michael Chertoff and the DHS mislead 
the Nation by saying that residents along the border have had 
an opportunity to make their views heard numerous times. In 
fact, the handful of open house meetings the DHS held left 
people frustrated and angry that their questions were not 
answered and that their opinions could only be written or given 
to a stenographer. Now even that input will not be released 
because of Mr. Chertoff's waivers. Where did those comments go?
    Other than this hat I wear called No Border Wall activist, 
I wear a few others in giving my testimony today. I'm a 
landowner, a native plant grower, and I manage my family's 
cattle ranch and dryland farm. Thankfully, it's not right on 
the border. I helped organize a nonprofit canoe touring 
enterprise in the Rio Grande, which caters to ecotourists, and 
I can proudly say I'm a paddler. I'm a Valley native of Mexican 
descent and have roots here that go back centuries. There are a 
lot of people like me in the Valley who can talk long and 
proudly of our family history. My family's ranch was bought in 
the '30s, but my roots in the Valley go back into Mexico and to 
the Texas land grants of the 1700s. There are Valley people 
along the river who still own land first granted by the king of 
Spain.
    We know how hard it is to hold on to land through the 
years, through hard times, high taxes, drought and eminent 
domain, but the longer you do hold on to that land, the more 
the land becomes part of who you are.
    As a rancher and farmer, I also understand how important 
access to water is. The Valley is still in its worst recorded 
drought in history. You brought rain. We thank you. It didn't 
stop the drought, however. We measure rainfall by the 
hundredths of an inch. The ranch got 1.01 inches last night. 
The wall will diminish essential access to water for farmers 
and ranchers along the river.
    The hat that I wear that has led me to actively work 
against the wall is that of environmentalist. Because of the 
Valley's location on a major flyway for migratory birds in an 
area that includes coastal, riverine, semi-arid and semi-
tropical habitats, we have one of the nation's richest 
collections of birds, butterflies and plants. We have rare 
species of cats that most of us only dream of seeing. We have a 
beautiful river, a getaway, a recreational relief from the 
heat, the dust and the busy metropolis that most of the Valley 
has become.
    It is this river that brings birders and butterfliers and 
an estimated $125 million a year from ecotourism, this river 
that we will lose access to because of the wall.
    And the Rio Grande is the basis of a fantastic dream for 
many of us, the completion of 275 miles of an international 
greenbelt running alongside it and across it from the Gulf of 
Mexico to Falcon Dam. This wildlife corridor extends down the 
Gulf Coast into Mexico's wetlands and would have the potential 
to expand to the nearby mountains of Mexico, even down into 
Central America.
    In many places along the river the corridor of wild habitat 
extends north over the levee, so the proposed levee wall would 
cut off the habitat to the north from access to the river and 
the corridor. Congress has supported the wildlife corridor with 
funding for over 20 years. The wall and levee wall will 
devastate it. It is a crime to take down 100-year-old trees 
lining the river in Starr County necessary for rare birds like 
the red-billed pigeon and the gray hawk for a wall that most of 
us believe won't work.
    It is wrong to wall off our Sabal Palm Grove, the nation's 
pristine Southmost Preserve and the refuge tract at the Lower 
Rio Grande Valley National Wildlife Refuge. It is wrong to cut 
off access to water to terrestrial animals north of the levee 
wall.
    Today the coalition is submitting a letter to Congress 
asking for a moratorium on the construction of the wall. Quote, 
``A moratorium will allow time to assess the value of border 
walls in the overall national security strategy and ensure that 
we do not needlessly sacrifice the social, economic, and 
environmental health of our border region.'' It has been signed 
by environmental, religious, social justice and business groups 
from all over the country. Our list of signatories grows by the 
day. I have submitted it in my written testimony and I'd like 
to personally present it to each of you today.
    We in No Border Wall have been concerned enough to do 
something about the wall, to call and write letters to you, our 
representatives, to organize rallies against it and get the 
word out to the rest of the Nation that something awful is 
happening down on the Rio Grande. We're still trying to do 
that, and thank you for giving us this opportunity.
    [The prepared statement of Ms. Perez follows:]

           Statement of Betty Perez, No Border Wall Coalition

    My name is Betty Perez. I am an active member of the coalition, No 
Border Wall. Thank you Chairman Grijalva and Chairwoman Bordallo for 
organizing this field hearing, and thank you all for actually coming 
down to the border to listen to what our community has to say about the 
border wall.
    Secretary Michael Chertoff and the DHS are either out of touch or 
misleading the nation in saying that residents along the border have 
had this opportunity to be heard many times before. The handful of open 
house meeting they held, left people frustrated and angry that their 
questions were not answered and that their opinions could only be 
written or given to a stenographer. These meetings were not 
opportunities for public input or dialogue; they were rigid forums 
where DHS did not listen or respond to legitimate concerns. Now even 
that input we are told will not be gathered and released because of Mr. 
Chertoff's abuse of the REAL-ID Act waivers.
    I'll venture to say that if you get out and actually talk to the 3 
million people who live along the Texas border and who are being 
directly affected by this intrusive wall, you will find that 
overwhelmingly, they are against it. Those who are for it have loud, 
angry voices, and those are the ones being heard in Washington. Mostly 
folks down here will say that the wall is a big waste of money, there's 
serious doubt we can stop the Bush Administration from rolling over our 
wishes to stop it, and that someone's getting richer because of it.
    I'll sum up who the No Border Wall group is with words written by 
one of the No Border Wall founders, Scott Nicol: ``NO BORDER WALL is a 
grassroots coalition of groups and individuals united in our belief 
that a border wall will not stop illegal immigration or smuggling and 
will not make the United States any safer. A border wall tells the 
world that we are a fearful nation, not a strong and confident nation, 
and that we are unable to address difficult issues in an intelligent 
and meaningful way. It will do irreparable harm to our borderlands and 
our country as a whole.''
    The coalition consists of people coming from a lot of different 
perspectives and backgrounds. There are people who really care about 
the Rio Grande Valley's environment and who don't want to see it 
scarred; there are social activists and clergy who believe that we are 
treating desperate Mexican people inhumanely; there are farmers and 
ranchers who mostly want to get water to their crops and their cattle 
and easily access their land; there are business professionals worried 
about the affects a wall will have on the economy of an already 
impoverished area. There are people in this group that think this wall 
is plain and blatant racism; those that just love this area and don't 
want to see our unique culture ruined by a wall; those that are afraid 
the border is becoming more and more militarized; and those that are 
dismayed at the way the government is trampling upon our Constitutional 
rights.
    I should tell you now why we use the word wall. When I hear the 
word fence I think of the barbed wire fences that separate properties 
and pastures. Even the cows can get through those if the grass is a lot 
greener on the other side. Or I think of the cedar fence around my 
mother's yard. It's easy to get past a fence, not so easy to get past a 
wall. And that's what has been proposed here by the Bush 
Administration--a wall that illegal immigrants and terrorists can get 
through by going over it or under it or around it--but that terrestrial 
wildlife will not be able to pass. You can't change what a bad thing 
inherently is by giving it a sweeter name. It's not a fence and it's 
not just a levee with its river side made of 2' thick and 18' high 
cement. It's a wall. Why is Secretary Chertoff building it? The 
appropriations bill passed last December removed the requirement that 
Mr. Chertoff build walls in our area. But he's doing it anyway.
    When I think of a wall, I think of the one being built between 
Israel and Palestine, and of the ongoing violence on the border between 
those warring countries. Or I think of the wall between East and West 
Berlin, and how that monstrosity once separated the German people. Or I 
think of the Wall of China that isolated that country from the rest of 
the world for centuries. We don't want a war zone here in the Valley. 
We don't want to make enemies of our Mexican friends and neighbors, and 
we don't think the United States should isolate itself from the rest of 
the world.
    Other than this new hat I wear called activist, I wear a few other 
hats in giving my testimony today--I'm a landowner and manage my 
family's cattle ranch and dry land farm, which thankfully is fourteen 
miles north of the border and not directly affected by the wall. I 
helped organize a canoe touring enterprise on the Rio Grande when I was 
director of the Friends of the Wildlife Corridor, and can proudly wear 
the hat of a paddler now. I'm a Valley native of Mexican descent and 
have roots in the Rio Grande Valley that go back centuries on both my 
parents' sides
    As a rancher, farm owner and native plants grower, I strongly 
relate to those who are in danger of being cut off from their water 
source by a wall. I worry about our cattle and crops, because it has 
been 6 months since we've had a decent rain. Much of the water that our 
cattle and the wildlife drink on our land is drawn up by windmills. Our 
farm land is at the mercy of rain; we don't have irrigation. The native 
plants we grow are watered from rain water that we collect off our 
roofs. To put it another way, water is not taken for granted in these 
parts. We measure rainfall by the hundredth of an inch after all. So if 
farmers and ranchers along the river have a difficult time getting to 
their water in 100-degree heat, you know why most of them are against 
the construction of this wall.
    There are a lot of people like me in the Valley who can talk long 
and proudly about their deep roots here. Although the ranch my family 
owns now was bought in the 30's by my maternal grandfather, my roots in 
the Valley go back into Mexico and to the Texas land grants of the 
1700's on both my maternal and paternal sides. There are Valley people 
who still own family land going back centuries. All of you have no 
doubt heard about Dr. Eloise Tamez' struggle to keep what family land 
she has in El Calaboz or of the citizens of Granjeno, who have already 
lost some of their land to the levee system. It's hard to hold onto 
land through hard times, high taxes, drought, and eminent domain. But 
the longer you do, the more the land becomes part of who you are. It is 
wrong for our government to seize it and tear it in two for a wall that 
won't work.
    At heart though, and maybe partly because of these other hats I 
wear, I'm an environmentalist. I got involved in actively protesting 
the wall, because I am an environmentalist. We have something quite 
unique here in the Valley that I strongly feel needs to be protected 
and enhanced. Because of our location on the Central Flyway for 
migratory birds, in an area that includes coastal habitats, riparian 
habitats, semi-arid and semi-tropical habitats, we have an incredible 
biodiversity of birds, butterflies and plants. We have rare species of 
cats that most of us dream of seeing. We have a beautiful river, a 
getaway, a recreational relief from the heat, the dust and the busy 
metropolis that most of the Valley has become. The river should be 
promoted for its recreational and health benefits and not made 
inaccessible. This is an area that has few such recreational 
opportunities and a population that has a large incidence of diabetes, 
due to poor eating habits and little exercise.
    And the river is the basis of a wonderful dream for many of us--the 
completion of 275 miles of greenbelt running along the Rio Grande, on 
the Mexican side too, from the Gulf of Mexico to Falcon Reservoir. This 
wildlife corridor would extend across the river, and down the wetlands 
of the Gulf Coast. It wouldn't stop at Falcon either, this corridor for 
wildlife has the potential to expand into the nearby mountains of 
Mexico, and even down into Central America, keeping endangered and non-
endangered species alive and healthy. It wouldn't stop at our flood 
control levees, which were not intended to stop wildlife, or illegal 
immigrants and terrorists for that matter, but would reach into the 
tiny islands of brush on the north side of the levees that need to be 
connected to the river system.
    The levee-wall being proposed by some local representatives is a 
bad idea. It will be just as bad for the environment as the original 
fence proposals. It is absolutely impenetrable to terrestrial animals--
a true wall even though local representatives have characterized it by 
saying we will no longer have the wall in some areas due to get it. 
Furthermore, with Chertoff's latest waivers, specifically for the 
levee-wall, no environmental impact studies will have to be made for 
it. The idea is being rushed along with no proper studies of its 
safety. And it is bound to insure that the Mexican side of the river 
with levees two-feet high in some places is what ends up getting 
potential flood waters from a hurricane.
    When I had the time to volunteer for the Friends of the Wildlife 
Corridor, I lobbied in DC two times to get Congress to appropriate 
money so that land along the river, mostly farmland, could be bought at 
good prices from willing sellers and turned into the corridor. We were 
relatively successful. Nearly $90 million dollars into the project, the 
Lower Rio Grande Valley National Wildlife Refuge is over half-
completed. And now Congress has voted to bulldoze through hundreds of 
those hard-earned acres. When 95% of native brush is already gone in 
the Lower Rio Grande Valley, then each acre cleared is significant.
    Ecotourists from all over the world generate more than $125 million 
dollars for local economies, which is very significant for counties 
with an average annual median household income of $15,000. Birders come 
here to see birds reaching their northern limits here in the Valley; 
that are found nowhere else in the U.S. They come to see ``million 
dollar birds'' like the brown jay, the green kingfisher, the great 
kiskadee and the green jay. They come to get rare glimpses of the red-
billed pigeon and gray hawk, two birds that need the large trees that 
grow along the river to roost and nest in. In Starr County these trees, 
some of them hundreds of years old, will be bulldozed right next to the 
river.
    How will these tourists access the best birding areas? Will refuge 
managers let staff or work and fire crews go between the walls and the 
river? Probably not; it won't be safe. How will the 300 fires that 
start in the wildlife corridor every year be brought under control? 
Will Sabal Palm Grove and Southmost Preserve have to be closed because 
they are on the river side of the levees? Probably; it won't be safe.
    No Border Wall is asking Congress for a moratorium on the border 
wall. I quote from our moratorium letter: ``We are deeply troubled by 
the headlong rush to build walls along the United States' southern 
border without meaningful consideration of the walls' negative impacts 
on border communities and the environment, and without evidence that 
such walls will enhance national security or curtail illegal 
immigration and smuggling. The border wall is a monumental project that 
will severely impact the entire 1,954-mile southern border and the 11 
million U.S. citizens who live along it. A moratorium will allow time 
to assess the value of border walls in the overall national security 
strategy, and ensure that we do not needlessly sacrifice the social, 
economic and environmental health of our border region.'' I am 
including our moratorium letter at the end of this written testimony.
    We in No Border Wall have been concerned enough about the building 
of this wall to try and do something about it, to exercise our 
democratic rights, to call and write letters to our representatives, 
organize rallies against it, and try to get the word out to the rest of 
the nation that something awful is happening down on the Rio Grande. 
Thank you again for this opportunity to hear our voices.
    Call for a Moratorium
    Dear Representative,
    We urge you to enact an immediate moratorium on border wall 
construction. We are deeply troubled by the headlong rush to build 
walls along the United States' southern border without meaningful 
consideration of the walls' negative impacts on border communities and 
the environment, and without evidence that such walls will enhance 
national security or curtail illegal immigration and smuggling. The 
border wall is a monumental project that will severely impact the 
entire 1,954-mile southern border and the 11 million U.S. citizens who 
live along it. A moratorium will allow time to assess the value of 
border walls in the overall national security strategy, and ensure that 
we do not needlessly sacrifice the social, economic and environmental 
health of our border region.
    There are numerous problems with the border wall project and the 
way it has been implemented thus far:
    The Department of Homeland Security has yet to develop a coherent 
border strategy: Rather than evaluating the relative effectiveness of a 
border wall versus other security measures such as more boots on the 
ground, DHS begins with the conclusion that border walls must be built. 
Even though construction is due to begin immediately, DHS still claims 
that they have not yet determined the border walls' final route. The 
Draft Environmental Impact Statements and Environmental Assessments 
written for the border wall lack key information that is required by 
federal law, including final maps and design specifications. In 
addition, alternatives that were rejected outright in the draft 
environmental studies, such as building the walls into the flood 
control levee system, are being hastily revived and pursued. Critical 
questions regarding the levee-walls' impacts on public safety, on 
private and public property, and on wildlife remain unanswered.
    The border wall does not appear to be based on operational needs: 
According to the Border Patrol's own statistics, illegal crossing of 
the southern border decreased significantly between 2006 and 2007, 
including a 34% decrease in the Rio Grande Valley Sector and a 46% 
decrease in the Del Rio Sector. Both Texas sectors are slated to get 
walls despite this reduction and in spite of intense local opposition. 
By contrast, the heavily fortified San Diego Sector, where a triple-
layer wall divides the border, saw a 7% increase in illegal crossing, 
suggesting that walls are not a meaningful deterrent for undocumented 
crossers. Indeed, a June 2007 Congressional Research Service report 
concluded that the walls in San Diego had ``no discernible impact'' on 
the number of people entering the U.S. illegally. The Border Patrol has 
also stated repeatedly that a wall only slows crossers down by a few 
minutes, rather than stopping them.
    According to Secretary Chertoff, there is no imminent threat along 
the southern border: While DHS has frequently referred to the threat of 
``terrorists and terrorist weapons'' crossing the southern border in 
order to justify the breakneck speed of border wall construction, 
Secretary Chertoff has admitted that no potential terrorists have ever 
been apprehended on the southern border. In February he told the New 
York Daily News, ``I don't see any imminent threat'' of terrorists 
infiltrating from Mexico. Yet DHS has fast-tracked the border wall 
project and expects to complete 370 miles by December of this year. In 
the absence of an imminent threat this deadline appears to be an 
arbitrary and politically-motivated date timed to coincide with the end 
of the Bush Administration's period in office.
    Border residents are not protected by the rule of law: Section 102 
of the Real ID Act of 2005 gives Secretary Chertoff the power to waive 
all laws in order to build border walls. Such power concentrated in the 
hands of a single unelected official undermines democratic processes 
and places border residents under an undue burden, denying them the 
same legal protections guaranteed to all other United States citizens. 
Secretary Chertoff has issued 5 Real ID Act waivers to date, the most 
recent one setting aside 36 federal laws along the entire southern 
border. Secretary Chertoff can, and has, used waivers as trump cards in 
the face of legal challenges, waiving the very laws that were the basis 
of successful lawsuits. This has had a chilling effect on those 
individuals and entities that have legitimate cases against DHS and has 
permitted the agency to disregard public safety, environmental 
protection, and humanitarian concerns. The only conceivable reason for 
DHS to waive laws is because they know that their actions will break 
them.
    The wall could have permanent adverse impacts on border 
communities: When the border wall project is complete, walls will slice 
through municipal and private property, federally protected natural 
areas, state parks, and even a university campus. Homes will be 
bulldozed, and farmers and ranchers may be unable to access portions of 
their property. Along the Rio Grande, access to the river for 
municipal, agricultural, and recreational uses will be disrupted. In 
the hurricane-prone Lower Rio Grande Valley of South Texas, the border 
wall is planned to be constructed on or near the flood control levees 
that parallel the river. A similar levee-wall is also planned for 
Presidio, Texas near Big Bend National Park. No studies have yet been 
published that describe what impact the wall would have on flooding or 
on the integrity of these levee systems, and DHS has announced that in 
order to speed construction no further studies will be done.
    The negative impacts of the border wall will fall 
disproportionately on poor and minority citizens: Although there are 
many vibrant local economies along the border, approximately one-
quarter of the population in the counties along the border live at or 
below the poverty line. This is more than double the national poverty 
rate. In addition, most of the counties in the border region have 
majority-minority populations. Given these demographics, the potential 
social, economic, and environmental damage caused by border walls could 
be magnified and will certainly affect poor and minority communities 
disproportionately. Nevertheless, DHS has failed to adequately examine 
environmental justice issues.
    Existing walls have created a humanitarian crisis in the 
Southwestern desert: DHS has continued to operate under the false 
assumption that the harsh conditions of the desert are a deterrent for 
people seeking entry into the U.S. The reality is that as DHS builds 
walls in populated areas, desperation drives more people into remote 
desert areas where hundreds die from dehydration and exposure. The 
General Accounting Office found that as walls went up between 1995 and 
2005, the number of people who died attempting to enter the U.S. 
doubled.
    Border walls threaten protected natural lands and already 
endangered species: Nearly one-third of the 1,954 mile U.S.-Mexico 
border lies within public and tribal lands, including hundreds of miles 
within the National Park system. Spectacular wildlife, including both 
terrestrial species and resident and migratory birds, rely upon 
protected public lands along the border. Many endangered species 
including the jaguar, ocelot and the jaguarundi are dependent on border 
habitats for survival. Border walls will fragment habitat and isolate 
species currently at risk, undermining decades of conservation efforts. 
Walls between Mexico and Arizona will end the hope that the jaguar, 
which has only recently returned to the U.S., will reestablish itself.
    Constructing border walls damages our relationship with Mexico: 
Mexico is our neighbor and our largest trading partner, but Mexicans, 
from the president on down, see the border wall as an unprovoked 
insult. Building walls on the Mexican border, while leaving the 
Canadian border wide open, is interpreted by many as racist. In 
addition, the wall may also be in violation of a number of treaties 
with Mexico, including a 1970 treaty which stipulates that neither the 
U.S. nor Mexico can erect any structure that would result in a shift in 
the Rio Grande and therefore change the international boundary between 
the two countries.
    It is irresponsible to erect more walls without a complete 
understanding of what the long-term consequences will be. A moratorium 
will allow time for a non-partisan organization such as the General 
Accounting Office to review both the impacts of the walls that have 
already been built and the foreseeable impacts of proposed walls. The 
information gleaned from such a careful examination will allow our 
nation to better evaluate whether building walls is in fact the best 
way to address the complex issues of immigration and national security. 
DHS's blind rush to break ground and build fences, without regard for 
impacts or likelihood of success makes a Congressional moratorium on 
border wall construction imperative.
                                 ______
                                 
    Mr. Grijalva. I would now like to call on our next witness, 
Ms. Rosemary Jenks, Director of Government Relations, 
NumbersUSA. Welcome. We look forward to your testimony.

            STATEMENT OF ROSEMARY JENKS, DIRECTOR, 
                GOVERNMENT RELATIONS, NUMBERSUSA

    Ms. Jenks. Thank you very much. Good morning. Chairwoman 
Bordallo, Chairman Grijalva, Ranking Member Tancredo, 
Congressman Hunter, members of the various Subcommittees and 
Committees, thanks for the opportunity to come here today and 
discuss the environmental impact of illegal immigration and the 
border fence.
    My organization, NumbersUSA, represents more than 600,000 
Americans and legal residents from every congressional district 
in America. They have joined NumbersUSA because they agree on 
one thing, we need to set immigration laws in our national 
interest and they need to be fairly and effectively enforced.
    As this map shows, much of the border land in Arizona is 
administered by the Federal government. I have traveled 
extensively through this area and spoken with refuge managers, 
park service, forest service and field rangers and members of 
the Tohono O'odham Nation. Most of the slides in my 
presentation are from photos I took during those travels in 
Arizona.
    The Cabeza Prieta National Wildlife Refuge and Wilderness 
is one of the most beautiful and one of the most embattled 
lands in our country. This map of Cabeza Prieta from 1998 shows 
the historical condition of the refuge. There is one major 
road, Camino del Diablo, running through it and then a handful 
of administrative roads. Over the next five years, this is the 
impact of illegal immigration on the refuge. There, the dark 
blue is abandoned cars, the turquoise is abandoned bicycles, 
the red is new roads, illegal roads and trails created through 
this pristine wilderness. The green is where fences have been 
cut and cattle have been allowed onto the refuge. There is a 
yellow line along the border on this very southern tip where 
the entire fence was stolen. And, of course, it was a three-
strand barbed wire fence. It was not the kind of fence we're 
talking about today.
    Essentially over a period of only five years, illegal 
immigration has turned a unique and pristine refuge into a 
trash-strewn war zone. Deaths are reported there every year. 
During the summer there are weekly search and rescue operations 
that the refuge has to pay for. Their Fish and Wildlife Service 
law enforcement has to go out and find and save lives, mostly 
due to exposure.
    These are examples of some of the vehicles that are 
abandoned by--usually by smugglers in the refuge, have to be 
towed out, often are full of drugs. And this is just a sampling 
of the weapons, ammunition, night-vision equipment, 
communications equipment that is confiscated from smugglers on 
the refuge on a regular basis now.
    Between 1999 and 2006 the typical group of illegal aliens 
moving across the refuge grew from small groups of five to 10 
to large groups of 50 or more. The roads they have carved 
through the land are essentially permanent. Because of the soil 
composition, the larger ones like this will still be visible 
200 years from now even if you manage to stop new illegal 
immigration flows along them. And the thousands of tons of 
trash will continue to threaten wildlife and water sources for 
generations.
    There is good news on the refuge. The lesser long-nosed 
bat, which was listed as endangered in 1988, is found only in 
Arizona, New Mexico and Mexico. There are only four known 
maternity roosts in the United States where these bats 
reproduce. One is an old mine shaft on the Cabeza Prieta 
Wildlife Refuge. The bats abandoned the maternity roost in 2002 
and 2003 after drug smugglers began to use the cave to hole up 
during the day. Luckily, a common-sense solution has sent the 
smugglers packing. A fence was all it look. The bats are back.
    Organ Pipe Cactus National Monument is also on the front 
lines of the battle against illegal immigration. This is the 
Organ Pipe for which the monument is named. Saguaro cactus, 
which can live for hundreds of years, are being cut down by 
illegal aliens desperate for water and hoping to find it stored 
inside these plants. Since the water is stored in the plant 
tissues, they soon realize there is no available source of 
water, but the damage is already done.
    Just as in Cabeza Prieta, trails are being carved across 
the land at Organ Pipe. Judging by this trail, the posted sign 
acts more as a marker than a warning. The southern portion of 
Organ Pipe is closed to the public because it is too dangerous 
for either visitors or park employees due to smuggling 
activity. And, again, trash is everywhere.
    This memorial stands in front of the Kris Eggle Visitors 
Center at Organ Pipe. On August 9th, 2002, Kris, a park ranger, 
was gunned down in cold blood by a drug smuggler who drove into 
the park from Mexico while being pursued by Mexican 
authorities. Having abandoned his vehicle, he ambushed Kris 
after Kris responded to calls for assistance from the Border 
Patrol. Kris was 28 years old.
    This is Kris's dad, Bob Eggle, at the memorial on the spot 
where Kris was murdered. Bob sacrificed his eye for his country 
while serving in the Army in Vietnam. In 2002 he sacrificed his 
only son in another war. Had the vehicle barrier now in place 
along the border between Organ Pipe and Mexico been in place in 
2002, Kris would be alive today.
    East of Organ Pipe is the Tohono O'odham Nation. There, 
too, illegal immigration is scarring the land with footpaths, 
evidence of smugglers transporting drugs on horseback, and 
trash. The Sonoran Desert National Monument is north of the 
Tohono O'odham Nation and is administered by the Bureau of Land 
Management. Extending well over 100 miles north of the border, 
it too is littered with evidence of illegal immigration.
    But perhaps the most frightening thing impacting illegal 
immigration on our public lands is the presence of what the 
military calls LPOPs, or listening posts/observation posts, 
essentially machine gun nests on U.S. soil. Mexican cartels 
send aliens illegally into the U.S. to take up positions on 
hilltops overlooking smuggling transportation routes. They 
generally take up positions in pairs. Most are police- or 
military-trained and they're armed, often with AK-47s. Their 
job is to watch the Border Patrol and other law enforcement and 
guide smuggling vehicles around them. These LPOPs are located 
on BLM land about 70 miles north of the border between Tucson 
and Phoenix, and these are the views they see from the top of 
the hillside as they're watching for U.S. law enforcement.
    Mr. Grijalva. Ms. Jenks, I extended the courtesy as much as 
I did for Ms. Perez, but----
    Ms. Jenks. I appreciate that. I will wrap it up right now. 
The point of this is that every single law enforcement from all 
of our public agencies and Federal agencies walk out of their 
home every day, go to work, and know they could be in a gun 
sight of one of these spotters. And that is not something we 
should ask of them.
    The invitation to this hearing asked what message the 
border fence would send. My answer is exactly the right 
message, that you come legally or you don't come at all because 
cheap labor and cheap votes come at an unacceptably high price.
    [The prepared statement of Ms. Jenks follows:]

    Statement of Rosemary Jenks, Director of Government Relations, 
                               NumbersUSA

    Chairwoman Bordallo, Chairman Grijalva, and Members of the 
Subcommittees, thank you for the opportunity to appear before you today 
to discuss the environmental impacts of the southern border fence. My 
organization, NumbersUSA, is a nonprofit, nonpartisan immigration-
reduction organization representing more than 600,000 Americans and 
legal residents from every congressional district across this country. 
They come from every socio-economic background and they span the 
political spectrum from liberal to conservative. They have joined 
NumbersUSA because there is one thing on which they all agree: U.S. 
immigration law should be set in the national interest and it should be 
enforced effectively and humanely throughout the nation.
    Our mission reflects the conclusions of the bipartisan U.S. 
Commission chaired by the late Barbara Jordan, a dedicated civil rights 
leader and Democratic Representative from the state of Texas, in which 
we have gathered for this hearing. After studying every aspect of our 
immigration system, she concluded in 1994 that:
        The credibility of immigration policy can be measured by a 
        simple yardstick: people who should get in, do get in; people 
        who should not get in are kept out; and people who are judged 
        deportable are required to leave. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ U.S. Commission on Immigration Reform, U.S. Immigration Policy: 
Restoring Credibility. 1994. p. 3.
---------------------------------------------------------------------------
    This hearing focuses on the middle part of that equation--keeping 
out those who should not get in. As demonstrated by the estimated 12 to 
20 million illegal aliens currently residing in the United States, and 
the estimated million or so new illegal aliens who enter the country 
each year, our efforts to date at keeping out those who should not get 
in have failed dramatically.
    Instead of the credible immigration policy Barbara Jordan 
recommended, we have a policy that says, in effect, ``if you can 
successfully evade the Border Patrol or overstay a lawful visa, we will 
give you a job and let you stay.'' The result, not surprisingly, has 
been continued mass illegal immigration.
    The chart in Appendix A shows the average net annual growth of the 
illegally resident population in the United States. Net annual illegal 
immigration has more than quadrupled since the 1980s, when Congress 
passed the ``one-time only'' <SUP>2</SUP> amnesty in the Immigration 
Reform and Control Act of 1986.
---------------------------------------------------------------------------
    \2\ In fact, Congress has passed six additional amnesties since 
1986. See http://www.numbersusa.com/interests/amnesty.html
---------------------------------------------------------------------------
    As the numbers began to skyrocket in the early 1990s, most illegal 
entries were occurring in urban areas along the U.S.-Mexico border, 
particularly in the San Diego area. Increasing incidents of aliens 
being hit by cars as they ran across major highways, high-speed 
vehicular chases resulting in crashes, and foot chases through 
residential areas, and even into apartment complexes made it clear to 
all that illegal immigration in urban corridors presented an 
unacceptable threat to human lives--the lives of the aliens, of the 
Border Patrol agents whose job was to chase them down, and of the 
American citizens and legal residents who happened to get in the way. 
Moreover, it was clear to law enforcement that illegal entry in urban 
corridors improved the aliens' chances of disappearing into the 
community before they could be apprehended, and resulted in increases 
in criminal activity, including vandalism, theft, and the violent 
crimes associated with human and narcotics trafficking.
    Beginning in 1993 with the incredibly successful Operation Hold the 
Line, created and implemented by Congressman Silvestre Reyes, when he 
was Border Patrol Chief in the El Paso Sector, the Border Patrol began 
focusing on closing off the urban corridors and thus reducing the 
associated risks. It was hoped that forcing illegal aliens and 
smugglers into more remote areas would deter some of them from even 
attempting illegal entry, but it was also believed that it would be 
easier to catch those who did make the crossing because the Border 
Patrol would have more time to apprehend them before they could make it 
to an urban area and disappear.
    This effort to close off illegal immigration in urban corridors was 
undertaken with the explicit support of Congress. In 1996, Congress 
passed the Illegal Immigration Reform and Immigrant Responsibility Act 
(IIRIRA)--the original version of which was designed specifically to 
implement the immigration policy recommended by the Jordan Commission. 
Thanks largely to the efforts of Congressman Duncan Hunter, this law 
included a provision that requires the administration to ``take such 
actions as may be necessary to install additional physical barriers and 
roads in the vicinity of the United States border to deter illegal 
crossings in areas of high illegal entry [most of which were in urban 
corridors at that time] into the United States,'' including the 
construction of 14 miles of triple fencing along the U.S.-Mexico border 
south of San Diego. To accomplish this, it authorized the 
administration to waive the requirements of the Endangered Species Act 
and the National Environmental Policy Act. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Nearly a decade after enactment of IIRIRA, the administration 
still had not completed the original 14 miles of fencing near San Diego 
because of challenges by the California Coastal Commission that the 
proposed fencing violated state environmental laws. In 2005, Congress 
responded by including a provision in the REAL ID Act authorizing the 
Secretary of Homeland Security to waive ``all legal requirements'' that 
the Secretary determines are necessary to ensure the construction of 
the San Diego fence and other necessary border barriers. The Secretary 
is required to notify the public of the decision to waive legal 
requirements by publishing it in the Federal Register, and any such 
decision may be challenged in Federal court on constitutional grounds. 
So, while the breadth of this waiver authority is unprecedented, 
Congress appropriately ensured that it could not be used without public 
notice, and that it could not be used in a way that violates the 
Constitution.
---------------------------------------------------------------------------
    Apprehension statistics show that the effort to control illegal 
immigration through urban corridors has been relatively successful. As 
the table in Appendix B indicates, apprehensions of illegal aliens in 
the San Diego, El Centro, and Laredo sectors, for example, dropped by 
50 percent or more between 1997 and 2006. At the same time, however, 
apprehensions in the Yuma sector quadrupled and apprehensions in the 
Tucson sector rose by almost 50 percent.
    The result is hundreds of thousands of illegal aliens walking, 
bicycling, and driving across some of the most fragile, protected 
ecosystems in the United States. The impact has been particularly 
devastating in southern Arizona, where a significant share of the land 
is administered by the Federal Government. The most heavily impacted 
lands include the Cabeza Prieta National Wildlife Refuge and 
Wilderness, Organ Pipe Cactus National Monument, Buenos Aires National 
Wildlife Refuge and the Coronado National Memorial.
    Among a long list of the devastating environmental impacts of 
illegal immigration through these protected areas are the following:
    <bullet>  Trash
      <all>  The Bureau of Land Management (BLM) estimates that illegal 
aliens dumped more than 25 million pounds of trash in the Arizona 
desert between 1999 and 2005--that is almost 2,100 tons of trash each 
year.
      <all>  The accumulation of disintegrating toilet paper, human 
feces, and rotting food has become a health and safety issue for 
residents of and visitors to some of these areas, and is threatening 
water supplies in some areas.
      <all>  Birds and mammals, some endangered, die when they eat or 
become entangled in the trash.
    <bullet>  Illegal Roads and Abandoned Vehicles
      <all>  By early 2004, the Chief Ranger at Organ Pipe estimated 
that illegal aliens and smugglers had created 300 miles of illegal 
roads and ``thousands of miles of illegal trails.''
      <all>  More than 30 abandoned vehicles are removed from Organ 
Pipe alone each year.
      <all>  Since its creation in 2000, more than 50 illegal roads 
have been created in the Ironwood Forest National Monument, and more 
than 600 vehicles are abandoned there each year.
      <all>  There are an estimated 20-25 abandoned vehicles in the 
Cabeza Prieta NWR at any given time.
      <all>  An estimated 180 miles of illegal roads were created in 
Cabeza Prieta between 2002 and 2006.
    <bullet>  Fires
      <all>  In 2002 in southern Arizona, illegal aliens were suspected 
of having caused at least eight major wildfires that burned 68,413 
acres.
      <all>  In May of 2007, illegal aliens set at least five fires in 
the Coronado National Forest over a 10-day period in an effort to burn 
out Border Patrol agents conducting a law enforcement operation in the 
area.
    <bullet>  Declining Wildlife Populations
      <all>  According to the Fish and Wildlife Service, mass illegal 
immigration ``is a likely contributing factor in the dramatic 79 
percent decline in the U.S. Sonoran pronghorn population between 2000 
and 2002.
    These are just a few examples of the massive environmental 
destruction being caused by rampant illegal immigration in southern 
Arizona. Similar damage is being done to remote, fragile lands in 
California, New Mexico, and Texas.
    There is only one acceptable solution to this environmental crisis: 
stop the illegal traffic at the border. That means we must build a 
combination of physical barriers and technological barriers that will 
effectively ensure that, in the words of the late Barbara Jordan, 
``people who should not get in are kept out.''

[GRAPHIC] [TIFF OMITTED] T1959.001

[GRAPHIC] [TIFF OMITTED] T1959.002

    Mr. Grijalva. Thank you very much. Let me now turn to Joan 
Neuhaus Schaan, Executive Director, Houston-Harris County 
Regional Homeland Security Advisory Council. Your testimony, 
please.

 STATEMENT OF JOAN NEUHAUS SCHAAN, EXECUTIVE DIRECTOR, HOUSTON-
   HARRIS COUNTY REGIONAL HOMELAND SECURITY ADVISORY COUNCIL

    Ms. Schaan. Thank you. Good afternoon. As the committee is 
well aware, security is a critical issue on the Texas-Mexican 
border, and increasingly in the metropolitan areas. First let 
me comment on the smuggling organizations themselves. Mexico is 
struggling to maintain civil authority against a potent 
adversary, and if it's not successful, the consequences could 
be dire. According to studies conducted in Mexico, alien 
smuggling profits are now approaching drug smuggling profits. 
And according to other studies, of the $16 billion in cash flow 
from the United States to Mexico, 10 billion cannot be 
accounted for by legal activity.
    The increased profitability has resulted in more 
professional and ruthless smuggling organizations that now 
resemble drug smuggling organizations and/or include the drug 
smuggling organizations. As the more ruthless organizations 
take over increasing portions of the smuggling trade, anecdotal 
evidence indicates prices are rising and operations are 
increasingly sophisticated. Currently the flow of illegal 
immigrants into the United States is of such proportions that 
it overwhelms immigration, law enforcement and the criminal 
justice systems of the border states and their communities.
    There have been estimates that there are 12 million illegal 
aliens in the United States, but given the fact that 
approximately 1.2 million are apprehended annually, usually 
coming in from the border, and assuming that 10 to 20 percent 
of those that come in are apprehended, that means we have 6 to 
12 million coming in on an annual basis.
    From the point of view of civil authorities, the criminal 
organizations outman and outgun law enforcement and they have 
extremely effective intelligence-gathering, brutal intimidation 
tactics, including beheadings, torture, burnings and threatened 
decapitation of children, and they also have very deep pockets 
for bribery.
    Allow me to offer the opportunity to describe for you the 
cycle of violence as experienced in other countries and appears 
to be experienced at the beginning stages in Mexico. As civil 
authorities struggle to maintain control and are approaching 
the tipping point of control, law enforcement officials, 
elected officials and judges are assassinated, police stations 
are attacked, organized crime influences and then controls 
elected officials, and the press is silenced. Once past the 
tipping point, the organizations control a community, and those 
that do not acquiesce to their activities must leave or face 
the consequences.
    In its most extreme form, civil authorities cede entire 
geographic regions and the lawless organizations develop 
enclaves of autonomy, as such has been the case in Colombia and 
Lebanon. In recognizing the severity of the situation, 
President Calderon is taking unprecedented measures to combat 
organized crime.
    As Mexico is in the throes of this struggle, in no place is 
it more evident than in Nuevo Laredo. The criminal 
organizations control the streets after midnight. Judges, 
police chiefs and city councilmen have been assassinated. 
Executions and firefights occur on a regular basis and have 
forced the American Consulate to close for as much as weeks at 
a time. Seventy percent of the businesses in Nuevo Laredo have 
closed in the past few years, though some of the shop space has 
been reoccupied. Mexican businessmen are desperate to live on 
the Texas side of the border due to the multiple kidnappings a 
week. The local press has stopped reporting on crime after 
multiple attacks on their personnel and their offices, and the 
San Antonio Express-News and the Dallas Morning Herald have 
pulled their Laredo reporters due to concerns for their safety. 
In fact, Reporters Without Borders lists Mexico as the most 
dangerous country in the world, except for Iraq, for 
journalists.
    In January military elements arrived in Nuevo Laredo to 
take charge of security in the area due to lost confidence in 
the public safety officials. And also in January the Texas 
Department of Public Safety issued a warning against crossing 
the Mexican border. And then on April 14th the State Department 
issued a travel alert for Mexico.
    The struggles the Mexican authorities are facing are not 
dissimilar to what our counties and state are confronting as 
the phenomenon spills across the border. The menace of 
organized crime's violence and corruption must vigilantly be 
guarded against all levels of civil authorities as evidenced by 
multiple arrests in Texas in the last year or two. Our law 
enforcement agencies are outmanned and outgunned. As I said 
before, the criminal organizations are not only armed with 
advanced weaponry, including assault rifles, grenades and 
grenade launchers, but with rocket launchers capable of 
bringing down aircraft, machine guns and explosives, such as 
Tovex, which is a highly explosive hydrogel. There are even 
suspicions the cartels assisted a Mexican militant group in the 
bombing of the energy infrastructure.
    The organized criminal activity involves Texas and Texans. 
And you may have noticed on her slides of the vehicles that 
were caught smuggling back in, most of them appeared to have 
United States license plates. Arrests in Mexico regularly 
involve U.S. persons and U.S. vehicles, and students are being 
approached as they cross from Juarez into El Paso.
    The result of this has been very difficult for the ranch 
owners. They have difficulty leaving their homes unattended. 
When they return, often there is someone in the yard. Speaking 
with one ranch manager, he personally in a period of 12 months 
had over 300 illegal aliens in his front yard, called Border 
Patrol, and had to release many of them because Border Patrol 
was not able to come in time.
    Mr. Grijalva. If I may, the courtesy has been extended as 
well. If you can wrap up.
    Ms. Schaan. Well, the other issues have to do with----
    Mr. Grijalva. The whole testimony will be part of the 
record.
    Ms. Schaan. OK.
    [The prepared statement of Ms. Schaan follows:]

         Statement of Joan Neuhaus Schaan, Executive Director, 
   Houston-Harris County Regional Homeland Security Advisory Council

    Please allow me this opportunity to first introduce myself. My name 
is Joan Neuhaus Schaan. I am the as the Fellow for Homeland Security 
and Terrorism Programs at the Baker Institute for Public Policy at Rice 
University, and I am also the Executive Director of the Houston-Harris 
County Regional Homeland Security Advisory Council. The Advisory 
Council serves as an independent third party on homeland security 
matters and advises the Mayor of Houston, the County Judge, City 
Council and Commissioners Court.
    Per the request of the staff of Joint Subcommittee staff, I am 
offering my comments with regards to Texas Border security. As the 
committee is well aware, security is a critical issue on the Texas-
Mexican border, and increasing in the metropolitan areas.
    On the border there are several levels of crime--the crime 
associated with drug and human smuggling organizations; general crime 
outside of the smuggling operations in the form of kidnapping, burglary 
and theft; and national security threats posed by elements that choose 
to exploit the unique characteristics of our border.
    First, let me comment on the smuggling organizations. Mexico is 
struggling to maintain civil authority against a potent adversary, and 
if not successful, the consequences will be dire. According to studies 
conducted in Mexico, alien smuggling profits are now approaching drug 
smuggling profits. The increased profitability has resulted in more 
professional and ruthless smuggling organizations that now resemble 
drug smuggling organizations and/or include drug smuggling 
organizations. As the more ruthless organizations take over increasing 
portions of the smuggling trade, anecdotal evidence indicates the 
prices are rising and operations are increasingly sophisticated. 
Currently the flow of illegal immigrants is of such proportions that it 
overwhelms immigration, law enforcement and the criminal justice 
systems of border states and their communities. Houston alone has an 
estimated 400,000 to 450,000 illegal immigrants. This is only an 
estimate, as it is illegal to ask an individual about their immigration 
status in many instances.
    From the point of view of civil authorities, the criminal 
organizations outman and out gun law enforcement, they have extremely 
effective intelligence gathering, brutal intimidation tactics 
(including beheadings, torture, burnings, and threatened decapitation 
of children) and deep pockets for bribery. Allow me the opportunity to 
describe to you a phenomenon in the cycle of violence as experienced in 
other countries. As civil authorities struggle to maintain control and 
are approaching the tipping point of control, law enforcement 
officials, elected officials, and judges are assassinated; police 
stations are attacked; organized crime influences and then controls 
elected officials; and the press is silenced. Once past the tipping 
point, the organizations control a community, and those that do not 
acquiesce to their activities must leave or face the consequences. In 
its most extreme form, civil authorities cede entire geographic 
regions, and the lawless organizations develop enclaves of autonomy, as 
has been the case in Colombia and Lebanon. In recognizing the severity 
of the situation in Mexico, President Calderon is taking unprecedented 
measures to combat organized crime.
    Mexico is in the throws of this struggle as we speak, and in no 
place is it more evident than in Nuevo Laredo. The criminal 
organizations control the streets after midnight. Judges, police chiefs 
and city councilmen have been assassinated. Executions and firefights 
occur on a regular basis and have forced the American Consulate to 
close for as much as weeks at a time. Seventy percent of the businesses 
in Nuevo Laredo have closed in the last few years, though some of the 
shop space has been reoccupied. Mexican businessmen are desperate to 
live on the Texas side of the border, due to the multiple kidnappings a 
week. The local press has stopped reporting on crime after multiple 
attacks on their personnel and offices, and the San Antonio Express 
News and the Dallas Morning Herald have pulled their Laredo reporters 
due to concerns for their safety. In fact, Reporters Without Borders 
lists Mexico as the most dangerous country in the world--except for 
Iraq--for journalists. Last week, military elements arrived in Nuevo 
Laredo to take charge of security in the area, due to lost confidence 
in the Public Security officials in the area. In January, the Texas 
Department of Public Safety issued a warning against crossing the 
Mexican border, and on April 14th the State Department issued a Travel 
Alert for Mexico.
    The struggles Mexican authorities are facing are not dissimilar to 
what our counties and state are confronting as the phenomenon spills 
across the border. The menace of organized crime's violence and 
corruption must be vigilantly guarded against at all levels of civil 
authority, as evidenced by multiple arrests in Texas the last year or 
two. Our law enforcement agencies are out manned and out gunned. The 
criminal organizations are not only armed with advanced weaponry 
including assault rifles, grenades, and grenade launchers, but with 
rocket launchers capable of bringing down an airplane, machine guns, 
and explosives, such as Tovex, a highly explosive hydro gel. There are 
even suspicions the cartels assisted a Mexican militant group in the 
bombing of energy infrastructure. The organized criminal activity 
involves Texas and Texans. Arrests in Mexico regularly involve U.S. 
persons and U.S. vehicles. Students crossing from Juarez to El Paso are 
being targeted by drug traffickers. Recently, Mexican cartel members 
have order hits on persons in Texas.
    As David V. Aguilar, chief of the U.S. Border Patrol has said ``The 
American public must understand that this situation is no longer about 
illegal immigration or narcotics trafficking. It is about criminals and 
smuggling organizations fighting our agents with lethal force to take 
over a part of American territory so they can conduct criminal 
activity.''
    As the volume of smuggling has increased, so have the incidents in 
the next level of crime--kidnapping, burglary and theft. Most 
kidnappings go unreported, even those involving American citizens, for 
fear of retribution. But the crime is not just occurring along the 
border. The City of Houston has seen an increase in kidnapping in the 
immigrant community, whether legal or illegal. At least one kidnapping 
ring was disrupted last year that preyed upon Hispanic immigrants. This 
may not be an unusual phenomenon along the border, but it is relatively 
new to Houston. One can easily envision the organizations moving beyond 
the immigrant population to more lucrative targets.
    Burglary and theft has increased with the general level of 
smuggling in border communities. I have spoken with many Texans from 
rural communities that are fearful in their own homes and who do not 
leave their home unattended, because when they return there are 
strangers in their home. This is particularly difficult on couples 
living alone, because they no longer can leave their home together or 
at the same time, even to go to the grocery store, for fear their home 
will be burglarized or occupied when they return. In one specific case, 
an older rancher, who operated a ranch on the Rio Grande that had been 
in his family for generations, made the difficult decision to sell the 
ranch, but he is having difficulty finding a buyer that is not 
associated with organized crime. The effects of this crime also are 
felt in Houston. For example thousands of trucks in Houston were stolen 
last year, many of which were later found to be involved in smuggling 
operations along the border. Reportedly F-250 and F-350 trucks are 
preferred, and at least 1250 Ford F-250 and F-350 trucks were stolen 
last year.
    The threat resulting from criminal smuggling increasingly looms 
over Texas communities, but the violence is not the only threat to 
landowners. Landowners are threatened by the lawsuits brought by those 
involved, and they need protection from lawsuits when they assist law 
enforcement. Currently, landowners that allow law enforcement officers 
on to their property are being sued by those involved in the criminal 
activity that claim injuries occurred while on the property. This is 
particularly true when law enforcement was involved/present during a 
pursuit or arrest. While Customs and Border Patrol have statutory 
authority to enter property within predefined distances of the border, 
the same is not true for other law enforcement agencies and greater 
distances from the border. Lawsuits in the last few years have been 
brought against landowners in rural areas, for injuries to illegal 
immigrants and/or trespassers in the presence of law enforcement, 
because the landowner allowed the law enforcement agency on to the 
private property. Although the legal application has been in rural 
communities, the same legal theory, if left unchecked, could apply to 
law enforcement in metropolitan areas as well.
    Landowners' livelihood also is threatened by damaged fences and 
lost livestock. As smuggling operations cross private property, the 
smugglers open and close gates and/or cut fences. These activities 
result in livestock being cut off from water or straying onto road 
ways. If the livestock is hit by a vehicle, the landowner becomes 
liable. In many remote areas, ranch workers cannot leave a vehicle 
running while opening a gate, because persons emerge from the brush and 
drive off in the vehicle. Long time ranchers now feel more imperiled 
when riding the fences alone.
    Turning to the national security implications of the border 
environment, extremists are well aware of the United States' inability 
to control its borders, and use of the border is mentioned not 
infrequently in extremist chat rooms in the context of discussing 
tactics and logistics. Extremists have had their own smuggling 
operations in Mexico, and unaffiliated smuggling organizations have 
expressed a willingness to assist extremists willing to pay the price. 
A 2005 DEA report outlines an ongoing scheme in which multiple Middle 
Eastern drug-trafficking and terrorist cells operating in the U.S. fund 
terror networks overseas, aided by established Mexican cartels with 
highly sophisticated trafficking routes.
    This is of particular concern to the metropolitan areas, such as 
Houston. From an illegal activity perspective, the nature of the city 
provides a great operating environment for criminals and terrorists--
anonymity, ease of entry and exit, readily available resources, robust 
commercial trade. From a terrorist perspective, Houston provides not 
only a good operating environment, but it is considered one of the top 
five economic targets in the United States. Terrorist associates and 
sympathizers are known to have been active in the Houston area and are 
believed to have well established networks. Their organizations have 
shown the means, knowledge, capabilities, and motivation to carry out 
terrorist operations.
    Securing the border is of paramount importance. Only when the 
border is secure can American citizens engage in a thoughtful debate on 
immigration policy for the future, rather than engaging in reactionary 
measures. The flow of illegal immigrants is of such proportions 
currently that all available tools should be employed. Once the border 
is secure and proactive policy has been determined, then appropriate 
changes can be made.
    Thank you for allowing me the opportunity to submit this testimony 
to your committee.
                                 ______
                                 

                                Appendix

                       Travel Alert 14 April 2008

    On 14 April 2008 the U.S. Department of State issued the following 
Travel Alert:
    ``This Travel Alert updates information for U.S. citizens on 
security situations in Mexico that may affect their activities while in 
that country. This supersedes the Travel Alert for Mexico dated 24 
October 2007, and expires on 15 October 2008.
    ``Violence Along The U.S.-Mexico Border--Violent criminal activity 
fueled by a war between criminal organizations struggling for control 
of the lucrative narcotics trade continues along the U.S.-Mexico 
border. Attacks are aimed primarily at members of drug trafficking 
organizations, Mexican police forces, criminal justice officials, and 
journalists. However, foreign visitors and residents, including 
Americans, have been among the victims of homicides and kidnappings in 
the border region. In its effort to combat violence, the government of 
Mexico has deployed military troops in various parts of the country. 
U.S. citizens are urged to cooperate with official checkpoints when 
traveling on Mexican highways.
    ``Recent Mexican army and police force conflicts with heavily-armed 
narcotics cartels have escalated to levels equivalent to military 
small-unit combat and have included use of machine guns and 
fragmentation grenades. Confrontations have taken place in numerous 
towns and cities in northern Mexico, including Tijuana in the Mexican 
state of Baja California, and Chihuahua City and Ciudad Juarez in the 
state of Chihuahua. The situation in northern Mexico remains very 
fluid; the location and timing of future armed engagements there cannot 
be predicted.
    ``Armed robberies and carjackings, apparently unconnected to the 
narcotics-related violence, have increased in Tijuana and Ciudad 
Juarez. Dozens of U.S. citizens were kidnapped and/or murdered in 
Tijuana in 2007. Public shootouts have occurred during daylight hours 
near shopping areas.
    ``Criminals are armed with a wide array of sophisticated weapons. 
In some cases, assailants have worn full or partial police or military 
uniforms and have used vehicles that resemble police vehicles.
    ``U.S. citizens are urged to be especially alert to safety and 
security concerns when visiting the border region. While Mexican 
citizens overwhelmingly are the victims of these crimes, this uncertain 
security situation poses risks for U.S. citizens as well. Thousands of 
U.S. citizens cross the border safely each day, exercising common-sense 
precautions such as visiting only legitimate business and tourist areas 
of border towns during daylight hours. It is strongly recommended that 
travelers avoid areas where prostitution and drug dealing occur.
    ``Criminals have followed and harassed U.S. citizens traveling in 
their vehicles, particularly in border areas including Nuevo Laredo, 
Matamoros, and Tijuana. There is no evidence, however, that U.S. 
citizens are targeted because of their nationality.
    ``U.S. citizen victims of crime in Mexico are urged to contact the 
consular section of the nearest U.S. consulate or Embassy for advice 
and assistance.
    ``Crime and Violence in Mexico--U.S. citizens residing and 
traveling in Mexico should exercise caution when in unfamiliar areas 
and be aware of their surroundings at all times. Violence by criminal 
elements affects many parts of the country, urban and rural, including 
border areas. Though there is no evidence that U.S. citizens are 
specifically targeted, Mexican and foreign bystanders have been injured 
or killed in some violent attacks, demonstrating the heightened risk in 
public places. In recent years, dozens of U.S. citizens have been 
kidnapped in Mexico and many cases remain unresolved. Moreover, new 
cases of disappearances and kidnap-for-ransom continue to be reported. 
No one can be considered immune from kidnapping on the basis of 
occupation, nationality, or other factors. U.S. citizens who believe 
they are being followed should notify Mexican officials as soon as 
possible. U.S. citizens should make every attempt to travel on main 
roads during daylight hours, particularly the toll ('cuota') roads, 
which are generally more secure. It is preferable for U.S. citizens to 
stay in well-known tourist destinations and tourist areas of the cities 
with more adequate security, and provide an itinerary to a friend or 
family member not traveling with them. U.S. citizens should avoid 
traveling alone as a means to better ensure their safety. Refrain from 
displaying expensive-looking jewelry, large amounts of money, or other 
valuable items.
    ``Demonstrations occur frequently throughout Mexico and usually are 
peaceful. However, even demonstrations intended to be peaceful can turn 
confrontational and escalate into violence unexpectedly. Some deaths 
occurred during violent demonstrations, including an American citizen 
who died in the 2006 violence in Oaxaca. During demonstrations or law 
enforcement operations, U.S. citizens are advised to remain in their 
homes or hotels, avoid large crowds, and avoid the downtown and 
surrounding areas. Since the timing and routes of scheduled marches and 
demonstrations are always subject to change, U.S. citizens should 
monitor local media sources for new developments and exercise extreme 
caution while within the vicinity of protests. The Mexican Constitution 
prohibits political activities by foreigners, and such actions may 
result in detention and/or deportation. Therefore, U.S. citizens are 
advised to avoid participating in demonstrations or other activities 
that might be deemed political by Mexican authorities.''
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me just very quickly--Ms. 
Jenks, the questions I prepared for was really your testimony, 
but that's not the testimony you gave. So it's kind of----
    Ms. Jenks. I wrote it. So I know what's in it.
    Mr. Grijalva. No, no. I mean, the testimony you submitted 
is different from the testimony you gave.
    Ms. Jenks. Yes.
    Mr. Grijalva. So I went off the one you submitted.
    Ms. Jenks. OK.
    Mr. Grijalva. I couldn't--I couldn't read your mind. The--
but--so I'll forward those in writing.
    OK. Bishop, if I may--and I really appreciate the comments 
that you made about as difficult as it is with this issue to 
maintain the level of civility and dialogue in the discussion 
of the issue of the border wall and everything attendant to the 
issue of immigration. I think your comments are very important, 
to keep those in mind.
    And one of the things I--you know, having grown up on the 
border in Arizona, let me--just to get your perspective on 
that, do you think people who don't live along the border with 
Mexico perhaps have some stereotype wrong impression about what 
these border communities are?
    Bishop Pena. Well, I think--I guess you get a picture of 
what the border communities are. I've lived on the border all 
my life as well, and all my ministry has been on the border. I 
think that the sister cities that exist along the border in 
many respects are one city. People go back and forth, most of 
them legally, some illegally, to visit grandparents, to visit 
family. And I think barriers like that would be very much--very 
similar to doing what the Nation in Arizona is talking about, 
dividing families, dividing relationships, friendships and even 
businesses. And I think to create a new barrier besides the 
river that would now divide American citizens from one side or 
the other would be very disruptive to our families and to our 
businesses.
    Mr. Grijalva. Thank you. Ms. Perez, would you like to 
comment on the same question about the impression that people 
have on this region?
    Ms. Perez. Well, His Excellency answered it wonderfully. 
There really isn't a border for most of us that live down here. 
You know, we just--we go back and forth, you know, relatives. I 
was on somebody's land last week who, you know, pointed across 
the river, he had land on the river, and said, ``That's my 
cousin over there that farms that.''
    So, you know, the ranch is only 14 miles from the river. 
You know, we see illegal visitors all--immigrants all the time, 
and we've never had a problem. We did have a bottle of wine 
stolen from the refrigerator once. But I don't think largely 
the Valley people are frightened of these people. I do 
understand the people that are right on the river. I know that 
they're having problems and that they're afraid, some of them 
are afraid.
    Mr. Grijalva. I really don't have any questions. I did--I 
did go on the NumbersUSA website, Ms. Jenks, and maybe you can 
help me define this. There was a reference to the 
organization's support for preserving America for real 
Americans, and----
    Ms. Jenks. I don't think that's----
    Mr. Grijalva. And it listed on the website that that 
definition dealing with the issue of population and immigration 
had to do with pre-1970 stock Americans. Is that correct?
    Ms. Jenks. No, we don't talk about real Americans meaning--
every American citizen is a real American in our view. So I 
don't know quite what you're referring to. What we do talk 
about is that if U.S. immigration numbers had been brought to 
zero net in 1970, the U.S. population would be stabilized. And 
that is not a judgment call on whether we needed to stick with 
the stock population of 1970. That is simply a fact that the 
Census Bureau published.
    Mr. Grijalva. That's the date that's picked?
    Ms. Jenks. It's based on Census Bureau statistics. So, 
yeah, that's what that is all about. But, no, we don't judge--
make any judgments on any Americans.
    Mr. Grijalva. Without sounding totally facetious, which I'm 
about to do, I wonder why you didn't choose an earlier date, 
like, let's say, pre-1492 stock.
    Audience Member. That's when the real war in America 
started, 1492.
    Mr. Grijalva. You need to chill a little bit.
    Ms. Jenks. You know, this is a serious policy issue in our 
view.
    Mr. Grijalva. I know. I know. Excuse my facetiousness, but 
it's like setting arbitrary lines of 1970 stock, 1980 stock, 
that is--you know, if the issue of population growth is the 
end-all be-all for the reasons that we have the environmental 
issues that we have in this country, I would suspect and I 
would hope that NumbersUSA would also be equally controlled--
concerned with climate change, the effect that's having on our 
ecosystems across the world and across this nation. Population 
growth is part of it, the human--the human print on our 
environment, but part of that human print is the kind of damage 
that we've done with regard to climate change and regarding 
other issues. But I didn't find those on the website, and if I 
missed them, I'll go back and look again.
    Ms. Jenks. You should go back and look again. Essentially, 
we are an immigration organization, which is why we're not 
focused entirely on all of the environmental issues. What we 
are focused on is the impact that immigration policy has on the 
United States of America.
    Mr. Grijalva. Well, thank you.
    Ms. Jenks. That is our job and that is our organization.
    Mr. Grijalva. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. It was 
mentioned that millions of dollars have been invested by the 
Federal, state and local governments and by nongovernmental 
organizations to protect the environment and conserve wildlife 
habitat. This is one portion of my Subcommittee that I deal 
with in the lower Rio Grande Valley. Now, it has been noted 
that the border wall will have serious negative impacts to the 
environment. This circumstance again raises the situation where 
the Federal government will end up having to go back in and 
spend more funds to correct or address the impacts caused by 
the wall construction. This just seems to be setting up another 
instance of the Federal government throwing good money after 
bad.
    So to you, Ms. Jenks, do you have any idea what the cost 
estimates will be for the Federal government to mitigate the 
environmental impacts caused by the construction of the 
southern border security infrastructure?
    Ms. Jenks. I don't know the dollar figure.
    Ms. Bordallo. Don't you agree with me that there will be an 
impact?
    Ms. Jenks. There will be an--certainly there will be an 
impact for building the fence. It will be dramatically less 
than the impact of allowing hundreds of thousands of people and 
vehicles and smugglers and guns and, you know, all the 
attendant effects of illegal immigration through pristine 
areas. I mean, yes, we will be tearing up, you know, a certain 
width of land along the border, presumably along the border.
    And, by the way, I'm not here to justify DHS's specific 
plans to, you know, move the fence to this side and cut off 
parts of the U.S. But, I mean, yes, we would tear up a portion 
of land to create the fence and have a road along it, but that 
is going to save hundreds and hundreds of acres from the damage 
that is being done every day.
    Ms. Bordallo. Well, this is why we're here, and I certainly 
would like to see what the cost will be to the taxpayers' 
pocketbook on both sides of the fence. And, you know, we were 
elated when the wall was torn down in Berlin, and here we are 
in our own country building walls. When you travel around in 
Washington, D.C., it's sad to see all the barricades in front 
of all of our public buildings. I hope that we're not going to 
continue to go in this direction.
    The other question I have very quickly, Mr. Chairman, is 
His Excellence, the Bishop, noted that the Diocese of 
Brownsville opposes the border wall in part because it is a 
simplified, one-dimensional solution to a complex problem. Now, 
in fact, to illustrate this point, Bishop Pena noted that a 
collateral consequence of Congress not passing comprehensive 
immigration reform legislation is that it has created a flood 
of state and local proposals in Texas to address inadequate 
border security by the Federal government.
    So this raises a dilemma. In our rush to implement a 
solution, we may, in fact, be encouraging just the opposite. We 
may be creating circumstances on the state and local level 
where there is no coordinated response to illegal immigration. 
Is this outcome a real possibility? I'd like to ask Ms. Perez.
    Ms. Perez. I'm sorry. Would you please run the last part of 
that.
    Ms. Bordallo. Yes. Well, in other words, in our race, in 
our rush to implement a solution, we may be encouraging just 
the opposite. We may be creating circumstances on the state and 
the local level where there is no coordinated response to 
illegal immigration. So do you feel that that outcome is a real 
possibility?
    Ms. Perez. I can't answer that. I'm not understanding the 
question, I don't think. I--what comes to mind is the levee 
wall fence and how expensive that thing is going to be.
    Ms. Bordallo. Well, maybe His Excellency can--you were the 
one that brought it up in the testimony.
    Bishop Pena. Yes. I think there is real possibility. If you 
see what happened in the state legislature during the last 
session, they introduced legislation that would empower the 
local sheriff to act as a Border Patrol agent, they introduced 
legislation that would deny health care and education to any 
illegal immigrant, they introduced legislation that would deny 
citizenship to infants born to undocumented citizens or 
residents, and I think worse things could be proposed in the 
next legislature. And actually, then, who is responsible for 
the border? Is the government responsible or is the state 
responsible? And what we need to do is pass Federal legislation 
that will truly control our borders in a humane and Christian 
way.
    Ms. Bordallo. Thank you. Thank you very much, Your 
Excellency.
    Mr. Grijalva. Mr. Tancredo, your questions.
    Mr. Tancredo. Thank you, Mr. Chairman.
    Mr. Grijalva. If I may--I'm sorry, Mr. Tancredo. Let me 
acknowledge, Bishop, that you'll be submitting for the record 
10,000 signatures of registered voters that have--here in the 
general Brownsville area and the region as a whole in 
opposition----
    Audience member. Yes, we have 10,000 signatures.
    Mr. Grijalva [continuing]. In opposition to the wall. Thank 
you very much. Sorry, Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. Your Excellency and 
also Ms. Perez--well, Ms. Perez, in particular, you stated 
something that I think was quite interesting. You said that for 
you and many other people here the border really does not 
exist. That's an interesting observation, and I just wondered 
if, Your Excellency, if you believe in your heart of hearts 
that a border should exist, if there is such a thing as a 
meaningful border and should it exist between Mexico and the 
United States.
    Bishop Pena. It exists and should exist.
    Mr. Tancredo. Should we have a border?
    Bishop Pena. Well, let me answer. It exists and it should 
exist. However, we cannot prevent families that are divided by 
the border, because they happen to be citizens of different 
countries, to have the freedom of access to one another, to 
have barriers that separate them.
    Mr. Tancredo. Then, Your Excellency, what is the purpose of 
the border if it is not to actually distinguish one country 
from another? And should the United States be able, as Mexico 
is and every other country, should we be able to determine who 
comes across those borders, for what purpose, and for how long? 
Do you think that's a legitimate policy goal of our government, 
essentially anybody?
    Bishop Pena. Yes, certainly that should be the goal of any 
government. Every government has a right to protect its 
borders, but we oppose protecting our borders by means of a 
wall that would not realistically protect the border.
    Mr. Tancredo. The question about realistically protecting 
the border, may I suggest that there is a possibility that 
there is such strong opposition to some sort of barrier--I know 
that the use of the word wall is used mostly to denote 
something like the Berlin wall that's been referred to here 
before, certainly inaccurately, as that particular wall was 
built to keep people in; this particular structure, whether it 
is a fence, a double fence, or even a vehicle barrier, is meant 
to keep people out who should not be coming in without our 
permission.
    It is a significant difference in connotation, by the way, 
of the use of the word wall and/or barrier. But I do suggest to 
you that that is, in fact, a logical and effective approach, as 
has been determined by its use in other places; that it is 
perhaps the most humane way to address this issue, as it does 
discourage--as it does discourage the kind of activity that we 
have seen up there that ends up with people being murdered, 
being raped, having the drugs that are brought into this 
country through those particular avenues. It does, in a way--
and it's only a small way--I again state, this is no way a 
complete solution to the problem. Nobody suggests that. No one 
I have ever heard of thinks that a fence is the only solution. 
It's just part so that we can use other assets to actually plug 
the gaps that occur. That's all there is to it.
    And in terms of the environmental degradation, the birds 
that won't fly, the butterflies that won't be able to traverse 
this area and the like, if you weigh that against the 
environmental degradation that is going on every single day on 
this border, I cannot understand, Ms. Perez, that your concern 
wouldn't be as great for us in order to try and stop that 
degradation, which we have seen plenty of evidence of. And yet 
our attempts to do so are seen as anti-environmental.
    On the other hand, I suggest to you that they are exactly 
that, that they are meant exactly to do--at least a portion of 
what the solution is for that is some sort of structure, some 
sort of physical barrier that would ease the flow across those 
areas that now does, indeed, do great damage to the 
environment. So I would hope that your organizations would at 
least take into consideration the two sides of this, how much 
is being done as opposed to what environmental damage may be 
done by the construction of the fence.
    And, finally, the question I have for Ms. Neuhaus, that you 
did not get a chance to get to in your own testimony, is the 
impact--the impact of illegal immigration is having on ranchers 
here in Texas, and if you would explain the legal problems 
they're facing.
    Ms. Schaan. One of the significant legal issues that the 
ranchers are facing, particularly if they're removed from the 
border itself and its approximately 40 miles in part inland, is 
that Customs and Border Patrol have the authority to go onto 
private property in pursuit of smugglers, whatever it is that 
they're smuggling, in their law enforcement pursuit. Farther 
inland than that, they do not have that statutory authority.
    One of the issues that they are dealing with up closer to 
Kingsville and Falfurrias is that if they authorize law 
enforcement to come onto their premises to pursue illegal 
activity and someone involved in the activity is harmed, the 
ranch owner, the landowner is being sued because they gave 
permission to the law enforcement agency to come onto their 
property.
    Mr. Tancredo. Thank you.
    Ms. Bordallo. Thank you. Thank you, gentlemen. Before I 
recognize our next member, the 10,000 signed petitions of U.S. 
citizens will be entered into the record by the committee. 
Hearing no objection, so ordered.
    [The information has been retained in the Committee's 
official files.]
    Ms. Bordallo. And now I'd like to recognize the gentlelady 
from California, Ms. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair. I just--Bishop, 
thank you so very much for all your testimony and for getting 
sure that people have a voice through those petitions. Why is 
it that we call these undocumented aliens? They're human beings 
that come for a better life, and yet we continue to label them, 
not knowing--not realizing that they are part of our economy 
that, yes, they are here illegally. What we should be doing is 
going after the smugglers and rapists and the real lawbreakers.
    Do you have a comment on that, Bishop?
    Bishop Pena. I agree with you totally. What I said was 
undocumented residents.
    Mrs. Napolitano. I know that you did, yes, sir.
    Bishop Pena. Now, why they choose illegal aliens, I 
couldn't answer, but I think it is important that we go against 
all the criminals, regardless of what the nature of their crime 
may be. And, by the same token, we need to respect all those 
who contribute to our economy, who help us harvest our crops, 
who clean our houses. An interesting thing when I was in El 
Paso and that operation went into effect, people were joking 
that now the Border Patrol agents were coming with their shirts 
not neatly pressed.
    Mrs. Napolitano. Thank you, Bishop, and I agree. Now, 
unfortunately, we seem to forget that they are not the 
undocumented in this country, because this country used to be 
Mexico. Now, that aside, I know the treaties, I know everything 
else. But we supposedly are treading on those treaties of the 
Native Americans and others. So we apparently honor only those 
treaties we like. One of the things that you mentioned in your 
testimony is the government trampling on the constitutional 
rights of the farmers of being able to have that ability to 
have redress if they are sued; am I correct, Ms. Neuhaus?
    Ms. Schaan. Can you hear me?
    Mrs. Napolitano. Yes.
    Ms. Schaan. The landowners, it has to do with the liability 
laws, but, yes, they--it's a fact that in the State of Texas, 
law enforcement is not allowed on private premises without 
authorization. So if the--if whoever--and this could apply to 
the cities as well. Say you have----
    Mrs. Napolitano. I'm sorry. I don't mean to--but wouldn't 
you think there would be some provision in having those waivers 
by Mr. Chertoff be able to have a waiver so that those ranchers 
then have the ability not to get sued?
    Ms. Schaan. Oh, that's one of the things they would just 
really appreciate having.
    Mrs. Napolitano. Well, why would that not be part of 
sitting down with you, the farmers and others, to figure out a 
way how to protect our U.S. properties and our owners?
    Ms. Schaan. I think that that is a wonderful idea and it's 
not just in the pursuit, but there are other issues that have 
to do with the aliens cutting the fences and livestock being on 
the roads and then the rancher being sued because the car hit 
the cow and--you know, it's a whole host of issues, and also 
very high----
    Mrs. Napolitano. Which was my point in asking the 
individual from the agency is did they sit with the folks and 
hammer out small details they cannot think because they don't 
live there? They don't see the impact. Am I correct?
    Ms. Schaan. Yes, you are, but I'm not with the Department 
of Homeland Security.
    Mrs. Napolitano. No, I know that. But that's what I was 
saying, that they needed to have people at the table to discuss 
the unintended consequences that there may be.
    Ms. Schaan. Yes, in my case the consequences that I'm 
talking about are what is happening to the degradation of the 
life in the rural communities where people are not allowed to 
leave their homes unattended. I know one grandmother, her 
grandson came walking back to the house from a pasture and 
there were 20 men dressed all in black with advanced weaponry 
under the trees in the front yard, and they're somewhere 
between 5 to 10 miles from the nearest highway. And that's the 
sort of life that they're having to endure.
    Mrs. Napolitano. But, to any of you, real quickly, because 
I'm out of time, don't you think that a good immigration reform 
would help?
    Ms. Schaan. Clearly, and I think it needs to--if you're 
asking me from a policy perspective, I tend to focus on the 
security element. I think that everything needs to be tried in 
order for us to get control of the situation so that thoughtful 
immigration policy can be pursued. Because part of this 
security element is that there are so many people who are 
frightened that it's causing a lot of reactionary measures 
being taken rather than thoughtful proactive measures.
    Mrs. Napolitano. Thank you. But that was my point, is that 
we do need good immigration reform. We agree safety has to be 
paramount, of our country, of our land, and of our people. 
Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentlelady from California, and I 
now recognize the gentleman from California, Mr. Hunter.
    Mr. Hunter. Thank you very much, Madam Chairwoman, and, 
again, thanks--I want to thank our host for holding this 
hearing. Bishop Pena, I would hope that you would talk with 
some of the bishops in the San Diego area, because you said 
very clearly we need to go against criminals. And let me tell 
you, when we built the double border fence in San Diego, by FBI 
statistics--because we had the border gangs and we had people 
moving narcotics on a large scale going back and forth, people 
coming over on a nightly basis hurting Americans and going back 
to the refuge at the end of the day, and we had a no man's 
land, which was the subject of novels, best-selling novels, 
because it was so desperate and so violent, with hundreds of 
rapes every night, with dozens of murders on the borders, with 
beatings, with great brutality. And when we built the double 
fence, the crime rate by FBI statistics in the County of San 
Diego, California dropped 56 percent. So if you truly believe 
that we need to do something that is going to keep people safe, 
that double border fence worked in San Diego.
    And, let me tell you, you've got a bigger problem, simply 
the idea of people moving back and forth in a community. 
Because people that come through that border are moving massive 
tonnages of cocaine that's going into the veins of American 
children throughout this country, some 24 metric tons last 
year, some 386 metric tons of marijuana, most of it coming 
through Texas. So when we allow a situation to exist--and it 
continues to exist despite the added resources--where massive 
tonnages of cocaine and marijuana are smuggled in that end up 
in the veins of America's children, then we aren't serving this 
nation well.
    And to the gentlelady who is the rancher and landowner, let 
me just say that I've read some of the accounts of other 
ranchers. I've read the accounts of John Wooders, who wrote a 
very poignant article entitled Good-bye to My Ranch. And he 
told about going out to his ranch that he and his wife loved 
and had for years and being faced with people with Members Only 
jackets and automatic weapons coming through their land 
stealing everything that wasn't nailed down and providing so 
much--such a threat to them that they felt compelled to sell 
the ranch and leave the area. That is a story that is not 
uncommon. So I know you said you had one bottle of wine stolen 
and that was the extent of your damage. I think that there is 
lots of other Texas ranchers who would have a very different 
concern.
    And, last, to all of you, this has a humanitarian aspect. 
Over 400 people came through last year who died in the desert 
heat, mainly in Arizona. And, Bishop Pena, you know, my brother 
puts out water. In fact, he's the only guy that's done it year 
after year of all the people in the United States to save 
people in the desert. He puts out water stations to save their 
lives and he's saved hundreds of lives. Let me tell you, those 
coyotes take the people to the border, they tell them that the 
road is a mile to the north after they get their money. In some 
cases they're 20 miles to the north. And about 11:00 o'clock 
the next day, they're out there in 110-degree heat and they're 
dying of sun stroke and heat stroke.
    Now, if you had 400 high school students drowning in a 
canal every year, what's the first thing that you would direct 
them to do as a leader in this community? You'd say ``fence the 
canal.'' So if we have 400 people dying in the border region, 
mainly in this 110-, 115-degree heat that we see in the low 
desert, places like Arizona and some in Texas and some in 
California, the first thing you would do is fence that border. 
That would have a humanitarian aspect.
    And, last, the confrontation between the Border Patrol and 
the smugglers, like Compian and Ramos, who were sent to prison 
for wounding a drug dealer who was bringing across 700 pounds 
of drugs, that was an area where a fence built on that road 
would have covered the border, and that van load of 700 pounds 
of marijuana would have never made it across, there never would 
have been the confrontation, there never would have been the 
shooting.
    What we found in San Diego is the double fence separating 
the smugglers and the Border Patrol has a salutary effect on 
the safe-being and the well-being of the Border Patrol. They 
can't be rocked, they can't be shot through that fence, they 
can't be beaten, and it's a margin of separation which gives a 
lot of safety for the Border Patrol.
    So I know that your 10,000 signatures are well-meaning, but 
I wish those people would look at those considerations, the 
vast amount of drugs coming through, the fact that we have 
250,000 criminal aliens in Federal, state and local 
penitentiaries and jails. And those people didn't come across 
for a job or to see their relatives. They came across to hurt 
Americans. They did hurt Americans. And they cost this country 
about 3 billion a year to incarcerate. That $3 billion would 
pay for 1,000 miles of border fence.
    And, last, my friend the mayor stated that this sector has 
had fewer apprehensions than the San Diego sector. The San 
Diego sector went from 202,000 apprehensions, the fenced 
sector, to 9,000. That's more than a 90 percent decrease. The 
Yuma sector, which was just fenced, went from an astounding 
138,437 to 3,869. That's a 95 percent decrease. That's one 
third--those two sectors combined that are fenced is one third 
the number of illegal aliens who were apprehended this year in 
this sector. So the fence works.
    And, you know, I've come to the conclusion after 28 years--
we've all talked about other solutions. None of the other 
solutions have worked. The virtual fence hasn't worked. You 
can't get enough Border Patrolmen to hold hands across this 
border. The fence has worked, and in the end they will save 
lives on both sides of the border.
    Mr. Grijalva. Thank you, Mr. Hunter, let me turn to the 
gentleman from American Samoa, Mr. Faleomavaega. Sir.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I do want to 
thank members of the panel for their testimony this afternoon. 
I just wanted to ask Bishop Pena a question that these 10,000 
signatures, in contrast to the alleged claim by Mr. Schultz 
earlier in the hearing that there was consultation by the 
Department of Homeland Security, was this ever brought to your 
attention, the way the DHS had proceeded in supposedly holding 
a public hearing about this same issue? The fact that you've 
got 10,000 signatures in opposition to building a fence, I'm 
curious if you're aware or has the Department of Homeland 
Security ever contacted your office, and did you participate in 
the hearings that they have taken here sometime back?
    Bishop Pena. The Department of Homeland Security has never 
contacted our office for anything. We own land along the river. 
We have not been consulted, we have not been asked, we have not 
been told. We called to ask ``Is our land covered?'' and they 
said, ``Well, if it is, we will let you know.'' We haven't been 
advised anything. So, no, there is no communication. Any 
communication that has taken place has been on our side and we 
have not received answers.
    Mr. Faleomavaega. So to this day the community here in 
Brownsville has never heard since at the time what was the 
sentiment and what was the consensus among the community people 
at the time that DHS conducted that so-called hearing.
    Bishop Pena. No, we have heard nothing.
    Mr. Faleomavaega. OK. Ms. Jenks, I've listened to your 
testimony very closely and it seems--and the point is well-
taken--you're talking about security, security, security, 
especially to the many families and people living along the 
border. And I suspect there is a lack of effort on the part of 
the Federal government, other than lately they're beginning to 
do something about it. I remember meeting with families living 
along the Arizona border and the same complaints, the slowness 
of the Federal government to respond to the problems about 
destruction of private property. I thought, Ms. Schaan, that 
the law here in Texas is shoot first and ask questions later. 
Is that still in place?
    Ms. Schaan. If you are protecting your property, you are, 
under certain circumstances--particularly if it's a home 
invasion, if you shoot a trespasser, then, generally speaking, 
the grand jury will not bring an indictment against you.
    Mr. Faleomavaega. Is this also true in Arizona?
    Ms. Jenks. Yes, it is. If it's self-defense in your home, 
you can shoot.
    Mrs. Napolitano. Inside?
    Mr. Faleomavaega. But in a yard, you cannot shoot.
    Ms. Jenks. You can't defend--in most states you can't 
defend your property with lethal force, but you can defend 
yourself and your family with lethal force.
    Mr. Faleomavaega. I just wanted to express a sense of 
concern that for years the issue of immigration has really torn 
our country apart to the extent that with all good intention of 
what we're trying to do to protect our borders. The so-called 
20 million illegal aliens that supposedly come from the Mexican 
border are not all Mexicans. I believe only about 5 million are 
Mexicans. The rest come from Central and South American and 
other foreign countries. You might also note as a matter of 
statistics that illegal aliens provide some $52 billion they 
send back home by Western Union to help their families, 
especially most of these families from poor areas in not only 
Mexico but other areas in Central and South America.
    So I don't want to say that it's OK to come here illegally 
so that way you can provide the needs of the family, but, as 
you mentioned earlier, Bishop Pena, there are positive aspects 
of many of our aliens who do work, who do provide a very 
valuable service to the American community. Without them--and 
maybe my good friend from California, Mr. Hunter, can help me 
with this--without illegal immigrants conducting the work in 
farms and throughout the State of California, the farm produce 
industry would go to pot. And I don't know if I'm accurate on 
that description, Mr. Hunter.
    Mr. Hunter. No, I think, my good friend--and indeed you are 
a very good friend--I think the idea that we--that the economy 
would collapse without the help or the work of people who are 
here illegally is wrong. And what I'm reminded when they had 
the packing plant closed and the Swift packing plants closed 
down, and they took 800 people that were there illegally from 
those jobs. The next day American citizens were lined up, from 
what was reported, to get their old jobs back at 18 bucks an 
hour. So I don't agree with the theme that we're desperate to 
have folks come in illegally.
    Mr. Faleomavaega. I just want to say----
    Mr. Hunter. But thanks for letting me have a word in here.
    Mr. Faleomavaega. I want to say to my good friend from 
California that his points are well-taken about the serious 
drug trafficking and issues of the coyotes and the cartels. I 
recall a leader from Latin America once making a comment that 
if there wasn't so much demand for illegal drugs here in 
America, maybe they wouldn't supply so much of it.
    But here is the question, and, philosophically, you can 
take it any way you want. We are really under a somewhat of a 
double standard. We always point the finger that Mexico is the 
culprit, we've got all these problems, but it's OK to have a 
free borderline between Canada and the U.S. And I just want to 
see if there is equity and fairness in the process, and I'm 
sure that is the intent and exchange of Ms. Schaan, that some 
form of protection, the Federal government has that 
responsibility but it has failed.
    And so I do appreciate Mr. Tancredo's comments that the 
fence is only part of the solution. And, unfortunately, this 
has not exactly been agreed upon by communities who live along 
the border, which includes the citizens of Brownsville and I 
suspect the people living in Matamoros, which is almost a 
million people, and many companies, American companies doing 
business and American workers also working in Matamoros. I 
notice my time is over, Mr. Chairman.
    Mr. Grijalva. Thank you very much, sir.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Grijalva. As I understand it, Mr. Reyes, you have no 
questions from this panel.
    Mr. Reyes. No.
    Mr. Grijalva. Mr. Ortiz.
    Mr. Ortiz. I just wanted to welcome my bishop. We come from 
the same hometown, the biggest little town in Texas, which is 
Robstown, and our families grew up together. And I think the 
testimony has been very eloquently spoken today and I just want 
to say thank you for joining us today. Thank you so much.
    Mr. Grijalva. Let me thank this panel, and if there are 
follow-up questions on the part of my colleagues, they will be 
forwarded to you for comment in writing. Thank you very much 
for your time and your courtesy and your testimony.
    [Brief recess.]
    Mr. Grijalva. Thank you. Let me welcome the next panel 
pursuant to Clause 2 of House Rule 11. I ask that the witnesses 
please stand and raise their right hand to be sworn in. Thank 
you.
    [Witnesses sworn.]
    Mr. Grijalva. Let the record indicate the witnesses have 
answered in the affirmative and we will begin with the opening 
statements. Let me welcome Mr. John McClung, president and CEO, 
Texas Produce Association. And he already has ingratiated 
himself with this Congressman by being a graduate of the 
University of Arizona and a Tucsonian. So, welcome, sir. Good 
to see you. And look forward to your testimony.

         STATEMENT OF JOHN McCLUNG, PRESIDENT AND CEO, 
                   TEXAS PRODUCE ASSOCIATION

    Mr. McClung. Thank you, Madam Chairman, Mr. Chairman, 
Members of Congress. My name is John McClung. I'm the president 
of the Texas Produce Association headquartered in Mission, 
which is 50 or 60 miles west of here. The association 
represents the interests of farmers, growers, shippers, 
importers, processors and marketers of fresh produce in Texas. 
I want to thank you for giving me the opportunity to testify 
today on a matter that's of enormous concern to the area 
farmers and agricultural interests. And, frankly, that's a 
component that hasn't gotten a lot of attention up to this 
point.
    It may be most useful I think to begin where we, 
obviously--where almost all of the segments have--seem to be in 
agreement, and that is we all want border security, we all want 
to return rule of law to the border, we all want to make 
certain that people who are intending to come here illegally 
are not able to do so, that those who do come are coming for--
mean us no harm. That's really not the issue here at all, never 
has been. The issue is doing it intelligently, doing it cost-
effectively, and doing it in a humane fashion. The--and, by the 
way, that whole--that whole formula may, in fact, involve some 
fencing or some walls in certain very limited, very precise 
places.
    That said, the individuals that I've talked to that are 
involved in agriculture in South Texas, by and large--not 
exclusively, but for the most part--are strenuously opposed to 
a fence or a wall as it has been detailed to us. There are 
several reasons for that. And let me say here that we have not 
been much consulted by the Department of Homeland Security 
about any kind of a--any kind of construction. There has been a 
lot made today of the issue of consultation. I think you all I 
hope recognize that in no small part this business of 
consultation has to do with the definition of consultation. 
When you are talking across the hood of a pickup truck to a 
member of the Border Patrol, that's not a consultation in any 
meaningful way.
    The Department of Homeland Security has had no problem 
saying that the Border Patrol is consulting for them with many 
people in the Rio Grande Valley. The Border Patrol has no 
authority to consult. The Border Patrol only has authority to 
tell us what Washington is intending for us subchapter and 
verse, but that's not a consultation in any constructive 
fashion.
    And so many, many landowners along the river, along the 
three south counties of the Rio Grande Valley, have never been 
approached by anybody from the Federal government on this 
issue. And many times when we go to talk to them, when we 
initiate that conversation, we're told, ``Look, your land is 
not where we are planning to survey or where we're planning to 
build a wall. We don't have any need to talk to you. Relax. 
Don't worry about it.''
    The problem with that is there--there are several problems 
with farmers in the Valley. The first is that we have to have 
access to our land. We're not really talking about a border 
wall here, you know. We're talking about north of the border 
wall. In some cases you're within a very short distance of the 
river where the levee runs. In some cases you're a couple of 
miles from the river. There are thousands of acres south of the 
levee up north of the river. We've just simply not been told 
how we are going to have access to the land south of that 
levee. There have been some maps and proposals, but nothing has 
been definitive, nor have we been told how we're going to 
access river water.
    We irrigate entirely out of the Rio Grande River. Without 
that river, we can't successfully farm for the most part down 
here. So we have to have access and we have to have access 24/7 
because the pumps, the water pumps get clogged up, vegetation 
grows in them. It's a very--a very practical kind of a problem.
    The other issue, and the one that I particularly want to 
emphasize, is that nothing much has been said about the value 
of land south of the levee if there is a wall constructed. At 
the risk of some melodrama, there is a lot of talk about 
turning that land into a no man's land. I'm not sure that is 
altogether accurate. We're not ceding anything to Mexico that 
I'm aware of in a legal sense, but we are creating a boundary 
here between that levee and the river.
    And land values in that boundary area cannot help but go 
down if farmers cannot get access to it, yet people don't want 
to get access to it. And that is something that has been 
virtually unaddressed to my knowledge.
    The--I want to make sure that I cover this thoroughly here. 
Many farmers in Cameron, Hidalgo and Starr Counties have been 
approached by--have never been approached by the DHS, as I said 
before. And others have been told that DHS has no interest in--
in their--in building along those sections where these people 
operate.
    You know, many of the landowners that you've heard about 
along the Rio Grande are small landowners, a few acres, and 
they're in the vicinity of Brownsville or Hidalgo or other 
little towns along the border. The big commercial agricultural 
operations are not in those areas, for the most part. They're 
in areas very often where there is no intention of building a 
wall at this point, and so they weren't--they aren't factored 
in. But their land values are going to deteriorate.
    Well, I have a written testimony. Obviously, I would 
appreciate having it go into the record.
    Mr. Grijalva. It's part of the record, sir.
    Mr. McClung. Thank you.
    [The prepared statement of Mr. McClung follows:]

             Statement of John McClung, President and CEO, 
                       Texas Produce Association

    Mr. Chairman. Members of the committee. My name is John McClung. I 
am President of the Texas Produce Association, headquartered in 
Mission, some 60 miles west of here. The association represents the 
interests of growers, shippers, importers, processors and marketers of 
fresh produce from Texas.
    I want to thank you for giving me an opportunity to testify today 
on a matter that is of real and immediate concern to the fruit and 
vegetable industry of Texas. It may be most useful to begin where there 
appears to be agreement among all parties that have taken an interest 
in the construction of a wall along the southern levy in the three 
southmost counties of the Rio Grande Valley. Nobody I have talked to 
opposes reestablishment of the rule of law at our southern--and 
northern--borders. Thoughtful observers all recognize the need to 
secure the borders, prevent the entry of undocumented aliens, and 
ensure that those who enter mean us no harm and are here for legitimate 
purposes, including labor in our farm fields.
    However, most of the individuals I have talked to want this goal 
achieved in as intelligent and cost effective a fashion as possible. 
And with few exceptions, they oppose the wall as an inefficient tool in 
curtailing or even significantly slowing illegal immigration.
    The farmers, packers, processors, importers and marketers of fruits 
and vegetables take particular exception with their virtual exclusion 
from the Department of Homeland Security's planning process, and 
vigorously deny claims by that agency that they, as impacted 
landowners, have been consulted in any meaningful way. I want to 
emphasize that some of them have talked with Border Patrol agents about 
the construction of a fence or wall, but in most of those instances, 
the field level agents they conversed with knew little more, if as 
much, as they did.
    Farmers in the Valley have several practical concerns about the 
wall, even in areas where no construction is contemplated.
    --First, we must have access without artificial impediments to our 
fields. Every day, farmers and their employees work the land, including 
the thousands of acres of highly productive delta south of the levy. In 
places, the levy is a few yards north of the River, but in others it is 
a mile or two. Under the federal government's plan, as we understand 
it, that land could be accessed only through gates or other points of 
entry widely spaced along the wall. Such a scheme is wholly inadequate.
    --Second, we must have access to the river for irrigation water. In 
the three lower counties of the Valley, we irrigate virtually 
exclusively from the River, using pumps along the edge of the river. 
Those pumps are subject to breakdown frequently, and to clogging from 
river vegetation. We must be able to approach and repair them day or 
night.
    --Third, should DHS's ill-conceived wall plan come to pass, 
farmland south of the levy would become what many refer to as a ``no 
man's land.'' Obviously, this land would not be officially ceded to 
Mexico, but land values below the wall would certainly plummet, even in 
those long stretches where there would be no physical barrier along the 
levy. Farm families that have owned and worked that land for 
generations would see its worth implode. This is a point that seemingly 
has escaped many analysts, and I want to make certain I cover it 
thoroughly here. Many farmers in Cameron, Hidalgo and Starr Counties 
have never been approached by DHS at any time, while others have been 
told DHS has no interest in meeting with them because there are no 
plans in the agency to survey for or build a wall on their property. 
But if the levy becomes the second southern border, their land will 
likely not retain its value, and the hard work and pride of generations 
will be squandered.
    --Finally, farmers are practical people of necessity, depending on 
a good deal of seat-of-the-pants engineering to do their jobs 
successfully. They look at the tentative wall plans--all tentative wall 
plans--and conclude the obvious: It won't work. In terms of prohibiting 
illegal immigration, it isn't even a good joke. What it will do--all it 
will do--is allow a small number of misguided ideologues in the U.S. 
Congress to tell their extremists supporters that they ``did 
something.'' And that is an absurd reason to spend give-or-take $5 
million a mile in South Texas.
    Of late, there has been a good deal of discussion about a ``two-
for-one'' deal in which a wall would be constructed in Hidalgo and 
possibly Cameron Counties with the paired objectives of preventing 
illegal immigration and rehabilitating our ailing levies. I want to 
make the point here that the levy problem is very real, and must be 
addressed. Further, the levy is owned and operated by the federal 
government, and should be maintained with federal dollars. But to try 
to pay for levy rehabilitation with border security dollars is, in my 
opinion, a deeply troubling way to try to solve unrelated problems. 
Ironically, this hybrid approach might meet the levy repair 
requirement, albeit at a ghastly price, but it would no more solve the 
security problem than any other wall or fence scheme. I asked one of 
the key engineers working on the design for the combined levy/wall plan 
how access to land and water would be afforded to farmers, and his 
response was that they were most likely to build in gates where there 
are dirt roads crossing the levy. These would have to be extremely 
large and heavy gates--and therefore very expensive--to accommodate 
large farm equipment. The farmers would be issued electronic remote 
controls to open and close the gates.
    What a hopeless mess that would be. In the first place, each farmer 
would require multiple ``clickers'' to enable his crews to get through 
the gates. How long does anyone think it would be before a few of them 
disappeared? Or before the coyotes figured out the frequencies? While 
it is not my intention to discuss implications for wildlife, I want to 
add that this same engineer told me the likely plan would include 
``ports'' to allow small animals to pass through. Swell idea. Doggie 
doors in the security gates. Interesting to see how many skinny illegal 
immigrants we would catch in the first year.
    In my opinion, these are the kinds of unworkable solutions tortured 
engineers dream up when they have their backs against the wall, 
literally in this case, and there are no good solutions.
    The real fix, as Commerce Secretary Carlos Gutierrez said most 
recently, and many others have pointed out in the past two years, is 
comprehensive immigration reform. It is in my belief shameful that the 
U.S. Congress, when presented with legislation last year that would 
have intelligently and effectively dealt with the key needs of genuine 
reform, was incapable of acting and so fell back on the most foolish, 
least efficacious arrow in the quiver--a border fence. It is beyond 
shameful that the Department of Homeland Security and its boss, 
Secretary Michael Chertoff, have mindlessly waived the environmental 
and related laws of the land and pushed ahead with a wall when the 
Hutchison-Rodriguez amendment to the omnibus funding bill for FY 08 
gave them every opportunity to act constructively by setting aside the 
prescriptive language of the Secure Fence Act of 2006.
    At this point in time, the battle lines are dug so deep, perhaps 
the best we can hope for is that no substantive construction take place 
in Texas until we have a new Administration and a new Congress, 
hopefully with new courage to confront the immigration issue. The 
farmers and other agricultural interests I represent are a 
conservative, profoundly patriotic lot by-and-large. They want what is 
best for this country. Most of them believe a border wall isn't it.
    Thank you very much for permitting me to testify here today.
                                 ______
                                 
    Mr. Grijalva. Mr. Merritt, sir, your comments.

           STATEMENT OF KEN MERRITT, PRIVATE CITIZEN

    Mr. Merritt. Thank you, Chairman and Chairwoman, as well as 
Members of Congress. I appreciate this opportunity. Up until 
January of this year I was employed by the U.S. Fish and 
Wildlife Service as refuge manager for the three national 
wildlife refuges we have down here in South Texas, the Santa 
Ana, Lower Rio Grande Valley, and Laguna Atascosa National 
Wildlife Refuges. And I was pleased to have this invitation and 
also feel somewhat liberated in terms of my comments, I 
suppose, now that I'm not an agency staff person, but I'm not 
too liberated probably.
    I would like to start basically with giving a little 
background of myself without going--I'll stay within my time 
limit, I'm sure. I have 30 years in with the U.S. Fish and 
Wildlife Service as a wildlife biologist and a refuge manager, 
and the last 11 years I was in charge of the refuges here in 
the Valley. And when you're talking about the border fence, you 
really are talking about all the Rio Grande Valley National 
Wildlife Refuge. That's one of the points I'm going to try to 
make here.
    And I think it's useful to go back and look at what the 
Fish and Wildlife Service went through most recently here. I 
was in charge of basically leading the effort in terms of the 
Fish and Wildlife Service for Texas refuges. And, you know, 
April of 2007 we saw a news article in one of the Roma papers 
that said Border Patrol agents were contacting private 
landowners to determine whether they would be able to get 
access to their lands for the border fence. And that was a 
surprise to the Fish and Wildlife Service, at least locally. I 
would imagine upper levels as well. And subsequent to that we 
made concerted efforts to contact the Border Patrol and finally 
got a meeting with the Border Patrol and it was confirmed that, 
yes, indeed, Texas' border was going to be part of the picture 
and also that a lot of the fence was going to occur on U.S. 
Fish and Wildlife Service property.
    The interesting thing about that was that the U.S. Fish and 
Wildlife Service property was thought of somewhat like low-
hanging fruit. Because it was already Federal land, it was 
thought it would be much easier to access those lands and build 
a fence on those properties. So months go by and very little 
contact between U.S. Fish and Wildlife Service and refuges and 
Border Patrol.
    And you get to October and I go to a meeting in Harlingen 
with my staff and find out that, indeed, we're going through 
with this. And, of course, we were provided with maps at the 
first meeting about where these fences were going to be, which 
was really nice. Those were maps that we could not share with 
anyone, and yet what we heard was that no decisions had been 
made on locations on where these fences were going to be. But 
we were looking at it but held it as asked.
    So in October we go to a meeting and we're basically asked 
about access to the refuge, which we dutifully tried to make 
happen. And here we are in December and we grant the 
consultants who work for DHS an opportunity to do that. And at 
about the same time we're having public hearings.
    So you can imagine--my point is really that you could 
imagine that the level of surveys needed for a DEIS were really 
not given the sufficient time to figure out exactly what we 
have on the refuges and what the impacts of the border fence 
would be. I really think it's an unrealistic schedule that DHS 
has and I would believe a lack of concern about national 
wildlife refuges, which are special places to the American 
public. There is a long history of the Lower Rio Grande 
National Wildlife Refuge as a wildlife corridor which couldn't 
be interchanged very easily.
    In fact, before 1980 many people got together and looked at 
this and decided this was indeed a place for a national 
wildlife refuge. The Valley needed a place for a national 
wildlife refuge since 95 percent of the native habitat in the 
Valley, in the U.S. Valley has been cleared off, and so we have 
a very narrow strip where habitat remains and 18 species of 
threatened or endangered species, a wonderful place for 
migratory birds. But yet a narrow place.
    When you look at the border fence impasse, I think you have 
to look at, yes, there is going to be a small area that would 
be cleared. That area being cleared, how important is that? 
Well, I think you can do an analogy basically when you look at 
the river and the little strip that's remaining of native 
habitat. And then you consider taking more habitat away, it is 
devastating to our national wildlife along the border and it's 
a national and international resource.
    An analogy in Canada is that if you took a strip out there, 
there are millions of miles of uninterrupted habitat. Here we 
have fragmented habitat that might be a quarter mile or less 
from the river at any particular point. Very little habitat 
remaining. So the impact will be barriers to wildlife, ability 
of wildlife to get the water. You also have jaguarundi, which 
needs to be able to travel, an endangered species--there is 
only about 70 to 100 left in the U.S.--very much impacted by 
border walls as prescribed currently.
    I think the operational part of this for the U.S. Fish and 
Wildlife Service is that how do we operate in what we'll call 
no man's land? The Border Patrol has indicated they'll continue 
to go south of those fences where there is distance between the 
river and the levees, for example, but what happens when we 
have fires? We have over 300 fires on U.S. Fish and Wildlife 
Service property every year and those properties are 
endangered, yet where are those escape areas?
    I'll summarize. The waiver invoked by Secretary Chertoff on 
April 1st basically included well over 30 Acts, but in 
particular the National Environmental Policy Act and the 
Endangered Species Act were of great concern to a lot of folks 
in this area, including the Fish and Wildlife Service. I think 
really the point I want to make is that thoughtfulness, logic 
and really listening to the public really hasn't been served in 
this case. The schedule just wouldn't allow it in my 
estimation. Thank you.
    [The prepared statement of Mr. Merritt follows:]

             Statement of Kenneth L. Merritt, Occupation: 
         Retired from U.S. Fish and Wildlife Service (30 years)

    My testimony is based on my knowledge and experience as a wildlife 
biologist and refuge manager with the U.S. Fish and Wildlife Service 
during the last 30 years as well as my B.S. degree in wildlife 
management from Humboldt State University. Specifically, I held 
positions of Deputy Project Leader (4 years) and Project Leader (7 
years) for the South Texas Refuge Complex. As Project Leader I oversaw 
the operations and management of Santa Ana, Lower Rio Grande Valley, 
and Laguna Atascosa National Wildlife Refuges. My duties during my 11 
years in the Lower Rio Grande Valley included close coordination with 
Border Patrol and the Department of Homeland Security and more recently 
I took the lead for National Wildlife Refuges in Texas in U.S. Fish and 
Wildlife Service in negotiations with DHS on the construction of the 
Border Fence.
    The U.S. Fish and Wildlife Service was first made aware of 
permanent border fencing in the Valley in April of 2007 when newspaper 
articles appeared chronicling the contacts local border patrol agents 
were making in and around Roma, Texas. This was followed by contacts 
made by FWS to the Rio Grande Headquarters for information on this 
potential fence. As a result of this inquiry carried out by FWS, a 
meeting was held at Santa Ana National Wildlife Refuge with Border 
Patrol and Army Corps of Engineers representatives. During this meeting 
the plans for a border fence were confirmed and the Lower Rio Grande 
Valley National Wildlife Refuge was put on notice that DHS intended to 
build miles of fence on the Refuge. Further, DHS indicated that the 
refuge was targeted because it was thought that it would be easier to 
build the fence on property already owned by the Federal Government. 
During this meeting, preliminary maps were provided to the FWS which 
could not be shared with outsiders. Though at the time, and continuing 
for many months, it was DHS's official position that no decisions had 
been made regarding fence locations.
    Many months passed with few (largely unproductive and 
uninformative) meetings between FWS and DHS and ACOE until September 
when the FWS was invited to a meeting at the Harlingen Border Patrol 
Headquarters to meet with DHS and their consultants (E2M) who were 
tasked with conducting biological, cultural, and engineering surveys on 
private land and refuge lands to gather information for the DEIS for 
the border fence. This marked the first time that FWS Refuges were 
informed that surveys would be requested on refuge lands. Surveys were 
conducted on private lands beginning in October 2007 and Refuge lands 
in December 2007. Public meetings aimed at gathering public comments on 
the DEIS were conducted at various locations in the Valley in December 
2007.
    The narrative and chronology of events described above aptly 
illustrates the DHS's unrealistic schedule and concern for carrying out 
a proper evaluation of the environmental effects of the proposed border 
wall. Without proactive efforts on the part of FWS it is unclear 
whether the FWS would have been notified of this pending action until 
well into the summer months. This is ironic since DHS apparently put 
many of its ``eggs'' in the refuge basket counting on the ease of 
accessing and constructing a border fence on a National Wildlife 
Refuge. The content and tone of DHS throughout this process could only 
be described as having no special consideration for the fact that a 
major action (permanent fence) was proposed to be place on one of this 
nation's most ``special places''. Further, the DEIS prepared for DHS is 
founded on very superficial biological surveys of private and Refuge 
lands which constitute a totally inadequate ``gathering of the facts'' 
to evaluate such a major construction project.
    The Lower Rio Grande Valley National Wildlife Refuge was 
established in 1980 after extensive investigations and research and was 
promoted by a large and very diverse public who recognized the 
importance of the Refuge, both nationally and internationally. Also 
known as the ``wildlife corridor'', the Refuge was established and 
designed to perform in concert with hundreds of private landowners, 
conservation organizations, and municipalities as well as Mexico to 
create a viable migration corridor for south Texas wildlife. So far, 
over 70 million dollars of Land and Water Conservation Funds (Federal) 
has been expended to acquire lands within the Refuge. Millions have 
also been spent to restore native habitat along the river. A major 
reason for the establishment of the refuge and corridor was to serve as 
habitat and a migration corridor for the endangered ocelot and 
jaguarondi (cats). Within the south Texas Refuges and adjacent private 
lands are a total of 18 endangered or threatened plant and animal 
species. Largely confined to the wildlife corridor in south Texas, this 
area is home to over 500 species of birds, 300 species of butterflies, 
and 1,200 species of plants. It is one of the most biologically diverse 
regions of the U.S.
    A driving force for scientists and the public alike in the 
establishment of the Lower Rio Grande Valley National Wildlife Refuge 
was the historical loss of native habitat. Over 95 percent of the 
native brush in the Valley has been cleared and over 98 percent of the 
river edge forest has been cleared. This leaves a very narrow ribbon of 
wildlife habitat that is critical to thousands of wildlife species. 
Though the footprint of a border fence is somewhat unclear at this 
time, it is clear that significant wildlife habitat will be cleared to 
construct and maintain the fence. Further clearing of wildlife habitat 
further jeopardizes the existence of south Texas wildlife populations 
that are already ``on the brink'' due to historical land clearing. 
Clearing of additional wildlife habitat on the refuge and private lands 
adjacent to the Rio Grande is not analogous to clearing habitat on the 
border with Canada. Thousands of square miles of uninterrupted wildlife 
habitat remain on our northern border.
    The narrow wildlife corridor that currently exists along the river 
serves as a critical stopover for millions of migrating birds traveling 
from North America to South America. Situated between the Gulf of 
Mexico in the east and the deserts of the west, this narrow strip of 
habitat serves migrating birds from two flyways which funnel through 
the Rio Grande Valley. A real life example of this is the spring 
migration of broad-winged hawks. In April of each year, tens of 
thousands of hawks and falcons settle in on the nearby Santa Ana 
National Wildlife Refuge for nightly rests before rising on thermals to 
travel thousands of non-stop miles to northern breeding areas. 
Satellite maps confirm that vast areas north of the wildlife corridor 
in the U.S. and south into Mexico have been cleared for agriculture, 
business and municipalities. There is no visible alternative for 
millions of migrating birds seeking rest and food. Additional habitat 
losses through the construction of a border fence will likely result in 
further losses of a declining migratory bird population.
    The proposed fence will also impact endangered species like the 
ocelot and jaguarondi by serving as a barrier to travel for these 
endangered cats. Current estimates range from 70-100 ocelots remaining 
in the U.S. Barriers to travel will impact the ocelot's ability to 
travel from Mexico into the U.S. and within the U.S. An important 
factor in the health of the ocelot population is its genetic viability. 
Due to low numbers and current restrictions to movement, the ocelot 
population is showing signs of genetic inbreeding. Inbreeding often 
affects the health of individual cats by increasing their 
susceptibility to disease. Border fencing constructed as part of the 
International Boundary and Water Commission Levees would not allow any 
passage for terrestrial wildlife like the ocelot and jaguarondi. 
Northern movement from the wildlife corridor to areas such as Laguna 
Atascosa National Wildlife Refuge and southern movement from Laguna 
Atascosa through the wildlife corridor into Mexico are critical to the 
continued existence of these cats.
    Proposed fences placed adjacent to the Rio Grande on private lands 
and federal lands will impact a wide variety of terrestrial wildlife in 
Starr County. Starr County is located on the west side of the wildlife 
corridor/refuge and is characterized by almost desert conditions. Many 
of these species including white-tailed deer and javelina are dependent 
on the river for water and would be effectively blocked or would have 
to expend additional energy to reach the river or alternative water 
sources.
    The Lower Rio Grande Valley is unique in many ways and a major 
geographic feature is the Rio Grande. From the Falcon Reservoir in the 
west to the Gulf of Mexico the river and adjacent Lower Rio Grande 
Valley National Wildlife Refuge/wildlife corridor is a convoluted river 
course cover 275 river miles. Due to the nature of the river, it is 
possible to enter the U.S. from Mexico from the north. Flood control 
treaties with Mexico require that much of the proposed border fence be 
place on or north of the IBWC levees. This creates an area of ``no 
man's land'' between the fence and the international border. Thus, the 
areas south of the fence will still have to be patrolled as usual by 
Border Patrol since leaving these areas unattended will result in a 
virtual ``take'' by criminals from Mexico. Subsequently, the fence 
provides little or no relief in manpower requirements for security 
purposes.
    Because of the fence placement along IBWC levees which leave vast 
areas of the U.S. behind the fence, the Lower Rio Grande Valley 
National Wildlife Refuge is faced with new concerns related to safety 
and security. Significant questions remain for refuge managers under 
this scenario. It is unlikely that the refuge can continue to operate 
safely south of the fence to carry-out its responsibilities for 
protection, operations and management. The Refuge's fire division will 
not be able to safely respond to wildfires south of the fence on refuge 
and private lands to extinguish hundreds of wildfires each year due to 
limited escape routes. Without additional refuge law enforcement 
capacity, it is likely that these areas will turn into ``no 
management'' zones and significant damage will occur to wildlife and 
wildlife habitat.
    The waiver invoked by Secretary Chertoff on April 1, 2008 waiving 
28 Federal Acts including the National Environmental Policy Act and the 
Endangered Species Act is additional evidence of an agency in crisis. 
Thoughtfulness, logic, and (really) listening to the public it serves 
have given way to the overpowering mandate of building hundreds of 
miles of fence by a legislative deadline. The National Environmental 
Policy Act was intended used to fully evaluate the impacts of a project 
to the environment and provide the best course of action for all 
(including national security). Instead, unneeded and unwarranted 
impacts will be borne by communities and the environment at a heavy 
cost (fiscal). Eleven years of managing thousands of acres of land 
within the Lower Rio Grande Valley National Wildlife Refuge and 
coordinating Border Patrol activities on those lands lead me to believe 
that there are viable alternatives to the border fence as proposed by 
DHS that would eliminate or lessen the impacts to special places like 
the Lower Rio Grande Valley National Wildlife Refuge, wildlife corridor 
and communities in the Valley.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Let me now turn to Ms. Laura 
Peterson, Taxpayers for Common Sense, senior policy advisor. 
Thank you.

 STATEMENT OF LAURA PETERSON, SENIOR POLICY ADVISOR, TAXPAYERS 
                        FOR COMMON SENSE

    Ms. Peterson. Good morning, Chairman Grijalva, Chairwoman 
Bordallo, distinguished Members of Congress, and thank you for 
inviting me to testify today about the border wall. As you 
said, I'm a senior policy analyst at Taxpayers for Common 
Sense, a nonprofit, nonpartisan budget watchdog that serves as 
an independent voice for American taxpayers. Our mission is to 
expose and end wasteful and harmful spending and subsidies in 
order to achieve a more responsible and efficient government 
that operates within its means.
    TCS supports the Federal government working with local 
landowners and border communities to achieve sound, cost-
effective border control solutions that protect our nation. 
Unfortunately, previous evidence shows that building a wall 
across hundreds of miles of diverse borderland is not a good 
investment for taxpayers.
    The border wall as currently envisioned will cost billions 
of dollars in construction and maintenance alone while failing 
to adequately block the illegal entry of people and contraband 
into the United States and exposing taxpayers to future 
liabilities in the bargain.
    We simply cannot afford to waste money on feel-good, 
ineffective measures, in Homeland Security or anywhere else. 
Our nation is in the midst of a financial crises, facing 
economic recession, a $400 billion budget deficit, and $9 
trillion in national debt, to name just a few of the 
challenges. Yet the procedural shortcuts the border wall is 
taking in the name of expediency virtually guarantees poor 
spending decisions. High national security priorities do not 
make less truth of the adage that ``haste makes waste.''
    U.S. border control initiatives do not have a history of 
cost effectiveness. For example, while the cost of arrests by 
Border Patrol officers reportedly jumped from $300 in 1992 to 
$1,700 in 2002, Department of Homeland Security statistics show 
that the number of apprehensions during that time across the 
border remained largely flat. Spending on border infrastructure 
has jumped up dramatically in the past six years, from $6 
million in 2002 to $647 million in 2007. Yet apprehensions 
continue to hover around 100,000 per year.
    Border Patrol officers have told Congress that while 
fencing is most effective in urban areas, fencing in open areas 
obstructs vision and consumes valuable manpower for maintenance 
and repair. They also say these urban fences are only effective 
when part of the mix that includes manpower, technology and 
other resources.
    The first fence built south of San Diego did little to stop 
the flow of illegal border crossings until Operation Gatekeeper 
increased the number of Border Patrol officers and other 
resources, according to the Congressional Research Service. 
Even so, that decrease is accompanied by the corresponding 
increase in apprehensions in Arizona as migrants moved east.
    The cost of building the fence rose from $12 million at its 
inception to more than $127 million, or $10 million per mile, 
at its projected completion. These costs cover construction 
only, not acquisitions or maintenance. Maintenance is a 
significant and frequently underestimated cost because these 
fences are under constant attack. A four-man maintenance crew 
is reportedly required to work full-time repairing the 15 to 20 
holes ripped through the El Paso fence each day.
    Attempts to create a high-tech virtual fence have also 
consumed billions of taxpayer dollars in failed investment. The 
U.S. Government spent nearly 3 billion on two failed virtual 
fences between 1997 and 2006 before awarding a six-year 
contract to Boeing to develop a national program called SBInet. 
SBInet immediately became the focus of Congressional scrutiny 
because of its reliance on contracting practices that have led 
to severe cost and schedule overruns in previous contracts.
    SBInet lived up to expectations. Shortly after the contract 
was awarded, the DHS inspector general raised its project cost 
estimate from 2 billion to nearly 30 billion. After several 
missed deadlines DHS in February accepted completion of the 
program's initial deployment along 28 miles of Arizona border, 
paying over $20 million for this work, only to announce earlier 
this month that it would scrap the effort and start over.
    If these are the kinds of problems that arise in projects 
planned and implemented over several years, think of the waste 
that could result from rushing a project as costly and 
complicated as the border wall. Yet that's exactly what waiving 
these numerous laws under the REAL ID Act will do. Many of the 
laws, especially the National Environmental Policy Act, require 
an environmental review process which can protect taxpayers 
from potentially serious and costly future liabilities. The 
procedure is inherent and vital to the review process, 
providing an important set of checks and balances on Federal 
agencies and private actions without which the risk of waste, 
fraud and abuse increases.
    Waiving hazardous and waste laws such as the Resource 
Conservation and Recovery Act does nothing to prevent 
environmental contamination that may result from wall 
construction, but simply guarantees that the cost of cleanup 
will be left to taxpayers.
    Similarly, waiving wildlife protection laws does not 
minimize potential harm to protected species, it just transfers 
the cost to other private and public landowners. Landowners and 
other residents along the border are violently opposed to the 
current set of strategy. In the 2008 appropriations bill passed 
earlier this year, Congress told DHS to submit an analysis for 
each 15-mile segment of the border that compares approaches 
based on factors such as cost and possible unintended effects 
on communities. Though DHS has reportedly submitted the 
analysis, the document has not been made public, nor has any 
other document of what type of fence DHS plans to install at 
specific locations. Support and intelligence from others is 
valuable input and support crucial to any effective border 
strategy.
    We agree with lawmakers and the American public that 
securing our border is a top national security priority. 
However, the current border wall plan is more likely to siphon 
precious resources away from that goal and pump money into an 
expedient but ineffective, expensive and potentially damaging 
project. This decision will affect every taxpayer from the 
border of Minnesota to the border of Texas for years in the 
future. Thank you again for allowing me to testify today.
    [The prepared statement of Ms. Peterson follows:]

          Statement of Laura Peterson, Senior Policy Analyst, 
                       Taxpayers for Common Sense

    Good morning, and thank you for inviting me to testify today on the 
proposed southern border wall. I am a senior policy analyst at 
Taxpayers for Common Sense, a non-partisan budget watchdog that serves 
as an independent voice for American taxpayers. Our mission is to 
expose and end wasteful and harmful spending and subsidies in order to 
achieve a more responsible and efficient government that operates 
within its means.
    TCS supports the federal government working with local landowners 
and border communities to achieve sound, cost-effective border control 
solutions that protect our nation. Unfortunately, evidence indicates 
that building a wall across hundreds of miles of diverse borderland is 
not a good investment for taxpayers. The border wall as currently 
envisioned by the Department of Homeland Security will cost billions of 
dollars in construction and maintenance alone while failing to 
adequately block the illegal entry of people and contraband into the 
United States and exposing taxpayers to future liabilities in the 
bargain.
    We simply cannot afford to waste money on feel-good, ineffective 
measures--in homeland security or anywhere else. Our overall budgetary 
challenges are immense. Our nation is in the midst of fiscal crisis: 
the economy is in a tailspin, we have a budget deficit of more than 
$400 billion and our national debt tops $9 trillion. We spend hundreds 
of billions each year just on interest payments to service that debt. 
And that doesn't even consider the looming financial challenges of 
Social Security and Medicare. We cannot afford to waste a dime, much 
less billions of dollars. Yet the procedural shortcuts the border wall 
strategy is taking in the name of speedy deployment virtually 
guarantees poor spending decisions.
    Border security is unquestionably a high national priority, but 
that doesn't make Mother's adage that ``haste makes waste'' any less 
true.

Big Bucks, Little Bang
    U.S. border control initiatives have historically been exercises in 
high expense and low effectiveness. The federal government has 
appropriated $3.7 billion for border patrol construction since 1996 and 
more than $1 billion on fence construction alone, according to the 
Congressional Research Service. <SUP>1</SUP> The cost of making an 
illegal-entry arrest jumped from $300 in 1992 to $1,700 in 2002, 
according to one economist. <SUP>2</SUP> While the number of illegal 
immigrants entering the United States is notoriously difficult to 
quantify, border patrol statistics show that the number of 
apprehensions remained relatively flat during the same period. 
<SUP>3</SUP> Investment in border infrastructure has increased by a 
factor of 100 in the past six years from $6 million in 2002 to $647 
million in 2007: Apprehensions, however, hovered around 100,000 per 
year. <SUP>4</SUP>
---------------------------------------------------------------------------
    \1\ ``Border Security: Barriers Along the U.S. International 
Border,'' Congressional Research Service, January 8, 2008
    \2\ Douglas Massey, ``Backfire at the Border: Why Enforcement 
Without Legalization Cannot Stop Migration,'' CATO Institute Center for 
Trade Policy Studies, June 13, 2005
    \3\ Department of Homeland Security 2006 Yearbook of Immigration 
Statistics
    \4\ ``Border Security: Barriers Along the U.S. International 
Border,'' Congressional Research Service, January 8, 2008; Department 
of Homeland Security 2006 Yearbook of Immigration Statistics
---------------------------------------------------------------------------
    The fence constructed along 14 miles of the San Diego border over 
the past twenty years is often portrayed as proof of wall 
effectiveness, but evidence for that claim is inconclusive at best. The 
initial fence, constructed of 10-foot steel landing mats welded 
together, did little to stanch the illegal flow of people across the 
border: It was only the increase of border patrol manpower and 
resources under Operation Gatekeeper in 1994 that made an impact, as 
the Congressional Research Service notes. <SUP>5</SUP> And though 
apprehensions in San Diego continued to decline over the next decade, 
the decline was mirrored by a dramatic increase in illegal crossings in 
Arizona as migrants moved further east. <SUP>6</SUP>
---------------------------------------------------------------------------
    \5\ ``Border Security: Barriers Along the U.S. International 
Border,'' Congressional Research Service, January 8, 2008
    \6\ ``Border Security: Barriers Along the U.S. International 
Border,'' Congressional Research Service, January 8, 2008
---------------------------------------------------------------------------
    Moreover, the San Diego project exposes the potentially budget-
busting pitfalls of fencing solutions. To increase its effectiveness, 
the 1996 Illegal Immigration Reform and Immigrant Responsibility Act 
(IIRIRA) authorized another two layers of fence construction in San 
Diego at a total cost of $12 million. However, DHS now says the fence 
will cost $127 million by the time it is completed--more than 10 times 
the initial estimate. <SUP>7</SUP> In the final analysis, the San Diego 
fence will cost more than $10 million per mile when maintenance costs 
are included. Yet the fence was breached almost immediately: CBP 
officers have found numerous tunnels--some fortified with concrete 
flooring and electricity--running underneath the fence to San Diego 
county that have consumed significant financial and labor resources to 
seal. <SUP>8</SUP> Maintenance costs have also far exceeded estimates 
for the San Diego fence as well as installations in Nogales, Arizona 
and El Paso, Texas. In El Paso, a four-main maintenance crew is 
required to weld and fill the 15-20 holes ripped through the fence each 
day. <SUP>9</SUP>
---------------------------------------------------------------------------
    \7\ DHS FY2006 and 2007 budget justifications, as cited by CRS
    \8\ http://www.globalsecurity.org/security/systems/mexico-wall.htm
    \9\ Alicia A. Caldwell, ``Fixing Holes in the Border Fence is a 
Never Ending Task for U.S. Agents,'' Associated Press, August 8, 2007
---------------------------------------------------------------------------
    The 2006 Secure Fence Act directed DHS to construct 850 miles of 
fencing along the 2,000 miles of the southwestern U.S. border, which 
Congress reduced to 700 by language in the 2008 consolidated 
appropriations bill. The 2008 bill also gave the Secretary of Homeland 
Security wide latitude in determining the type of fencing to install 
along various portions of the border, stating that he does not have to 
use any particular deterrent if he decides it isn't optimal for gaining 
``operational control.'' <SUP>10</SUP> Further, Congress withheld 
border security funding until DHS submitted an expenditure plan and an 
analysis of each 15-mile border segment that compares approaches based 
on factors such as cost and ``possible unintended effects on 
communities.'' <SUP>11</SUP> Though DHS has reportedly submitted the 
analysis, the document has not been made public.
---------------------------------------------------------------------------
    \10\ PL 110-161, sec. 564, Div E, Title II
    \11\ PL 110-161, sec. 564, Div E, Title V
---------------------------------------------------------------------------
    In fact, DHS has not presented taxpayers with any cost estimates to 
date. Some baseline costs can be estimated using the price of fencing 
materials. Three types of fencing are currently under consideration: 
landing mat fencing, which utilizes steel airplane landing mats welded 
together; bollard fencing, consisting of concrete-filled metal tubes; 
and Sandia fencing, a 10-foot steel mesh fence topped with an angled 
panel. Landing mat fencing costs around $400,000 per mile to install 
and $15,000 per mile to maintain; Sandia fencing, $800,000 per mile to 
install and $7,000 to maintain; and bollard fencing, $2 to $4 million 
per mile to install and $1,000 to $15,000 to maintain (depending on 
style). Sandia fencing has so far only been used to backstop primary 
fencing on 10 miles of the San Diego border, so would likely be an 
additional rather than primary fencing cost.
    Other costs include funding for the Army Corps of Engineers, which 
provides engineering expertise, construction management and machinery 
under a memorandum of understanding with DHS Customs and Border 
Protection (CBP). The Corps of Engineers received roughly $40 million 
from the Department of Defense for this purpose over the past decade. 
<SUP>12</SUP> Though some fence installation labor has been provided by 
state National Guard troops at no expense to CBP, labor has also been 
provided by the military, the U.S. Border Patrol, and private 
contractors, as was the case with the San Diego border fence.
---------------------------------------------------------------------------
    \12\ ``Border Security: Barriers Along the U.S. International 
Border,'' Congressional Research Service, January 8, 2008
---------------------------------------------------------------------------
    Using the cost of the San Diego fence as a baseline, simple 
multiplication produces the oft-cited price of $7 billion for the 700 
miles required under the Secure Fence Act. The Corps of Engineers has 
estimated that maintaining the fence over 25 years would range from 
$16.4 million to $70 million per mile, though that figure would be 
increased by breaches such as tunneling. The Corps estimate also does 
not include the costs of acquiring land or labor, which could be 
substantial if private contractors are retained. The Congressional 
Budget Office has estimated border fencing at $3 million per mile for 
construction and an additional 15 percent, or $450,000, for maintenance 
per year. <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ ``Border Security: Barriers Along the U.S. International 
Border,'' Congressional Research Service, January 8, 2008
---------------------------------------------------------------------------
    These figures only address the costs of physical fencing, however, 
not the fiscal sinkhole that is the ``virtual fence.'' Previous DHS 
attempts to establish high-tech virtual fences have been fraught with 
problems. In 1997, the Immigration and Naturalization Service deployed 
more than 10,000 sensors and 200 camera towers along the northern and 
southern borders under a program called the Integrated Surveillance 
Intelligence System (ISIS). Unfortunately, the databases installed to 
analyze information from the cameras and sensors were never integrated, 
meaning they couldn't share information. Further, the cameras broke 
down in bad weather and were difficult and expensive to maintain. 
<SUP>14</SUP> These problems were not helped by the fact that the 
General Services Administration, tasked with managing the camera 
component, conducted ``inadequate contractor oversight, insufficient 
competition, and incorrect contracting actions.'' <SUP>15</SUP> ISIS 
moved to DHS after its creation in 2002 and was incorporated two years 
later into America's Shield Program (ASI) after an investment of more 
than $340 million. <SUP>16</SUP> ASI also suffered from poor management 
and integration with DHS, costing taxpayers $2.5 billion before it was 
absorbed by the Secure Border Initiative in 2006.
---------------------------------------------------------------------------
    \14\ ``Border Security: Key Unresolved Issues Justify Reevaluation 
of Border Surveillance Technology Program,'' GAO report 06-295, 
February 22, 2006 pg 29
    \15\ ``Border Security: Key Unresolved Issues Justify Reevaluation 
of Border Surveillance Technology Program,'' GAO report 06-295, 
February 22, 2006
    \16\ ``Border Security: Key Unresolved Issues Justify Reevaluation 
of Border Surveillance Technology Program,'' GAO report 06-295, 
February 22, 2006 pg 18
---------------------------------------------------------------------------
    That year, the Secure Border Initiative launched the operational 
successor to ISIS and ASI, another networked system of cameras, sensors 
and unmanned vehicles called SBInet. SBInet became the subject of 
Congressional scrutiny from the moment the six-year contract was 
awarded to Boeing in September 2006 because of its reliance on 
contracting practices that have led to severe cost and schedule 
overruns in other DHS and DoD contracts. Representative Henry Waxman 
(D-CA) held a hearing on SBInet in February of this year at which he 
revealed that two-thirds of the individuals that designed the SBInet 
acquisition plan were contractors, and that the parties evaluating the 
bids were outsourced as well. DHS blamed chronic shortfalls in 
procurement personnel as justification for contracting out acquisition 
and oversight capacities.
    SBInet lived up to expectations: Shortly after the contract was 
awarded, the DHS inspector general raised its estimate for the 
project's cost from $2 billion to as high as $30 billion. Boeing missed 
its June 2007 deadline to deliver the contract's first task order to 
secure 28 miles of the Arizona border, saying coordination of the 
numerous technologies was proving more difficult than anticipated. 
Though DHS accepted the ``Project 28'' task order in February, paying 
Boeing its $20 million fee, it announced just last week that it will 
scrap the SBInet installation there and start over.

Cut Corners Now, Increase Costs Later
    The REAL-ID Act in 2005 authorized the DHS Secretary to waive any 
federal law in order to expedite border fence construction. Since then, 
DHS has waived more than 30 laws to proceed with construction in San 
Diego, Arizona and southern Texas. Laws waived include the National 
Environmental Policy Act (NEPA), the Comprehensive Environmental 
Response, Compensation and Liability Act and the Resource Conservation 
and Recovery Act, along with several laws protecting historic 
monuments, antiquities and Native American lands.
    Many of these laws--specifically NEPA--require an environmental 
review process which, in both intent and practice, can protect 
taxpayers from potentially serious and costly future liabilities. By 
identifying environmental impacts and assessing reasonable 
alternatives, NEPA's process brings potential project costs to light 
and explores potential solutions. Waiving hazardous waste management 
and cleanup laws like RCRA and CERCLA does nothing to prevent possible 
environmental contamination that may take place (or be discovered) in 
the course of construction. Rather, waiving hazardous waste laws simply 
guarantees that the costs of any clean-up would be left to the 
taxpayers, letting the responsible private parties off the hook.
    Similarly, waiving wildlife management laws does not minimize 
potential harms to habitat or protected species. There may be a short-
term savings in the form of deferred mitigation costs, but those 
burdens would simply be transferred to other public and private land 
owners. And in the absence of a NEPA environmental assessment, those 
costs will be hidden. Waivers also devalue the millions of dollars the 
federal government has invested in wildlife refuges. Finally, with 
their inherent review procedures, environmental laws provide an 
important set of checks and balances to federal agency and private 
action. Doing away with those review processes in their entirety 
increases the chances of waste, fraud and abuse.

Smart Solutions
    CBP officers have told Congress that fences are only effective as 
part of a ``mix'' that includes manpower, technology and other 
resources. <SUP>17</SUP> In fact, patrolmen have testified that while 
fencing is most effective in urban areas, it is actually 
counterproductive in open borderlands because it obstructs vision and 
requires significant maintenance and repair. <SUP>18</SUP> They also 
noted that a cogent immigration policy should be part of this mix: A 
border patrol chief told the House Homeland Security Committee in 2006 
that he was ``frustrated by the fact that we look to border security 
(for solutions) when there is, in fact, a deeper issue at hand.'' 
<SUP>19</SUP>
---------------------------------------------------------------------------
    \17\ ``Fencing the Border'' hearing before the House Homeland 
Security Committee, July 20 2006
    \18\ ``Fencing the Border'' hearing before the House Homeland 
Security Committee, July 20 2006
    \19\ ``Fencing the Border'' hearing before the House Homeland 
Security Committee, July 20 2006
---------------------------------------------------------------------------
    Support and intelligence from local residents is another valuable 
resource, one that the current wall proposal does not adequately 
develop. Here in Texas, owners of land gained through Spanish land 
grants and handed down over generations reportedly face the possibility 
of walls in their backyard, while golf courses and luxury housing 
developments just miles away remain untouched. <SUP>20</SUP> It's hard 
to know just what the DHS approach to fencing options is since the 
agency has not made its analysis for each segment of the border public, 
which would allow residents to see plans for their neighborhoods and 
contribute potentially valuable input.
---------------------------------------------------------------------------
    \20\ http://www.texasobserver.org/article.php?aid=2688&print=true
---------------------------------------------------------------------------
    American voters and lawmakers clearly agree that preventing 
potentially harmful people and contraband from entering America's 
borders is a top national security priority. However, the current 
border fence plan is more likely to siphon precious resources away from 
that goal and pump money into an expedient but ineffective, expensive 
and potentially damaging project. The stakes are too high to line our 
border with expensive sugar pills.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. And let me now ask Mr. 
Zack Taylor, supervisory Border Patrol agent, retired, for his 
testimony, sir.

   STATEMENT OF ZACK TAYLOR, SUPERVISORY BORDER PATROL AGENT 
                           (RETIRED)

    Mr. Taylor. Thank you, Chairmen Grijalva, Bordallo, Ranking 
Member Tancredo, Members of Congress. My name is George Zachary 
Taylor and I graduated from the University of Florida with a 
degree in wildlife ecology. I consider myself to be a natural 
resources conservationist. I'm a charter member of the National 
Association of Former Border Patrol Officers. My association 
speaks for laws, rules and regulations that will benefit 
America, and we speak against any law, rule or legislation that 
is contrary to the interest of all Americans. In this case, 
specifically House of Representatives 2593.
    I was a Border Patrol agent for 26 years in the United 
States Border Patrol from 1976 to 2003, the first 12 years as a 
field agent along the Rio Grande River at Brownsville and 
McAllen, Texas. I worked at the Santa Ana refuges, the Bentsen 
State Park in South Texas. My principal duties were the 
detection and apprehension of drug and alien smugglers and 
training new agents to do that. I spent 14 years as a field 
supervisor and Border Patrol agent at the Nogales Border Patrol 
station. The Tucson sector Nogales Border Patrol station was 
and still is the most active drug and alien smuggling corridor 
into the United States.
    My principal duties were the detection and apprehension of 
drug and alien smugglers. Almost all of my patrol time there 
was on public land along the U.S. and Mexican border.
    From my present home in Rio Rico, Arizona, I look south 
into Sonora, Mexico; southwest into the Pajarita Wilderness and 
the proposed Pajarita Wilderness Extension; west and northwest 
to the proposed Tumacacori Highlands Wilderness; and north into 
the Santa Rita Mountains Wilderness. I am bound on all sides by 
public land or Mexico. I worked all of these places in the 
United States for 14 years until I retired in 2003.
    The National Association of Former Border Patrol Officers 
strongly urge all Americans to come together as a country, a 
nation and as one people to fully understand and effectively 
deal with the serious threat to our public safety and national 
security from our southern border. We must protect America 
first.
    In Arizona we have seen wilderness areas and proposed 
wilderness areas turned into killing grounds as well as major 
drug and alien smuggling routes. Public land adjacent to these 
wilderness are trashed by illegal aliens to the extent they 
resemble landfills. The evidence of multiple robberies and 
rapes are commonplace. Local law enforcement is virtually 
powerless against the gangs that freely roam these public 
lands.
    Aliens infected with highly contagious diseases enter the 
United States across our southern border daily and are not 
screened for those diseases even if they are apprehended. 
Organized gangs such as MS-13 are now common in the United 
States. The violence of such gangs and their drug--their drug 
trade bring with them is causing gang-related violence and 
suffering in every corner of America. It threatens the very 
fabric of our society. At present drug-related violence is 
destroying Mexico as we speak.
    It is along our southern border that terrorists have 
entered the United States and have been apprehended. We do not 
know who, how many, or where they are from because we only 
apprehend a relatively small fraction of all persons that cross 
our borders illegally. A large percentage of the wildfires 
along the Arizona-Mexican border are human caused. Some are 
intentionally set as diversions for other illegal activities. 
Firefighters have been shot at while responding to fighting 
fires along these trafficking corridors.
    Arizona has experienced the positive effects of fencing 
parts of the Arizona border. Law enforcement officers have been 
shot and killed by smugglers and narcotraffickers in national 
monuments and proposed wilderness areas. Agents that I had 
trained and supervised have been shot at, shot and killed in 
the Nogales area.
    No, one type of fence does not fit all terrains and 
situations. However, we have seen dramatic reductions in crime 
and violence on the United States side where the appropriate 
fence has been erected, maintained and patrolled. I'm here to 
warn the wonderful people of Texas that there are some among us 
that want to make it easier for the terrorists, 
narcotraffickers, gang members, and the disease-ridden to come 
into the United States illegally. Please see this wolf in 
sheep's clothing for what it is, a horrendous threat to our 
public safety and national security. Thank you.
    [The prepared statement of Mr. Taylor follows:]

                  Statement of George Zachary Taylor, 
         National Association of Former Border Patrol Officers

    Public and private lands along the United States-Mexico Border, 
between the ports of entry, have been a point of entry and exit for 
criminals since the Official Border was laid out over one hundred years 
ago. If everyone in the world did not engage in criminal activity and 
respected our laws, a secure border would not be absolutely necessary. 
Such is not the case and we live in an increasingly dangerous world.
    We are a nation of free people. We are daily engaged in our own 
pursuit of happiness and therefore we do not keep up with the constant 
changes that are taking place along our land borders or the legislation 
that affects them. The urgent need to secure our borders as soon as 
possible has never been so clear. Proof that many among us do not 
respect and understand this present need is as close as your local 
newspaper or news outlet.
    I must point out that all of the information in this report is 
available to anyone that reads the newspapers, listens to the current 
news and pays attention to current events. The failure of the media to 
accurately report these facts appears to be an intentional failure to 
report the truth.
    Congress authorized the Department of Homeland Security to build a 
border fence along America's southern border. Intermittent sections of 
this fence have been erected in various places on the border. Where 
this fencing is designed to conform to the terrain and natural land 
features for the purpose of stopping or severely deterring people and 
vehicles to enter the United States illegally, it has been very 
successful. If the fence is carelessly constructed or a purpose other 
than maximum effectiveness is followed, the fencing will be less 
effective. We do not represent that any fence will completely stop all 
illegal traffic. No fence will make the United States totally secure. 
However, without a maximum efficiency fence erected and maintained 
where practical we are at greater risk.
    Congress is considering several Legislative Bills affecting the 
U.S. Mexico border that will certainly make America less safe. These 
two Bills are H.R. 3287, The Tumacacori Highlands Wilderness Act, and 
H.R. 2593, The Border Conservation and Security Act of 2007. A third 
action is the current movement to nullify the previously authorized 
waivers for Homeland Security to build the border fence. Congressmen 
that claim to protect America and then turn around and knowingly 
support official action and legislation that will make America less 
safe should not be in office. We must have elected officials that place 
American security first.
    The National Association of Former Border Patrol Officers is 
calling upon all Americans in every state, territory and outlying 
possession to come together and demand that Congress secure our land 
borders and make our country a safer place for us to live and raise our 
families. In the following pages we will lay out the facts as they 
presently are and ask you to consider the facts in making your future 
decisions concerning the fence and legislation that would make America 
less safe.
    The primary duty of today's Border Patrol is to detect and 
apprehend terrorists. The ideal is to stop them at the border, before 
they come into the United States. We know that terrorists enter the 
United States across the Mexican border. Located at Sierra Vista, 
Arizona, is a Top Secret U.S. Army Intelligence School called Fort 
Huachuca. On February 12, 2008, two persons living in Sierra Vista, 
were stopped at Patagonia, Arizona, by the local Constable. Both were 
determined to be of middle eastern descent and both were on the 
National Terrorist Watch List. They were driving to Nogales, Arizona, 
to bond out their associate that had crossed illegally into the United 
States the night before and was apprehended by the Border Patrol. 
(http://nogalesinternational.com/articles/2008/02/26/news/news8.prt)
    I personally interviewed three Syrian Citizens that had entered the 
United States illegally and one subsequently claimed to me that he was 
a terrorist who was coming to the United States to engage in terrorism. 
These persons entered the United States illegally from Mexico near 
Nogales, Arizona, and were apprehended by Nogales Border Patrol Agents.
    In 2006 approximately 10% of the illegal aliens apprehended by the 
U.S. Border Patrol had criminal records. In 2007 the U.S. Border Patrol 
apprehended 876,700 illegal aliens, 144,000, or 16.4% had criminal 
records. Of the 144,000 that had criminal histories, 11,706 were for 
Dangerous Drugs. Ninety-nine percent of the meth produced in Mexico 
crosses the Mexican border into the United States. Ninety percent of 
the cocaine consumed in the United States crosses the Mexican border. 
Mexico is the largest supplier of marijuana to the United States and 
the bulk of this marijuana crosses the Mexican border into the United 
States. No one knows for certain how many illegal aliens or terrorists 
successfully enter the United States that are not detected or 
apprehended. We must conclude that we do not come any where near 
catching them all under the conditions that presently exist at the 
border. During my tenure as a Field Supervisory Border Patrol Agent at 
Nogales, Arizona, 1988-2003, I studied this aspect of the Immigration 
problem. My evaluation of the situation indicated that we were indeed 
fortunate to apprehend as much as 10% of the total traffic on any given 
day. On some days we would apprehend over 3,000 at Nogales. I continue 
to live in the Nogales area and I am certain that a very significant 
percentage is still making it into the interior of the United States, 
undetected. Arizona in particular needs all of the tools available to 
stem this flow. An effective Border Fence is one of those tools.
    Organized illegal alien Gangs trafficking in illegal drugs are a 
significant percentage of the violent crime associated with the selling 
of dangerous drugs in the United States. The exact extent of the 
problem is unknown. In March 2008, Mexico estimates that the MS-13 Gang 
in Central America number 100,000 members, 63% of whom are Mexican 
citizens. The United States estimates for the MS-13 Gang, mostly in Los 
Angeles County, California, at 30,000 members, 56% of them are Mexican 
Citizens. These MS-13 gang members, and members of several other gangs, 
likely cross the Mexican border illegally without interruption to their 
enterprise. These combined numbers are roughly the number of U.S. 
troops currently deployed to Iraq. This is according to an Associated 
Press Article in the Arizona Daily Star April 3, 2008. I have recently 
received yet unconfirmed information that MS13 is setting up shop on 
Mount Vernon Avenue in Pentagon City and that they have taken over the 
gang turf in Santa Barbara, California. We will have to wait and see 
what develops because no one seems to be working to effectively prevent 
the expansion and replication of their influence in the United States.
    The Arizona Daily Star reports that for the first three months of 
2008, homicides are up approximately 100% in the City of Tucson, which 
does not include greater Pima County.
    Organized Gangs, believed to be predominately illegal aliens, 
operate out of the Tucson and Phoenix, Arizona, areas. These gangs 
stage kidnappings of illegal alien smuggling loads from alien 
smugglers. They have engaged in running gun battles on back roads and 
on the Interstate Highways. They also wait for drug mules and alien 
smuggling loads on the mountain trails of the proposed Tumacacori 
Wilderness Area and in the Santa Rita Mountains Wilderness areas. Their 
method of operation is extremely violent. Tiny Santa Cruz County 
Arizona alone has had 30 such shooting incidents in the past two years. 
Numerous illegal aliens have been shot and killed and many illegal 
aliens have been shot and wounded by these heavily armed gangs 
operating up to 60 or more miles inside the United States.
    (http://nogalesinternational.com/articles/2008/01/22/news/
news12.prt)
    (http://www.gvnews.com/articles/2007/04/19/news/news02.prt)
    Congressmen that seek to pass legislation to confer Wilderness 
status on the Tumacacori Highlands and on other public lands on or near 
the Mexican border are not acting in America's best interest. Only the 
terrorist and smuggler will significantly benefit from the passage of 
H.R. 2593 and H.R. 3287. This legislation is an impediment to Law 
Enforcement efforts at the border.
    Illegal aliens shot by bandits and illegal aliens injured in 
vehicle accidents incur significant unrecoverable expense to local 
Arizona hospitals and overload the capacity of the hospitals to treat 
patients. The return from the United States government on this 
Federally mandated care is reported to be fifteen cents on the dollar. 
Therefore, the costs must be passed on to U.S. Citizens in increased 
costs when they visit these hospitals. This practice has caused 
hospitals to close their doors completely.
    (http://azstarnet.com/sn/printDS/230998)
    (http://.kold.com/global/story.asp?s=8131193&ClientType=Printable)
    (http://azstarnet.com/sn/printDS/233584)
    There is also the increasing incidence of contagious diseases 
brought into the United States by illegal aliens that sneak across the 
Mexican border daily. To name a few, hepatitis, measles, cholera, 
tuberculosis, drug resistant tuberculosis, and various STD's. What is 
disturbing is that a significant number of infected illegal aliens work 
in food processing centers in the U.S. (http://www.judicialwatch.org/
blog/another-illegal-immigrant-spreads-tuberculosis)
    Numerous reported Rape Trees have been identified in and near the 
current Pajarita Wilderness and the proposed Pajarita Wilderness 
Extension near the U.S. Mexico border. Rape Trees mark the location 
where drug and alien smugglers habitually sexually assault and rape 
illegal alien females that are being brought into the United States 
across the Mexican border. These locations are marked by the 
perpetrators who prominently display and hang the brassiers and 
underwear of their victims on a particular tree. I visited one such 
reported tree on March 27, 2008, and noticed 30 sets of women's panties 
and 11 brassiers near the location of the suspect tree. A local rancher 
near Arivaca, Arizona, reports 14 rape trees on his ranch and he 
estimates that 7 are currently active. These Rape Tree trails begin at 
the Mexican border and many travel through the Pajarita Wilderness and 
the proposed Pajarita Wilderness Expansion (H.R. 2593) before entering 
the proposed Tumacacori Wilderness area, outlined in H.R. 3287.
    Law Enforcement Officers are killed by illegal aliens who are 
engaging in criminal activities after they have crossed the Mexican 
border illegally. Border Patrol Agent Alexander Kirpnick was shot and 
killed by a drug smuggler in Potrero Canyon west of the Meadow Hills 
Golf Course in June 1998. Two Border Patrol Agents were shot and 
wounded by smugglers east of Nogales, Arizona, in June 2005. Last year 
Phoenix Police Officer Nick Erfle was shot and killed by an illegal 
alien gang member. In August 2002 at Organ Pipe Cactus National 
Monument in Arizona, Park Ranger Kris Eggle was shot and killed by 
narco traffickers. (http://www.nps.gov/orpi/historyculture/kris.htm) 
This was after environmental groups insisted that Border Patrol Agents 
stay out of the area because of damage they were doing to the 
environment. The illegal alien traffic habitat damage that followed the 
Border Patrol's departure was far more severe than that caused by Law 
Enforcement Patrols.
    I worked the Rio Grande River area near McAllen, Texas, from 1979-
1988. I saw first hand in the Santa Ana Refuges and in Bentsen State 
Park the way illegal aliens and smugglers defile Parks and Refuges. I 
heard testimony by Mark South on November 17, 2007, at a Congressional 
Hearing in Washington, D.C., concerning H.R. 2593 and H.R. 3287, where 
he described having worked for the Forest Service to establish hiking 
trails in the Santa Rita Mountains and those Wilderness designated 
areas, only to return as a Wildland firefighter later to view the 
trashing and destruction wrought by illegal aliens and smugglers on 
those trails, and to fight the fires they had caused. Such has been my 
experience. When a Wilderness or Refuge area is established near the 
border, the criminal element moves in and trashes it because the 
restrictive Wilderness or Refuge status accorded to these lands 
effectively prevents all law enforcement from effectively working the 
area. In other words, the Refuge or Wilderness designation actually 
serves to put the environment at greater risk of being seriously 
damaged and defaced. Law Enforcement must have common, unrestricted, 
free access to all lands near the U.S. Border. By near I mean at least 
50 miles because that is ordinary walking distance for illegal aliens 
and drug smugglers traveling on foot. I have seen and heard evidence or 
aliens who walked from the Mexican border north bound to pick up 
locations that are north of Interstate 8 and Interstate 10 in Southern 
Arizona.
    Organized Mexican Drug Traffickers from Mexico are sent throughout 
the world to engage in the illegal drug trade. Major cartels operating 
in Mexico are presently challenging the government of Mexico and the 
Mexican Army for control of Mexico. There have been over 4,000 drug 
related assassinations reported in Mexico for 2006-2007. This number is 
under reported, by how much we do not know. Estimates run at least 25% 
of these crimes are never reported. Why? The mortality rate for Mexican 
Journalists is extremely high. Therefore they are loathe to report 
anything they are ``advised'' not to report.
    In fact the Gulf Drug Cartel recently recruited their Narco 
Terrorists, called Zetas, by placing a banner near a Mexican Army post 
in Tamaulipas, Mexico. The accompanying Newspaper Article said they 
were particularly interested in Merida trained soldiers and policemen. 
The Merida Initiative is a 1.4 billion dollar program financed by the 
United States Government to train Mexican Soldiers and Police by U.S. 
Special Forces and other U.S. Agencies in our latest border security 
and protection techniques. The Drug Cartels then seek to hire these 
U.S. trained personnel to ply the drug trade would wide. These Zetas 
then become American Law Enforcements adversaries at the border and in 
the interior of the United States. Take a look at the job benefits 
offered to these trained soldiers and policemen. The Gulf Cartel is 
right up there with General Motors in benefits provided. (http://
www.tamaulipasenlinea.com/)
    It is no wonder that in April 2008, the United Nations found that 
Mexico ranked number one in the category of ``violent crime'' in the 
use of firearms and excessive violence. Mexico was so designated this 
over less developed countries such as Brazil, Colombia and Venezuela. 
(El Imparcial, Hermosillo, Sonora, Mexico, 04/23/08.) This finding by 
the United Nations may explain the belated response by the United 
States Department of State which issued a Travelers Warning Mexico, on 
April 14, 2008. Belated because this current level of violence has been 
ongoing for several years, apparently unnoticed by the Department of 
State until the United Nations called their attention to the problem.
    http://travel.state.gov/travel/cis_pa_tw/pa/pa_3028.html
    In southern Arizona we are experiencing increased incidences of 
wildfire from two primary sources. The first source is illegal aliens 
that cross into the United States illegally and start fires through 
carelessness. The second source is from illegal aliens engaged in other 
criminal enterprises that start wildfires to create a diversion so they 
can smuggle things into or out of the United States. Wildland 
Firefighters have encountered gun fire on several occasions when going 
out on a wildfire along the Mexican border. The fire approach rule now 
includes a mandatory armed escort before going out on a wildfire along 
the Mexican border and in the proposed Tumacacori Highlands Wilderness 
area. As a matter of fact, on 04/20/08 as I sit here typing this report 
I can see and smell the smoke from a wildfire that is presently burning 
in the Pajarita Wilderness area, southwest of and in sight of my home. 
(http://www.azstarnet.com/sn/mailstory-clickthru/235272.php) This fire 
is human caused and began in a very remote canyon near the Mexican 
border and quite distant from any road. The fire is in the Pajarita 
Wilderness Area. The firefighters on the fire line report extensive 
illegal alien and drug smuggling trails throughout the area. Today, 04/
23/08, I see another Wildfire burning on the highest reaches of the 
Tumacacori Mountains, north of Hells Gate, which is in the proposed 
Tumacacori Highlands Wilderness Area proposed by H.R. 3287. This is 
near the location that the armed bandits operate out of when preying on 
illegal aliens and drug smugglers, especially in the Aliso Springs Area 
near Tubac, Arizona.
    As I travel around the United States I talk to Americans about the 
Mexican Border situation. The subject simply comes up when they find 
out I am retired from the Border Patrol. In particular I talk with 
people that visit the Mexican Border here near Nogales and friends that 
live away from the border keep me up to speed on their thinking on 
border issues. This information really became clarified and focused 
during the debate about the McCain-Kennedy Comprehensive Immigration 
Reform Bill proposed by Congress last year. From nearly every state in 
the Union I have heard about the negative personal experiences that 
American Citizens have had with illegal aliens. If the citizen has not 
personally had a negative experience, then they know someone that has 
and they do not want to become victims themselves. A somewhat humorous 
example that comes to mind was related by a family from Maine that owns 
blueberry ground. They said that they hired illegal aliens to harvest 
the blueberries on their land. After a few days they noticed that in 
the surrounding towns illegal aliens were selling blueberries door to 
door and set up blueberry stands at prominent road intersections. Quite 
by accident they discovered that the illegal aliens that they had hired 
to harvest their blueberries were skimming and hiding blueberries on 
their ground, then coming back at night and retrieving those 
blueberries for their families to sell during the day while they were 
harvesting their blueberries for pay. They fired the illegal aliens and 
hired high school students to finish picking their blueberries.
    Even tiny Rhode Island, thousands of miles from the Mexican Border 
is taking steps to curtain their illegal Immigration problems.
    http://www.projo.com/news/pdf/2008/0327_immigrationorder.pdf
    Most illegal alien stories usually are much more serious. I read 
about a serial rapist in Phoenix, Arizona, that specialized in young 
school girls on their way to morning school bus stops. I am sure we all 
read about the Railroad Rapist that terrorized the Southwest for 
months. Stories of illegal aliens involved in home invasion robberies 
and in fatal vehicle accidents that frequently involve other illegal 
activity including drugs and alcohol are common. No person or family in 
the United States is safe from the potential harm caused by illegal 
aliens.
    http://www.ojjpac.org/memorial.asp
    http://www.gopusa.com/news/2007/february/0222_illegals_report.shtml
    Americans know this, particularly Americans that live away from the 
immediate border area. They are angry and they are focusing their anger 
on the politicians both local and national that have sat by and not 
demanded that our Immigration laws be enforced. They view these 
politicians as to source of the problem, not the illegal alien.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me begin--and hopefully some 
quick responses so that all the members have an opportunity. 
Mr. McClung, you know, I guess some people would argue that 
because your organization opposes the wall, that somehow you're 
one of these open border kind of organizations that doesn't 
care about enforcing those laws and don't care about--that all 
you care about is a secure work force for the people that you 
represent. And that's--some people might categorize that that 
way. And your opposition to the wall is based on.
    Mr. McClung. Well, if we're categorized that way, it's by 
people who don't understand either agriculture or farmers. For 
the most part, farmers are a conservative political bloc. They 
are very patriotic but they also are intent on having things 
done well and done economically when possible. So let me make 
it very clear, no farmer that I know of or have talked to is 
opposed to border security. We all want border security, it's 
just doing it is--in as smart a fashion as possible.
    And then let me--I'm glad you asked about the desire for 
cheap labor because that always comes up in this sort of thing. 
There is no question that if you're an unskilled farm laborer 
from Mexico or anyplace else, you're probably not going to get 
rich in this country harvesting lettuce or whatever it is, but 
you are going to be paid the minimum wage or well better.
    The national average for farm labor that I saw the other 
day is about 9.50 an hour. It's different from place to place, 
but that's the national average. That's not a great deal of 
money. We all know that. But it is a lot more than a lot of 
people are able to make elsewhere in the world.
    Mr. Grijalva. Thank you. Mr. Merritt, we've got this 
either/or proposition, and maybe you can help answer that. The 
either/or proposition is, you know, destroying the habitat is--
impacting negatively a habitat or wildlife corridor, et cetera, 
that's a bad thing. But stopping illegal entrants is just a 
much more important issue. So that must have the priority. And 
how do you see this either/or proposition? Do you have to give 
up one to get the other or----
    Mr. Merritt. You know, this is based on 11 years in the 
Valley working with Border Patrol agents and supervising on a 
daily basis that I believe and I think a lot of my colleagues 
believe that there are alternatives. And I think, you know, the 
major point that we have as Fish and Wildlife Service employees 
or land managers is that some of the fencing placement just 
made no sense to us in terms of its effectiveness.
    Now, I'm not a border security expert, but I've been there 
11 years and worked with these people and talked to the field 
agents, and some of the fence placements were--disallows 
movement of wildlife--and I'm not talking about urban areas, 
urban--wildlife moving past urban areas, rural areas is just 
nonsensical to us and probably not a good expenditure of money 
either, as was alluded to by my colleague here.
    Mr. Grijalva. Thank you. Ms. Peterson, explain a little bit 
more how you've--how the compliance with laws such as NEPA that 
you mentioned can actually result in cost savings, you 
mentioned that, in the long-term.
    Ms. Peterson. Well, NEPA and several of the other laws that 
I mentioned have an environmental impact process and that 
process involves examination of alternatives and--which often 
include cost estimates and can also bring up potential impacts 
that the costs can then be mapped out too. And it also helps 
give sort of an indication of----
    Mr. Grijalva. Thank you. Mr. Taylor--let me extend my time 
just a little bit. Mr. Taylor, from your experience as a Border 
Patrol agent--and I think you kind of mentioned bits of this in 
your testimony--do all people who come across illegally do so 
because they either have a contagious disease or have a 
criminal record, therefore, they can't obtain a visa legally? 
And can anybody with a clean record who pays 100 bucks get a 
visa to enter the U.S. within three years?
    Mr. Taylor. They can apply for a nonimmigrant visa, and 
most of the people that do apply get a hearing with a consulate 
officer, which is actually outside of what Immigration does.
    Mr. Grijalva. And I assume by your answer that it is 
contagious-disease carrying people and criminals that are the 
primary focus that are coming across, right?
    Mr. Taylor. That is what is the current concern, 
Congressman. In Tucson, there have been outbreaks, two 
recently, as you know, in Tucson with measles, one with an 
alien from Switzerland. And there has been another outbreak or 
rather a reported incident of tuberculosis.
    Mr. Grijalva. You mention, sir, your extensive experience. 
You were here in the Rio Grande Valley, part of this sector, 
then you went to the Tucson sector. Can you explain the 
circumstances on how and why you moved?
    Mr. Taylor. Promotion.
    Mr. Grijalva. Straight promotion? OK. Let me now turn to 
the Chairwoman Bordallo for any questions she may have.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman. 
I have a question here for Mr. Merritt. There is wide consensus 
within the scientific community that preserving the functions 
of key wildlife migration corridors across the U.S.-Mexico 
border is critical to the future ecological health of the 
borderlands, especially in light of the need to ensure that 
species can adapt to climate change. Now, in your opinion, has 
the Department of Homeland Security done an adequate job of 
identifying these key wildlife corridors? And, second, can you 
describe how, if at all, DHS has worked with you and other Fish 
and Wildlife Service biologists to redesign project segments 
crossing refuge system lands to protect functioning migratory 
corridors?
    Mr. Merritt. I'll try to answer the first one. This 
particular area wildlife corridor which includes the refuge and 
private lands and nongovernment agency owned lands is of 
particular value because so much of the property--as I said, 95 
percent of the habitat has been lost on the north side, and if 
you look at satellite maps in Mexico, it's probably up to 98 
percent. There is very little habitat left. It's a natural 
funnel for migratory birds to come from North America and South 
America and all sorts--and this area is a major stopover for 
millions of migratory birds.
    An example would be probably hawks that come in during the 
summertime. In Santa Ana it's not uncommon to have 80,000 
broad-winged hawks lighting within the Santa Ana National 
Wildlife Refuge as a rest stop. There are no other habitat 
areas around.
    Ms. Bordallo. And in your professional opinion, are there 
ways to ensure border security without compromising those lands 
set aside for wildlife?
    Mr. Merritt. I believe that there are ways to do this if we 
went through the NEPA process like we ought to do in a 
thoughtful way and looked at the alternatives, that a good 
decision would be made. Unfortunately, the schedule did not 
permit a good decision in my opinion.
    Ms. Bordallo. I just want to say, Mr. Chairman, thank all 
three panels. This is our final panel and some of us are 
leaving here to go back to Washington, but I just want to thank 
all the participants on the panel and also to let you know that 
it is a very, very important issue to members of the U.S. 
Congress. Otherwise, you wouldn't see eight Members of Congress 
here at a field hearing. So, again, thank you very much and to 
the University here also for their hospitality.
    Mr. Grijalva. Thank you, Madam Chair. Let me turn to our 
Ranking Member, Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman.
    Mr. Taylor, has it been your experience that the 
preservation of wildlife habitat is endangered by the actions 
taken by people coming across the border at areas where they, 
of course, have less to worry about in terms of border 
protection, border security? Would that not be--I'll put it 
this way. Would wildlife areas, national wildlife areas, be 
more or less alluring to the person who's coming across the 
border who does not want to get caught? If you're looking at 
that border, where would that path be for you?
    Mr. Taylor. It's been my experience--and, Mr. Tancredo, 
thank you for the question--that they're going to go where 
they're going to be most successful, and where they'll be most 
successful is where the terrain permits them to evade detection 
and where the border patrol presence would be diminished.
    Mr. Tancredo. And would that Border Patrol presence be 
diminished in a wildlife--in a wilderness area, in particular, 
wildlife?
    Mr. Taylor. By definition of the '64 Act, it would greatly 
diminish access.
    Mr. Tancredo. So if we are truly concerned about the 
protection of the wildlife and the wilderness areas, would we 
not--is it not logical for us to then try to do something to 
prevent entrance into that area by people who are going to 
spoil it?
    Mr. Taylor. Yes, both from the destruction--actual 
destruction of habitat and the spoiling of the area visually 
both.
    Mr. Tancredo. I recall it was part of the report I remember 
sometime ago about the difficulty that the Border Patrol was 
having getting into the wildlife or wilderness areas because, 
of course, they were protected, and the fact is that illegal 
aliens do not care about that protection. Therefore, they seek 
those places out. But we were--it's very difficult for the 
Border Patrol to actually patrol the area. They have to either 
use--go in by horseback--by that time, of course, people are 
gone--or they are sometimes parachuted in, if I'm not mistaken. 
But the other problem with using horses is that the horses have 
to be quarantined for two weeks so that they make sure that 
nothing they ate would eventually go through them and end up 
hurting the grass or something of that nature.
    Mr. Taylor. There are all types of restrictions on 
wilderness areas. And depending on the sensitivity of the 
habitat in a particular area, it has things that people are 
specifically interested in preventing. And if it is a plant 
that is transmitted by a seed--which certain grasses in the 
cactus monuments, they actually pay people to go out and take 
these plants out before they bloom each year. And a horse, of 
course, eating grass will transmit that particular seed.
    Mr. Tancredo. Thank you. Ms. Peterson, has your 
organization done any work at all trying to estimate the cost 
to the American taxpayer of maintaining the illegal alien 
community in this country? Has it looked at that at all?
    Ms. Peterson. No, it has not.
    Mr. Tancredo. A number of organizations have, a number of 
reports are out there which specifically indicate that it runs 
into the hundreds of billions. One I saw was a trillion dollars 
over 10 years that are potential costs that we incur--taxpayers 
of this country incur--as a result of the infrastructural cost 
for the illegal immigrant population in this country, both 
certainly health care, educational expenses, and the like. So 
it's everything has to be gauged in on that basis as to exactly 
what it is that--I mean, the amount of money that it would cost 
us to try and prevent the action in the first place as opposed 
to what it costs if we do nothing at all.
    Now, everybody has said today, you know--I think almost 
everyone on the panel, with rare exceptions, has agreed that 
borders are important. There are a couple of people who 
suggested--or at least one--who said that to her and many of 
her friends they were not, that it didn't matter, borders 
didn't really exist for them. I would suggest that that's not a 
unique impression for a lot of people in and around this area, 
that borders don't matter.
    But let me just suggest to us all that this is not a 
problem that is faced only by the people in this particular 
area. They are impacted dramatically by it, undeniably, but so 
is the rest of the United States of America, and as Members of 
Congress we have a responsibility and we have a duty to do what 
we can to protect and defend the Nation as a whole.
    And so it extends to looking at the borders and seeing what 
we can do, even though, you know, there are people in the area 
that may disagree with the implementation, you have to--as I 
say, our responsibility is something else. It's broader than 
that. And we have to come to the realization, the 
understanding, that there are people here who really don't 
believe borders are important, especially the border between 
Mexico and the United States. They wish it didn't exist, and in 
their minds it really doesn't. But for the rest of us and for 
the security of the Nation as a whole, we have to take into 
consideration the fact that there are much bigger issues at 
play here than someone's multicultural attitude toward borders. 
And that's all that I suggest that we all do when we look at 
this.
    This is a very serious issue, and if you don't like a fence 
between Mexico--if you don't want a fence between the city and 
Mexico, I suggest that you build this fence around the northern 
part of your city.
    Ms. Bordallo. I thank the gentleman, and now I'd like to 
recognize the gentlelady from California, Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair. I appreciate your 
allowing us to participate and thank the witnesses, and I agree 
with my colleagues in thanking the university and everybody for 
their time. There are certain things that kind of stand out in 
my mind and I may ask some of these answers to be given to us 
in writing for the record because of time constraints, because 
I have several of them. But to Mr. Merritt, in your testimony 
you alluded to the fact that the general public was being 
advised that no decisions were being made yet about the areas--
I'm sorry, the areas where the fence was going to be 
established, yet the consultants were already hired, there were 
maps already drawn, locales identified, and if I'm correct on 
my assumption, you found out about it through the newspaper?
    Mr. Merritt. What we did find out about was that there was 
fencing planned for Texas through the newspaper, and we tried 
to follow up on that on our own in terms of contacting DHS 
locally to confirm.
    Mrs. Napolitano. But was the public advised after the fact?
    Mr. Merritt. It's really hard for me to say in terms of the 
public. You know, it first came out in the Roma newspaper, 
which doesn't have a lot of distribution, and I think that from 
then on the papers really jumped on that and there was a lot of 
discussion in terms of what is really happening. And really the 
Border Patrol answer that I recall is that ``We haven't made 
any decisions yet,'' and that's what we went through for months 
as Fish and Wildlife Service employees.
    Mrs. Napolitano. But was it evident that the plans had 
already been drawn, consultants hired and things were on the 
way?
    Mr. Merritt. I'm not absolutely sure when consultants were 
hired, but we were provided maps right away after we had the 
first meeting.
    Mrs. Napolitano. Thank you. To Mr. McClung, how severe do 
you think the economic impact might be to the--might be of the 
decision to cut local farmers off from their water source?
    Mr. McClung. Well, if, in fact, we're cut off from water 
and land, it's going to be extremely severe. It's difficult to 
tell because we're not sure where they're going to build those 
structures and we don't--more importantly, we don't know 
exactly what kind of access will be provided in those 
structures. And so it's hard to give you an accurate answer. I 
will say this. Increasingly the produce industry in Texas is 
moving to Mexico and part of it is labor. And if we are 
impacted in terms of labor, then that trend will continue and 
will amplify.
    Mrs. Napolitano. Mr. Taylor, you were stating about being 
able to apply for a visa to be able to cross the border 
legally. I can assure you that--and I don't speak for the rest 
of my colleagues, but my biggest case load is immigration, 
caseload on people whose visas are not--that they applied for 
years are still waiting for them or that they have problems 
trying to be able to effectively be able to cross the border.
    FBI's known priority has been terrorism, not immigration 
assistance. So that to me is unfortunate that you do say that 
because that has not been the case, at least from the vantage 
point of my case workers.
    Ms. Peterson, were you asked to be part of the dialogue on 
being able to have input as to the fence, or any of you, Mr. 
McClung, and you, Ms. Peterson?
    Ms. Peterson. No, although we don't have--our organization 
has membership down here in this region, but we're Washington-
based, but, no, we were not asked.
    Mr. McClung. Not only were we not asked for the most part, 
but when we tried to contact the Border Patrol, go in and talk 
to the Border Patrol, they turned us down. They didn't know 
what to say and were afraid to say much of anything.
    Mrs. Napolitano. And, Mr. Merritt, in case of fire--and you 
did allude to the fact that it would be hard to get through to 
be able to fight fires--were a majority of those fires caused 
by illegal immigrants, or were they naturally occurring fires.
    Mr. Merritt. Generally those fires are not naturally 
occurring in the area. We don't have much lightning strikes 
here. It's really hard to say. We have had a variety of reasons 
for the 300 or so fires that we have on the refuge every year. 
Some of them are man-caused, some of them are embers from 
across Mexico blowing over, sometimes it's people burning 
garbage. It just seems a variety of reasons, no real primary 
reason for those fires.
    As far as the Fish and Wildlife Service goes, it has the 
biggest firefighting capability in the Valley and helps out all 
the communities. And being behind a fence in terms of trying to 
fight a fire is a safety matter that we are concerned about.
    Mrs. Napolitano. Then we shouldn't be blaming it all on 
undocumented immigrants.
    Mr. Merritt. I would not say so, in my experience.
    Mrs. Napolitano. Thank you, sir. Thank you, panel. Thank 
you again and that's it for me.
    Mr. Grijalva. Thank you. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Again, thanks for this 
hearing, and I want to thank our guests. We've had three 
panels, and I think we've had--one thing about it, for you 
folks that think you didn't get your day in court, you 
certainly had it today with lots of coverage and you've had a 
chance to talk about your issues.
    Let me go over a couple of things that I think are 
important. First, Ms. Peterson, I was--I wrote the law that 
mandated the double border fence--actually, triple border fence 
for that smugglers' corridor in San Diego. And I--you know, 
facts are stubborn things. I've got to keep bringing them back 
to you.
    We had 202,000 arrests before we built that fence. We had 
300 drug drive-throughs a month on average. We had an average 
of 12 murders on the border a year, hundreds of rapes, hundreds 
of assaults. It was so bad that we had a plainclothes police 
unit from San Diego City who would go down dressed as illegal 
aliens and wait to be attacked by the border gangs, many of 
whom were armed with automatic weapons.
    Fact for you: When we built it, we went down from 202,000 
arrests to 9,000, more than a 90 percent decrease. We 
eliminated all 300 drug drive-throughs per month. We took the 
average murder rate from 12 a year, all by border gangs, down 
to zero. And by FBI statistics, the crime rate in the county of 
San Diego after we built the border fence went down by 56 
percent. And the cost of building the border fence, the hard 
cost of actually putting in the cement and the fence posts and 
the panels and building the fence--in fact, the double fence, 
because we only needed to build two. I met with the Clinton 
administration and said, ``We don't want to build all three. We 
don't think we need it.'' I said, ``I'll tell you what, we'll 
leave it on the books, and if we don't need the third layer, we 
won't build it.'' We never needed it because it worked very 
effectively.
    The price we got--and it's still a cost that's quoted by 
contractors because we had the Association of General 
Contractors meet and testify in Congress as to what they would 
charge--was about $3 million a mile for those 9 miles of border 
fence that we built. Now, you said it's actually been 100 
million. It hasn't been $100 million to build the border fence. 
Now, we delayed building the fence--and in a way you've made my 
case. We delayed building the fence across the Smugglers Gulch 
for 12 years because of lawsuits, because of a concern that the 
gnatcatcher would not fly over a 10-foot high fence. And if you 
take that and extrapolate that across the Southwest, it's easy 
to understand why the Department of Homeland Security said, 
``We'll never build this fence if we don't have a waiver 
process that's available to us.'' And that's why Congress 
overwhelmingly approved the waiver.
    And the second fact that you've got--that you've erred on 
here is this. You said that Operation Gatekeeper is what 
brought down the smuggling. The border fence was a part and 
parcel of Operation Gatekeeper. That was the fence that we 
attached the gate to. And we actually were able to reduce the 
number of Border Patrolmen--and if you'll go back and check 
your numbers, you'll see that we have fewer Border Patrolmen 
attached to the fence sector today than we had before we built 
the fence because the fence leverages your personnel. Because 
when you put in a high-speed road where a Border Patrolman can 
be there in 60 seconds from a mile away upon notice, then you 
don't need as many people on that border.
    So in terms of human suffering, in terms of bringing down 
the crime rate, in terms of having an environment where the 
average person can go down sometime just before dark and not be 
afraid for their safety, we've made--we've made great advances.
    And I want to give you the statistics for Yuma, because we 
may have another hearing and you may want to bring up these 
numbers again: 138,000 arrests in the sector that we fenced 
before we fenced it; 3,800 after we fenced it. That's a decline 
of more than 95 percent. So, you know what, Mr. Chairman, this 
has been a good hearing because the theme has been we all agree 
we need to have a controlled border. The problem is that nobody 
has brought up a better alternative than the fence and the 
fence has been proven to work very well, we've established, in 
San Diego and the Yuma sector.
    And there is a very strong humanitarian segment to this. 
Because as I mentioned, my brother puts out water for the folks 
that would otherwise die of thirst in the desert. And 400 
people a year die of dehydration and thirst who are allowed to 
go across that open border, pushed across by the coyotes and by 
the guides who tell them that the road is a mile to the north 
and in many cases it's 20 miles to the north. And those people 
expire in the desert sands of Arizona, New Mexico, California 
and Texas. Their lives are worth something more than the 
statistics that the so-called Taxpayers for Common Sense have 
leaked out.
    Along with another cost, the cost of the 250,000 criminal 
aliens who are presently incarcerated in Federal, state and 
local penitentiaries and jails is $3 billion a year. According 
to the costs submitted by the contractors, that would pay for a 
thousand miles of border fence if you eliminated that 
incarceration cost for one year. That's another cost that has 
to be balanced against the cost of not having any border fence.
    Mr. Chairman, I think we've had an excellent discussion, 
but I think it's clear that we all agree as Americans that we 
have to control our border, we have to know who is coming in. 
And I think one of the points we haven't brought in is that we 
have the biggest front door in the world where people knock on 
that door and come in by the millions every year. And what the 
border fence will do is require people who want to come into 
this country to knock on the front door.
    And the last point that I need to make to our friends 
concerned about wildlife, there is not a single water fowl 
species that can't negotiate that border fence. There is no 
acclaimed biologist who says that somehow you're going to 
interrupt migration patterns by building the border fence.
    The major game species in Texas is white-tail deer, and all 
biologists say that most white-tail deer live in an area for 
their entire life of about 1 or 2 square miles. They're not 
migratory and they're not crossing that river on a rapid basis. 
And, you know, Texas ranchers have thousands of miles of high-
fenced areas to keep their game in. That has not kept Texas 
from being a great state for wildlife.
    So I think there is a compelling reason to build this 
border fence, for humanitarian reasons, for natural security 
reasons, and criminal justice reasons. And, Mr. Chairman, I 
think it's time to get on with it.
    Mr. Grijalva. Ms. Peterson, I'll give you a chance to 
respond.
    Ms. Peterson. Yes, it's very quick. I just wanted to 
address Congressman Hunter. Clearly there are many different 
ways to measure effectiveness. Immigration statistics are 
notoriously hard to quantify. I just wanted to point out that 
the numbers we used were DHS annual immigration statistics that 
showed apprehensions across the entire border, not one 
particular sector such as San Diego, et cetera.
    Obviously, often there are locations where the numbers do 
decrease when infrastructure is put in place, but then they can 
increase in other areas, which is the point I made. That said, 
we do not dispute the fact that certain types of fencing may be 
effective in certain contexts, as with the presence of Border 
Patrol, as other people have pointed out here today. But that 
is all the more reason to ensure that the location and the 
deployment of tactical infrastructure follows a conscientious, 
fair and transparent process that allows the most cost-
effective choices to be made in the best ways.
    Mr. Grijalva. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. Once again, with all 
due respect to my colleague from California, I did say that 
there is a better alternative to the fence. Let's invest that 
money in hiring Border Patrol agents, Border Patrol agents that 
can be professional, be well-trained, be responsive and work 
within the community that they live in. Now, I think that's a 
much better alternative than to just blindly put up 1,000 miles 
or 2,000 miles of fence or wall, whichever way you describe it. 
I was interested--I think it was Mr. Tancredo that talked 
about--talked to Mr. Taylor about the issue of a fence in the 
wildlife area. He did--am I to interpret that wildlife 
thrives--would thrive if we put that fence in the wildlife area 
of the border?
    Mr. Taylor. Excuse me, Congressman Reyes. I think his 
question was about in the wilderness areas.
    Mr. Reyes. Yeah, in the wilderness area.
    Mr. Taylor. OK. What we've seen is that in particular in 
the Pajarita Wilderness that now exists in Arizona, is that 
when we excluded--closed the roads and excluded people from 
going in and having common access, we also kept the Border 
Patrol from going in. And as the absence of the Border Patrol 
became more known, then the criminal element moved in and 
started focusing their operations out of that area.
    Mr. Reyes. But, then again, for the record, the fence does 
not necessarily preserve the wildlife area any better than no 
fence.
    Mr. Taylor. Well, there literally is very little or no 
fence there now. What exists is a three-strand barbed wire.
    Mr. Reyes. And, Ms. Peterson, just, again, for the record, 
there are a number of studies, some of which prove that aliens 
do benefit our economy, that aliens that are here in an 
undocumented status do pay taxes, and they certainly pay sales 
taxes and things like that. So it's not all a one-sided issue.
    And certainly we know that--it's been documented that in 
the construction industry where undocumented aliens build 
these--what they call McMansions that some people live in, that 
they benefit the--that particular industry. And in Arizona 
where they passed some laws last year that were very anti-
immigrant, now they're screaming to allow--for the Federal 
government to allow the state to be able to administer a guest 
worker program. So some people want cheap labor, but they want 
fencing and all these other things.
    I wanted to--Mr. Chairman, I wanted to talk a little bit 
about--because I'm assuming that the written statements are 
inserted in the record?
    Mr. Grijalva. Yes, they are.
    Mr. Reyes. I wanted to talk to Mr. Taylor, and in the 
interest of full disclosure, Mr. Taylor worked for me when I 
was chief here in this sector and he filed a number of 
complaints against me. But I was interested--I was interested 
in knowing----
    Mr. Hunter. That shows good judgment.
    Mr. Reyes. Pardon me.
    Mr. Hunter. I said that shows good judgment.
    Mr. Reyes. Well, we'll see. You say, Mr. Taylor, that we 
know that terrorists came to the United States across the 
Mexican border. How do we know that?
    Mr. Taylor. In my testimony that I submitted, there is a 
newspaper article from the Nogales International. I believe 
it's dated this year. And the situation in that case was there 
were two Middle Eastern aliens living in Sierra Vista. Sierra 
Vista is----
    Mr. Reyes. They were undocumented.
    Mr. Taylor. We don't know. I'll get to the point.
    Mr. Reyes. If you're of Middle Eastern descent, you're a 
terrorist.
    Mr. Taylor. And these people were traveling from Sierra 
Vista to Nogales. And what the newspaper article said was that 
they were coming to pick up one of their associates who had 
crossed the border illegally.
    Mr. Reyes. Well, let me--because my time is almost up here. 
You said--you also say in your written statement that you 
personally interviewed three Syrian citizens that had entered 
the United States illegally and one subsequently claimed to you 
that he was a terrorist and was coming to the United States to 
engage in terrorism. When did that happen.
    Mr. Taylor. I don't remember the exact date. It was around 
2000, 2001.
    Mr. Reyes. 2000? And what happened to those three 
individuals.
    Mr. Taylor. The two were I think given hearings as a female 
and a minor female child, and the male who made the terrorists 
declarations turned over to the FBI in Tucson.
    Mr. Reyes. And I find that interesting, Mr. Chairman, 
because in talking to the head of the DHS intelligence, there 
is no such case that's been recorded on the southern border. 
And, by the way, all of the documented cases of terrorists have 
come through the Canadian border. I know this because I sit as 
the Chairman of the Intelligence Committee.
    So I think particularly in Mr. Taylor's written testimony, 
there are a lot of areas that we need to do some more work in 
and do some follow-up in lieu of the fact that this is all 
testimony under oath. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. The gentleman from American Samoa. 
Sir.
    Mr. Faleomavaega. Mr. Chairman, I gather that you must have 
extended an invitation for an official from DHS to testify at 
this hearing. But, apparently, either they're unwilling or they 
never got the invitation or whatever.
    Mr. Grijalva. We did.
    Mr. Faleomavaega. But I would respectfully request that we 
continue this line, the two Subcommittees doing this, and I 
would respectfully request that we do continue this hearing 
with officials from the Department of Homeland Security when we 
get back to Washington. Second, I just wanted a couple of 
questions of Mr. McClung.
    As the CEO of the Texas Produce Association for the record, 
how many farmers and ranchers do you have as members of this 
association.
    Mr. McClung. Well, we're all--we're all farmers and 
shippers because its no ranchers.
    Mr. Faleomavaega. Is it just in Brownsville or the whole 
State of Texas.
    Mr. McClung. The State of Texas, and it is primarily the 
shippers that I represent and there are about 350 of them.
    Mr. Faleomavaega. You're talking about--what is the 
approximate dollar value of the members of the Texas Produce 
Association economically? What does this bring into the 
treasury of the State of Texas in terms of your participation.
    Mr. McClung. Well, not--I can try and find you more 
comprehensive numbers, but it's not an easy question to answer. 
The citrus industry alone is generally considered about 150 
million a year in the Rio Grande Valley. The vegetable industry 
is something larger than that, but it is very difficult--if you 
want any more----
    Mr. Faleomavaega. And the cattle industry, is that also 
part of the----
    Mr. McClung. The cattle industry, no, sir. That's the 
cattlemen. But we do cover--over half the imports are from 
Mexico these days, and those numbers aren't included.
    Mr. Faleomavaega. One of the sore points of the whole thing 
about immigration reform, Mr. McClung, is the whole question of 
employers taking up undocumented workers. And another line of 
questioning to you, sir, about how many documented workers are 
involved in the State of Texas that help farmers in this 
produce industry here.
    Mr. McClung. We know--have been very public that on a 
national level, about 70 percent of our field labor is 
undocumented. That's not just Texas, but I think Texas is 
pretty representative in those numbers. I do want to emphasize, 
however, that under U.S. law, if a potential employee comes to 
you as an employer and has papers--he may have bought them down 
the street--but you can't question those papers without 
violating his civil rights. So I won't pretend that there are 
not times when that's a convenient access to labor.
    Mr. Faleomavaega. My point I wanted to share with you, Mr. 
McClung, is here is a major organization of--a composite of all 
the produce farmers that are involved in this industry and yet 
the Department of Homeland Security has never saw fit to even 
conduct any consultation with an important organization such as 
yours.
    Mr. McClung. Deny us access, in fact.
    Mr. Faleomavaega. So not even discuss any questions of 
water rights, questions of ownership of private property. None 
of these issues were ever discussed by way of consultation with 
your office.
    Mr. McClung. I can't tell you that DHS may or may not have 
talked to individual landowners that I'm not aware of, but 
beyond that, no.
    Mr. Faleomavaega. I wanted to ask Mr. Merritt just one 
question. In terms of the 37--I keep going back to these 37 
Federal statutes, some 50 years old, a couple 100 years old, 
and yet we just turn around and give Mr. Chertoff, a nonelected 
official, the absolute right to waive these laws so that these 
fences can be built. Do you consider that, in your capacity as 
a former senior employee of the Fish and Wildlife Service--
there are at least four or five Federal statutes involved here 
that deal with the Fish and Wildlife Service, and you're saying 
that you were never given any consultations in terms of what 
Mr. Schultz has shared with us earlier. It took nine months for 
the Department of Interior just to give agreement to some 30 
Federal statutes the Department of Interior has jurisdiction 
over and just waive it and just say that it was OK.
    Mr. Merritt. Well, I think I would like to answer that in 
a----
    Mr. Faleomavaega. Positive way.
    Mr. Merritt. Well, I'd like to reduce it down to a 
situation that I dealt with and that had to do with the Refuge 
Administration Act, which is a problem, the problem being that 
we had a law that said--I mean, as a refuge manager of 30 
years, I knew the border fence wasn't going to be appropriate 
nor compatible on a national wildlife refuge. And it took that 
long for the agency finally to send a letter--decide to send a 
letter to DHS saying we would like to have a waiver.
    Mr. Faleomavaega. My time is up. I'm sorry, Ms. Peterson 
and Mr. Taylor. But, Mr. Chairman, I do want to thank members 
of the panel for their excellent presentations, and, again, to 
thank our good colleague Mr. Ortiz and Dr. Garcia for allowing 
us to come and visit this beautiful town of Brownsville. Thank 
you again.
    Mr. Grijalva. Thank you, sir. Let me now turn to the 
gentleman from the district we're in, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman. I would like for us 
to--my question is for Mr. McClung. Now, for years, you know 
that when we go through a drought we're very dependent on the 
treaty that we've had with Mexico, the Treaty of Guadalupe. And 
sometimes it causes problems because they don't pay their water 
bill. Now, what's going to happen when we build that wall and 
we give the river and the water to the Mexicans? Has the 
Department of Homeland Security told you that you will continue 
to be able to get some water from the river, or are we going to 
have to go back and consult to see where we stand on the 
Guadalupe Treaty? Have they talked to you about this, or maybe 
you, Mr. Merritt? Where do we stand.
    Mr. McClung. Sir, they have never talked--come to us or 
directly talked to us about it. There have been some things 
said by Mr. Chertoff and others about the fact that they don't 
intend to make it difficult for us to get the water or the land 
access, but, frankly, we can't see how you can have both. It 
just isn't possible in our minds.
    Mr. Ortiz. And that's of deep concern to me because, you 
know, it will have a tremendous impact on our economy. Now, 
we've heard that if they do build the wall, that they're going 
to provide a gate so that those people who have many amounts of 
acre land can use the gate to go and farm on the other side of 
the gate which would happen to be now on the Mexican side. Have 
they told you if they do that who is going to have the key to 
open that gate?
    Mr. McClung. Well, actually, the most recent version is--
and these gates, by the way, will have to be very large because 
some farm equipment is big. The--what they are saying they're 
going to do is put these gates in and then they're going to 
issue remote controls, garage door openers essentially. And one 
can imagine how long it will be before some of those remote 
controls go missing or the guys on the other side figure out 
the frequencies.
    Then they also, because of wildlife, are going to put ports 
in the gates, doggy doors in the gates, and--ocelot doors.
    It is frankly, Mr. Ortiz, it is some poor engineer's 
solution whose back is against the wall literally in this case 
when there is no good solution.
    Mr. Ortiz. You know, and I have received information from 
landowners that the Department of Homeland Security is offering 
well-below-market-price value for their land. And I even had a 
farmer who's got a small plot, who has a waterfront river, who 
was offered something like 36 cents per square foot. And I 
think they finally settled for a dollar a square foot. Now, 
these are some of the people that have talked to us. Are you 
familiar with this talk going on?
    Mr. McClung. I am familiar with farmers selling their land 
along the river to the Federal government for various purposes, 
and there is always a dispute about fair market value. The 
government's version and the private landowner's version are 
not necessarily the same, and, to be honest about it, probably 
the answer is in between.
    Mr. Ortiz. And when they do that, there's farmers who have 
hundreds of acres of lands, there's others who have 3 or 4 
acres of land, and when you put a gate or you put a wall, you 
know, that diminishes the market value of that 3- or 4-acre 
farm.
    Mr. McClung. That is the primary concern that I have, is 
what happens to the value of the thousands of acres that lie 
between the river and the--and where they plan to put the gate.
    Mr. Ortiz. You know, and my good friend Mr. Hunter was 
describing a few moments ago that we need to know who is coming 
into this country. And this is why we have been pushing for a 
comprehensive immigration bill, because we have been told that 
we have 12 million undocumented workers or undocumented or 
illegal, whatever you want to call them, in the United States. 
We already know that under the Other Than Mexican policy that 
we had, thousands and thousands of them came into our country.
    One thing that the comprehensive immigration bill does is 
that there is some steps before you can qualify to become a 
American citizen or to be here legally. You have to follow 
those steps and you cannot be a criminal, you have to pay your 
taxes, and you have to be a citizen and so on and so forth. But 
this will allow these people to come out from the shadows and 
say ``I've been here 10, 15 years and I want to become a 
citizen.'' Those that mean to harm our country would not come 
out.
    Mr. McClung. The national agricultural community--not just 
fruits and vegetables but across the board in this country--has 
said repeatedly and for a long while that there is a much 
better answer than a wall. It is comprehensive immigration 
reform. That is it.
    Mr. Ortiz. Thank you so much. Not only are we--we won't be 
able to get water, but even the little animals won't be able to 
get water if we build that fence, so we're in a hell of a 
shape, my friends. But I think what we're trying to do here is 
to put a bandage tape on a serious wound, and I don't think 
that talking about building this wall is going to answer the 
problems. It's going to be very costly. We are involved in two 
wars right now. We're spending $13 billion a month and, you 
know, when we spend taxpayers' money, this is very, very sacred 
money that we spend.
    Mr. Chairman, I want to thank you and Chairman Bordallo and 
all my good friends and my colleagues here. I think this has 
been a very, very good hearing. I think that we understand at 
least better the problem that we have and we know that the wall 
is not going to answer this problem. So, Mr. Chairman, thank 
you for the time. Thank you so much.
    Mr. Grijalva. Thank you. And let me before we adjourn this 
meeting thank all the witnesses--very much appreciate it--and 
all our panels, and in following the admonishment of the good 
bishop, that this discussion that we're having has to be a 
dialogue about solutions, not a diatribe about political 
grandstanding. It has to be--it's difficult work, it's complex 
work, and we're not going to accomplish it by demonizing or 
dehumanizing people. We're not going to accomplish it by 
marginalizing these communities.
    And the waiver impacts that we talked about today are 
serious issues. We have environmental impact, social impact, 
security impact, economic impact, cultural and historic impact. 
And the reality is that these waivers above that are a very, 
very dangerous precedent for the American people.
    We're talking about the rule of law; we're talking about 36 
laws being waived; we're talking about--37--thank you--civil 
liberties, private property protection; and we're talking about 
promoting--profiling was part of this discussion; we're talking 
about second-class communities that we are having to deal with.
    What community--when you waive the Clean Water Act, is 
there a community out there that--whose residents deserve less 
than clean water for their consumption? Of course not. So as we 
go forward on this issue--and we will--it is not about how we 
are going to allow a free flow of unauthorized people into this 
country. We all on this panel understand that we are a 
sovereign nation and we need to protect that nation. But we 
also have to understand that we're on the border. We are part 
of a unique, different and entirely--an entire community that 
is very much part of this country. And being part of this 
country, it deserves to be treated with respect, with 
consultation, and with process. In going forward with the 
legislation in repealing that waiver, we hope that we will 
follow the gentleman's advice, bring DHS to the table, have 
them explain many of the questions that couldn't be answered 
today. Let me thank all of you and let me adjourn the meeting. 
Thank you very much.
    [Whereupon, the Subcommittees were adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by John S.C. Herron, 
Director of Conservation Programs, The Nature Conservancy of 
Texas, follows:]

  Statement of John S. C. Herron, Director of Conservation Programs, 
                    The Nature Conservancy of Texas

    I am writing on behalf of the Texas Chapter of the Nature 
Conservancy to comment on the proposal by Department of Homeland 
Security (DHS), U.S. Customs and Border Protection (CBP) and U.S. 
Border Patrol to construct fence and wall segments along the Texas--
Mexico border. Our organization is opposed to the proposed border wall 
as outlined for the Lower Rio Grande Valley. We are opposed to the wall 
both as a conservation organization that has worked in creating the 
wildlife corridor and as a private landowner of over 1,300 acres of 
native habitat in the Lower Rio Grande Valley (LRGV) that will be 
directly impacted by the proposed border wall. We believe there are 
alternatives to a border fence that are not receiving adequate 
consideration; alternatives that will provide increased border security 
while also protecting the critical remaining native habitat in the 
Lower Rio Grande Valley.
    The Nature Conservancy shares the public concerns about border 
security, illegal immigration, and contraband smuggling, but the 
installation of the wall segments in the Lower Rio Grande Valley will 
begin the unraveling of a unique wildlife corridor found nowhere else 
in North America. We feel the National Environmental Protection Act 
(NEPA) process was an opportunity to have fully explored alternatives 
to the fence as proposed, and would have considered minimizing the 
associated impacts to the environment and endangered species. Building 
fences and walls through preserves and wildlife refuges in rural areas 
seems inconsistent to the stated needs for a fence or wall and 
therefore appears to be an unnecessary expense as well as an avoidable 
destruction of habitat.
    We also want to express our concern that the border fence 
initiative has put local Border Patrol agents in a very difficult 
position that has undermined the excellent relations they've had with 
local residents. For many months, agents were sent out to talk with 
landowners, but were not given or allowed to convey the proper 
information or to answer many questions. Meanwhile, these same agents 
are trying to do their job and keep up their relationships with local 
landowners. The ``consultation'' process was frustrating and was not a 
two-way exchange. There was no indication that our input or questions 
from the ground had any bearing as to what type or the placement of the 
wall to be constructed. And it is clear that the proposed levee walls 
and fences will have significant adverse impact on wildlife, rare 
species, and the environment in the region, with no guarantees that 
these impacts will be minimized or mitigated.
    Details of The Nature Conservancy's contact and communication with 
Border Patrol and Department of Homeland Security follows.
    The Conservancy first learned about the proposed construction of a 
border fence along the U.S. Mexico border in the LRGV through a small 
article in a local newspaper in April 2007. Our staff in South Texas 
called the Fort Brown Station in Brownsville, TX to inquire about the 
fence and if it would affect our two preserves in the LRGV. No one at 
the station could give us any information in regards to the fence. In 
subsequent months, we kept hearing more and more about the proposed 
border fence and again our staff contacted the Fort Brown Station.
    In June 2007, local Border Patrol agents visited staff living at 
Southmost Preserve in Cameron County and came to the office to hear any 
concerns we may have about the proposed wall. Our questions spanned 
from will the wall affect our property; will we have access to our 
property and the river; will the wall cut off our water supply from the 
canal draining south; what mitigation will be allowed for wildlife to 
pass through the fence, how will the wall affect our property value, 
etc. We also asked what alternatives to the wall had been discussed or 
reviewed. Border Patrol agents did not answer our questions but wrote 
down our concerns and told us they would be compiled and sent up to DHS 
in Washington, DC. We were told that they would let us know as they 
were told from headquarters. Border Patrol agents indicated they were 
in the dark as much as we were, as this was an initiative from 
headquarters in D.C.
    By late summer 2007 the rumors of the border wall had been in 
various articles in the newspapers and a map showing the wall segment 
locations was published. Border Patrol agents called us to tell us not 
to believe what was printed in the paper that there were no official 
maps as to where the border wall was to be constructed. In August we 
received an official request for right-of-entry survey to our Chihuahua 
Woods Preserve in Hidalgo County. The request asked for unfettered 
access to the preserve to conduct installation of border security 
infrastructure. This was the first notification we had that the border 
wall may affect Chihuahua Woods Preserve. We respectfully declined the 
request under the terms proposed by CBP. A Border Patrol Agent told me 
that they figured we would not allow access to do surveys for the wall, 
and therefore had not sent us an official letter requesting access.
    In September 2007, a Border Patrol Agent called to request access 
to our Southmost Preserve to show their engineers the ``lay of the 
land.'' When we requested a seat on the tour we were told that there 
was no room and that the tour was only for DHS, their contractors and 
USACOE. We granted access to the levee road, but not the rest of the 
preserve.
    The Environmental Impact Statement (EIS) for the border wall was 
released in October 2007. The EIS showed the layout of the all the 
segments of the border wall and this was the first official 
notification that our property would be directly impacted by the wall 
and that the wall would be located north of the levee and not along the 
Rio Grande. In December 2007, CBP officially sent the Conservancy a 
letter requesting right-of-entry or face condemnation to survey the 
property.
    During fall and winter, we had been requesting a meeting with the 
agents or engineers who could actually discuss with the Conservancy the 
plans for the border wall, its location, if any alternatives had been 
discussed, where wildlife portals could be developed, and discuss how 
irrigation or drainage canals would be affected. We were requesting 
this locally and through our Government Relations staff in Arlington, 
VA at DHS level.
    In January 2008, we were finally granted a meeting at Southmost 
Preserve where several local high ranking Border Patrol agents 
attended. However, they were unable to provide any details that 
addressed our questions. They told us they had noted our concerns 
before and that the engineers were looking into suggestions we made.
    In late April 2008, high ranking DHS personnel visited the property 
and informed us that USCAOE will be contacting us to request to conduct 
an appraisal and an offer will be forthcoming. We asked if they could 
answer questions in regards to access, irrigation and drainage issues, 
safety concerns and habitat protection. They mentioned they were still 
being reviewed. This past week, we have received some indication that 
the engineers and DHS are considering our suggestions concerning gates 
and access openings in the fence, but we remain uncertain what the 
final completed project will look like. We remain uncertain what 
impacts construction and potential condemnation will have on our 
ability to manage and conserve our lands and preserve.
                                 ______
                                 
    [A statement submitted for the record by Sandra Purohit, 
Government Relations, Defenders of Wildlife, follows:]

         Comments submitted for the record by Sandra Purohit, 
              Government Relations, Defenders of Wildlife

Introduction
    Thank you for the opportunity to submit testimony for the record on 
this important issue. Founded in 1947, Defenders of Wildlife is a 
national not-for-profit conservation organization that has over 1 
million members and supporters across the nation and is dedicated to 
the protection and restoration of native animals and plants in their 
natural communities. With offices throughout the United States as well 
as in Canada and Mexico, we work to protect and restore North America's 
native wildlife, safeguard habitat, resolve conflicts, work across 
international borders and educate and mobilize the public.
    We are gravely concerned about the impacts that border walls are 
having and will continue to have on wildlife, including threatened and 
endangered species, and on protected habitats and public lands along 
the border. We are also dismayed and deeply concerned at how 
construction has moved forward.
    Defenders has a long history of proactive work on public lands and 
wildlife conservation in the U.S.-Mexico borderlands region, and has 
led the conservation community's efforts to promote alternatives to 
border wall construction that will better ensure border security while 
also protecting our irreplaceable natural and cultural resources. For 
example, Defenders' 2005 report On the Line: The Impacts of Immigration 
Policy on Wildlife and Habitat in the Arizona Borderlands, was the 
first to comprehensively address the environmental consequences of our 
nation's failed border security and immigration policies. Several of 
that report's recommendations, including a call for increased funding 
for borderland environmental programs and mitigation and early 
coordination with affected communities, have been included in recent 
federal legislation. In addition, Defenders has co-sponsored two major 
symposiums to bring together a broad range of stakeholders, including 
agency wildlife experts and managers, academic experts, policymakers, 
scientists, and Department of Homeland Security (DHS) officials in an 
attempt to identify and address the most critical ecological issues 
arising from the intensive effects of undocumented immigration and 
associated enforcement efforts. Throughout our history of advocacy on 
this complex and important issue, our bottom-line message has been 
clear: border security and environmental protection are complementary 
goals that can and must be much better integrated than they are today.
    To achieve these goals, however, requires the leadership of 
Congress. Unfortunately, as exemplified by laws such as the Secure 
Fence Act and the unprecedented waiver provisions of section 102 of the 
REAL ID Act, Congress has pursued a politically-motivated and 
ineffectual ``border security only'' legislative strategy rather than 
comprehensively addressing the underlying forces driving undocumented 
immigration. Indeed, levels of undocumented immigration have 
consistently risen during the past 15 years, despite a massive 
expenditure of public funds, the addition of thousands of Border Patrol 
agents and deployment of associated off-road vehicles, helicopters, and 
other vehicles, and the construction of border walls, roads, and 
barriers. Despite this failure, many Members of Congress continue to 
resist attempts to meaningfully address the issues of border security 
and immigration, or to rethink the proposed massive construction of 
border walls across much of the southern border. Ultimately, it is the 
residents and businesses of borderlands communities, the irreplaceable 
tapestry of protected federal, state, and private lands, and the unique 
and magnificent wildlife of the borderlands region that will pay the 
price for this collective failure of leadership and vision.
    But Congress is not solely to blame. The Bush administration and 
DHS Secretary Michael Chertoff have a tremendous amount of discretion 
and have chosen of their own volition to dismiss both direct and 
indirect impacts of ``walls and waivers'' at a regional scale. And, by 
and large, the agency has chosen not to consult with and heed the 
advice of those who know the area the best and will be impacted the 
most. The agency has chosen not to consider and analyze viable 
alternatives to walls (e.g. increased Border Patrol agents, remote 
surveillance, removal of concealing invasive vegetation, etc.). 
Instead, on five occasions in less than three years, Secretary Chertoff 
has needlessly invoked the REAL ID to waive numerous laws intended to 
protect wildlife and protected lands, clean air and water, historic and 
cultural sites, Native American sacred sites and burial grounds, and 
public health and safety, in order to ``expedite'' border wall 
construction. The result has been poor public process, unanticipated 
problems, disgruntled communities, lawsuits, escalating financial and 
ecological costs and unnecessary impacts to vital habitat.
    We appreciate that the Subcommittee on National Parks, Forests, and 
Public Lands of the House Natural Resources Committee has held a field 
hearing on this important topic and hope that our testimony will detail 
the specific impacts from border wall construction under DHS as well as 
the basis for our concerns regarding the REAL ID waiver and its use.
PART I: IMPACTS OF BORDER WALLS
Impacts to Threatened and Endangered Fish, Wildlife, and Plants
    Defenders of Wildlife, in conjunction with a broad cross-section of 
stakeholders including FWS, NPS, Department of Defense, Department of 
Homeland Security (DHS), and scientists with the University of Arizona, 
Arizona State University, Conservation Biology Institute and other 
institutions, have recently identified some of the most critical 
wildlife migration routes, including those utilized by the only known 
jaguars in the United States, and compiled the results into a 
publication entitled Stakeholder Recommendations. Four out of five of 
these corridors would be blocked and permanently fragmented if DHS 
proceeds with construction of border walls along areas previously 
outlined in the Secure Fence Act (see Figure 1).
    More generally, much of the borderlands area is situated in 
ecologically-complex areas at the intersection of major ecosystems. For 
example, in the ``sky islands'' region of southern Arizona and New 
Mexico, subtropical ecosystems predominant in Mexico and Central 
America overlaps with temperate ecosystems characteristic of the U.S. 
Rocky Mountains region, resulting in high concentrations of endemic 
species (species found only in this region) and important north/south 
trending wildlife corridors. In addition, DOI lands in the borderland 
region provide critical habitat to large numbers of imperiled wildlife, 
fish, and plants. According to FWS, the Arizona borderlands region 
alone contains nearly 40 threatened, endangered, and other special 
status species. The imperiled species along the borderlands region 
range from tiny fish, such as the beautiful shiner and Sonoran chub, to 
large, wide-ranging mammals such as desert bighorn sheep, ocelot, 
Sonoran pronghorn and jaguar (see Table 1). Significant disruptions to 
this habitat could quickly result in the extirpation of certain species 
from the United States. There is also concern such extensive ground 
disturbance will provide footholds for exotic and invasive plants to 
establish and spread, negatively affecting native flora and fauna and 
requiring costly efforts to attempt to control their spread.

Impacts to Protected Federal Lands
    From the Tijuana Slough National Wildlife Refuge in San Diego, 
California, to the Lower Rio Grande National Wildlife Refuge in 
southern Texas, the borderlands region encompasses numerous protected 
federal lands administered by the Department of the Interior (DOI). In 
all, approximately a quarter of our nation's nearly 2,000 mile long 
border with Mexico is comprised of federal lands, including National 
Parks and Monuments, National Wildlife Refuges, and other protected 
areas. The total rises to nearly a third of the southern border when 
tribal lands, administered in trust for Indian Nations by DOI, are 
included (See Figure 2). The direct and indirect impacts border walls 
and other security infrastructure raise major concerns for these 
protected lands.

Border Walls Have Direct and Lasting Impacts on Protected Lands
    Border Walls and the patrol roads that accompany them dramatically 
alter the landscape. They also physically fragment once-contiguous 
wildlife habitat (see Figures 3 and 4). The deleterious impacts of 
anthropogenic habitat fragmentation upon biodiversity is well-
documented in the scientific literature, especially from the burgeoning 
fields of Wildlife Biology, Conservation Biology and Landscape Ecology. 
In addition to habitat fragmentation, building border patrol roads and 
walls will result in clearing extensive acreages of native vegetation, 
disturbed and compacted soils, accelerated erosion and disrupted 
hydrologic function.
    As Refuge Manager Mitch Ellis stated in his formal determination 
that the border wall was not an appropriate use for the wildlife 
refuge: ``It is now clear that the barrier proposed by CBP is 
inconsistent with Service policy and is likely detrimental to the 
refuge's natural and cultural resources.'' (emphasis added)

Border Walls Negatively Impact Protected Land Management and Tourism
    In some circumstances, the construction of border fences and walls 
will inhibit access to, and thus the management of, protected public 
lands and private nature preserves. Numerous tracts of the Lower Rio 
Grande Wildlife Refuge would be located south of the proposed levee-
wall, limiting managerial access for important resource management 
activities. The Sabal Palm Nature Reserve, managed by the Audubon 
Society, would be located entirely south of the proposed levee-wall, 
raising questions regarding manager access, public safety, perception 
and education (See Figures 6 and 7). As a result, managers anticipate 
if wall construction proceeds as proposed, the operations of the Sabal 
Palm Sanctuary will likely be closed down. Serious concerns have been 
raised by land managers regarding the wall restricting their ability to 
safely respond to and manage important ecological processes such as 
fire. In addition, there are concerns walls will have a negative impact 
upon the ecotourism industry, which is driven in large part by the 
existence of, and accessibility to, numerous wildlife refuges and 
nature preserves.

Border Walls Funnel Activity and Additional Impacts to Remote Wildland 
        Areas:
    Pedestrian fences are not impermeable barriers for humans. While 
disturbances from illegal border activity may be lessened in the area 
immediately next to the north side of a border wall, we anticipate this 
``benefit'' will drop off quickly further to the north and may in fact 
be worsened in areas to the east and west of the wall segments. 
Wildlands will still be impacted by people who have climbed over, 
tunneled under, or walked around the wall. The impacts from this 
funneling-effect are well documented.
    Increased border infrastructure in urban areas within California 
and Texas, for example, have driven illegal activity and associated 
impacts into the remote and largely unpopulated desert areas of the 
border. Buenos Aires National Wildlife Refuge, Organ Pipe Cactus 
National Monument, and even protected areas far from the immediate 
border area, such as Ironwood Forest National Monument, are all 
currently experiencing unprecedented resource damage to soils, 
vegetation, waters, and wildlife. Similarly, while border walls in 
Arizona went up, levels of undocumented immigration and drug smuggling 
have skyrocketed in the ``boot heel'' area of New Mexico's borderlands, 
threatening several unique Wilderness Study Areas administered by the 
Bureau of Land Management.
    Wildlife Managers are raising concerns about this effect. The 
effects of the newly constructed wall on patterns of illegal entry 
across Buenos Aires National Wildlife Refuge have not yet been 
documented. However, the Final Environmental Assessment, the Section 7 
Consultation (for jaguar, lesser long-nosed bat and Kearny's Blue 
Star), and the Buenos Aires National Wildlife Refuge Manager's 
Appropriate Use Determination all note the potential for illegal foot 
traffic, trash and concomitant problems to be re-routed around the 
fence into adjacent mountain ranges and sensitive habitats.
    The Buenos Aires National Wildlife Refuge Manager, Mitch Ellis, 
publicly expressed his concern about this type of impact, stating: 
``The refuge is also concerned with potential impacts to the Arivaca 
Creek Management Unit should smuggling traffic to the east of the 
barrier escalate. The riparian habitat in Arivaca Creek is extremely 
valuable for migratory birds and other wildlife''. Based in part on 
this impact, Mitch Ellis also made a formal determination that the 
border wall was ``incompatible'' with the wildlife refuge.
    Border walls funnel additional illegal traffic and enforcement 
activities into remote sensitive areas where sharp increases of human-
induced disturbance is impacting important wildlife habitat. Where 
border walls are crossing protected areas, they do not prevent people 
from impacting protected lands once they have walked around, climbed 
over or tunneled under the wall.
    A number of border wall proponents suggest that border walls are a 
good option because they might address the negative environmental 
impacts currently associated with illegal border activity. The impacts 
of illegal border crossings are substantive and legitimate concerns, 
however, responding to one set of impacts by creating a new set is not 
problem solving, it's problem shifting. At a regional scale, walls are 
adding dramatic ecological disturbances to already injured ecosystems; 
they are also failing to address the root of the problems at hand and 
in some situations are making existing impacts worse.

Impacts to Cooperative Bi-national Conservation Efforts and Treaty 
        Obligations
    We are deeply concerned that border security infrastructure will 
have long-term negative implications for numerous bi-national 
conservation planning, restoration and wildlife management efforts as 
well as international treaties and our neighborly relations with 
Mexico.
    In recognition of our shared natural resources, land managers and 
others within DOI have led efforts to engage Mexico in cooperative 
management of protected lands, as well as the wildlife that utilizes 
habitat on both sides of the border. For example, under the U.S.-Mexico 
Sister Park Partnership, NPS and Mexico's National Commission on 
Natural and Protected Areas have designated seven ``sister parks'' 
along and in the vicinity of the southern borderland region. As stated 
by NPS, such collaboration ``is necessary to address many domestic 
conservation issues, including migratory, shared, and invasive species, 
border park operations and security, shared cultural resources, and 
trans-boundary pollution.'' Border Walls are a symbolic and practical 
obstruction to such constructive and cooperative efforts.
    The proposed border wall threatens to slice through multiple 
sections of a major multi-million dollar effort by the FWS to protect 
and restore a continuous wildlife corridor astride the Lower Rio Grande 
Valley. FWS has spent decades and upwards of $90million dollars piecing 
together 115 parcels of land in an effort to develop this wildlife 
corridor to connect wildlife populations in Mexico and the US. It is 
estimated that the border wall will divide this corridor in 11 
different places.
    Similarly, a fence along the border in southern Arizona and New 
Mexico threatens to undermine long-standing bi-national efforts to 
conserve and maintain habitat connectivity for wide ranging species 
such as jaguar, cougar, ocelot, black bear, Mexican wolf, desert 
bighorn sheep, pygmy owls, mule deer, white-tailed deer and numerous 
others.
    For some of these species the majority of the surviving population 
lives in Mexico. The viability of threatened species in the U.S. is 
strengthened by dispersal from source populations south of the border. 
Such critical dispersal events are not possible through a border wall.
    In addition, the U.S. has important treaty obligations with Mexico. 
The federal government has a responsibility to ensure that border 
infrastructure projects do not violate these important international 
agreements.
    <bullet>  The Migratory Bird Treaty Act. The Migratory Bird Treaty 
with Mexico and Canada prohibits anyone from pursuing, hunting, taking, 
capturing, or killing of identified bird species, or attempting to do 
so. Several borderland areas administered by DOI, including Tijuana 
Slough and Lower Rio Grande National Wildlife Refuge, contain 
unparalleled habitat for hundreds of migratory bird species. Again, 
such species may be threatened by border security infrastructure and 
operations. To our knowledge, there has been no oversight of this 
issue.
    <bullet>  The 1970 Boundary Treaty. The Treaty of November 23, 1970 
resolved boundary differences between Mexico and the United States, and 
provided for maintaining the Rio Grande and the Colorado River as the 
international boundary. Activities in one country which impact water 
flows on other are also covered by the treaty. This is significant 
because the levee-wall proposal put forth by DHS for Hidalgo County may 
have international implications under this treaty. Again, to our 
knowledge there has been no oversight of this issue.
    Border security infrastructure will have long-term negative 
implications for wildlife, protected lands, numerous bi-national 
conservation planning, restoration and wildlife management efforts and 
international treaties.

PART II: Impacts Of The Real ID Act Waiver and Secretary Chertoff's 
        Authority.
The REAL ID Act and the Impact of a Government Above the Law:
    The United States of America is a nation of laws. By and large, 
these laws have been crafted by the government to protect the 
fundamental rights, safety and environment of its citizens. Many of 
these laws recognize the importance of due process; they allow for 
public involvement in government decision making to ensure that those 
impacted by decisions will have a voice in how those decisions are 
made. This ensures that government has the information it needs, and 
has carefully evaluated multiple alternatives in order to make 
informed, rational decisions before it drastically impinges on private 
rights, public safety, and natural resources. But, under section 102 of 
Real ID Act, the DHS Secretary can waive any and all laws in the 
construction of border infrastructure. Below is a description of the 
imperfect process by which REAL ID Act waiver came about and an 
explanation of why the authority is unconstitutional

The Background and Unconstitutional Nature of the Real Id Act Waiver
    Introduced in the House of Representatives by former Judiciary 
Chairman James Sensenbrenner on January 26, 2005, the REAL ID Act of 
2005 (H.R. 418) was signed into law by President Bush on May 11, 2005. 
Section 102 of the REAL ID Act amended section 102 of the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 
(``IIRIRA'') to provide the Department of Homeland Security (``DHS'') 
Secretary authority to ``waive all legal requirements'' that he 
determines, in his ``sole discretion,'' are ``necessary to ensure 
expeditious construction'' of the barriers and roads authorized under 
the IIRIRA. See Sec. 102(c)(1) of Pub. L. No. 109-13; 8 U.S.C. 
Sec. 1103 Note.
    Despite significant controversy associated with the section 102 
waiver provisions and other aspects of the legislation relating to 
immigration and asylum, the REAL ID Act was passed without any 
Committee consideration or hearings in either Chamber of Congress, and 
without having ever been introduced, considered, or debated by the 
Senate. In the limited floor debate on the REAL ID Act in the House of 
Representatives, one member noted the breathtaking scope of the waiver 
authority provided to the DHS Secretary, and the lack of meaningful 
Congressional consideration of that provision:
        The REAL ID Act contains a provision that would provide the 
        Secretary of Homeland Security with authority to waive all laws 
        he deems necessary for the expeditious construction of the 
        barriers authorized to be constructed by section 102 of the 
        Illegal Immigration Reform and Immigration Responsibility Act 
        of 1996, IIRIRA. To my knowledge, a waiver this broad is 
        unprecedented. It would waive all laws, including laws 
        protecting civil rights; laws protecting the health and safety 
        of workers; laws, such as the Davis-Bacon Act, which are 
        intended to ensure that construction workers on federally-
        funded projects are paid the prevailing wage; environmental 
        laws; and laws respecting sacred burial grounds.
151 Cong. Rec. H459 (daily ed. Feb. 9. 2005) (statement of Rep. 
Jackson-Lee) (emphasis added).
    Subsequent to its passage in the House as a stand-alone bill, and 
before any Senate Committees had considered or held hearings on its 
provisions, the House added H.R. 418 as an unrelated legislative 
``rider'' to H.R. 1268, an emergency supplemental appropriations bill 
allocating $82 billion to the wars in Iraq and Afghanistan, tsunami 
relief in southeast Asia, and other purposes. P.L. No. 109-13. By 
attaching the REAL ID Act to H.R. 1268, the House leadership 
successfully gambled that even if Senate members were troubled by their 
lack of opportunity to consider the legislation, they would not let 
those concerns derail the Senate's approval of H.R. 1268, which as an 
emergency funding bill for war and humanitarian relief efforts, was 
considered a ``must-pass'' piece of legislation. See Congressional 
Quarterly, Senator Feinstein Expresses Concern About REAL ID Act in 
Supplemental Appropriations Bill. On May 10, 2005 the Senate cleared 
H.R. 1268 by a vote of 100-0.
    Despite the lack of close Congressional consideration or meaningful 
debate, the scope of the REAL ID Act's waiver provision is 
unprecedented in our Nation's history. See Congressional Research 
Service (``CRS'') Congressional Dist. Memo., Sec. 102 of H.R. 418, 
Waiver of Laws Necessary for Improvement of Barriers at Borders, 
Stephen R. Vina and Todd Tatelman (Feb. 9, 2005). Previous statutory 
waivers have almost without exception involved Congress directly 
waiving laws itself, or instructing the President or another officer to 
waive particular provisions (usually provisions of the same law 
containing the waiver) if certain circumstances occur. Congress has 
thus itself made the determination to waive the application of 
particular provisions of law in these instances.
    In contrast, section 102 of the REAL ID Act provides the DHS 
Secretary with a roving commission to repeal, in his sole discretion, 
laws that would otherwise regulate and restrain his own conduct. 
Section 102 is thus not a mere delegation of broad policy 
responsibility that can be defended by pointing to some ``intelligible 
principle'' guiding the Executive Branch in its implementation. Rather, 
it is the transfer of an inherently legislative power to the DHS 
Secretary--the power to repeal standing laws in his sole discretion. In 
addition, the waiver provision departs from past Congressional practice 
and Constitutional constraints in its elimination of any judicial 
review with the exception of Constitutional challenges, thus precluding 
any independent review of whether the DHS Secretary has only waived 
thus laws ``necessary'' for the expeditious construction of border 
walls.
    Compounding this absence of meaningful review, the REAL ID Act also 
eliminates the right to appeal decisions to the Federal Court of 
Appeals, providing a discretionary writ of certiorari as the only 
possible avenue for review of District Court decisions. This 
unrestricted and unprecedented grant of legislative authority, combined 
with the absence of meaningful judicial review and oversight, is an 
inescapable violation of both Article I and Article II of the 
Constitution.

Secretary Chertoff's Misuse of Authority
    Under the Secure Fence Act, Congress has mandated the construction 
of some 700 miles of border fencing. But how, where and when it chooses 
to build those miles are now within the agencies' discretion.
    DHS has always had discretion as to which laws it waives and which 
it chooses to comply with and of course the agency has the authority to 
abide by the law if it so chooses. Recent changes in the Consolidated 
Appropriations Act of 2008, (PL 110-161,Sec 546) have provided DHS with 
additional flexibility as to where and when to build. No longer 
required to build in specific locations, DHS must focus construction 
``where fencing would be most practical and effective'' (PL 110-161,Sec 
546). Congress also gave the Secretary the authority to change the 
number of miles that need to be built by the end of the year. 
Specifically, the current language calls for construction by December 
31, 2008 of ``370 miles, or other mileage determined by the 
Secretary...'' (emphasis added) (PL 110-161,Sec 546).
    With these changes, DHS has the authority, the flexibility and the 
time to consider viable alternatives and to fully inform his decision 
making by complying with study requirements under the law. In addition, 
the Consolidated Appropriations Act explicitly directs that DHS does 
not have discretion to bypass consultation. In fact, the language 
states ``the Secretary of Homeland Security shall consult with ``local 
governments, Indian tribes, and property owners in the United States to 
minimize the impact on the environment, culture, commerce, and quality 
of life for the communities and residents located near the sites at 
which such fencing is to be constructed.'' (PL 110-161,Sec 546). As 
local government officials, Native American tribal leaders, and 
property owners all attested to during oral testimony before the 
committee on April 28, 2008, DHS has moved full steam ahead with 
discretionary construction but has failed to meet its obligation to 
consult.
    The following is a timeline of DHS activities since the passage of 
the REAL ID Act of 2005 and Secure Fence Act of 2007. This timeline 
includes just a handful of ``collateral impacts'' on communities and 
the environment that have occurred as a result of DHS's rush to waive 
laws, and its failure to consult and consider alternatives.
January, 2007--DHS discards National Environmental Policy Act (NEPA)
    <bullet>  After NEPA analysis finds a vehicle barrier is the 
preferred border infrastructure for the Barry M. Goldwater Range in 
Arizona, DHS ignores the findings and waives NEPA, the Endangered 
Species Act, Migratory Bird Treaty Act, Clean Water Act, and others 
laws to move ahead with building the wall.
July-August, 2007--DHS Denies Public Participation
    <bullet>  DHS's Environmental Assessments of the impact of the 
border wall on San Pedro Riparian National Conservation Area and Buenos 
Aires National Wildlife Refuge are completed with no public comment 
period.
    <bullet>  DHS ignores Tohono O'odham Nation concerns about five 
cultural sites in the path of the proposed wall and issues a finding of 
``no significant impact'' despite threats to protected lands, 
endangered species, historical and cultural resources.
October, 2007--DHS Bulldozes Protected Area After Request to Stay 
        Construction is Filed
    <bullet>  Environmental groups file a request to stay construction 
of the border wall within San Pedro Riparian National Conservation Area 
until an adequate Environmental Impact Statement can be completed 
pursuant to NEPA.
    <bullet>  Bulldozing starts the very next day, a Saturday. (See 
Figure 2)

September-October, 2007--DHS Dismisses Environmental Impacts and Waives 
        19 Laws to Push Construction.
    <bullet>  Two citizen groups sue DHS for violating NEPA at San 
Pedro Riparian National Conservation Area in Arizona.
    <bullet>  A federal judge grants a temporary restraining order 
which confirms the government had rushed its decision and failed to 
meet its legal obligations under NEPA.
    <bullet>  DHS waives NEPA and 18 other laws, construction resumes 
immediately.

September-November 2007--DHS Forces Construction of Wall Determined to 
        be Incompatible with Wildlife Refuge.
    <bullet>  The Fish and Wildlife Service (FWS) manager of Buenos 
Aires National Wildlife Refuge in Arizona determines the border wall is 
``inconsistent with Service policy and is likely detrimental to the 
refuge's natural and cultural resources.''
    <bullet>  FWS is forced to decide between yielding ownership of 
Refuge land DHS wants for its walls, in exchange for an as-yet 
unidentified small land parcel, or facing the REAL-ID waiver and 
getting the wall but nothing else. FWS agrees to the land transfer.
    <bullet>  Before the land transfer is complete, DHS begins wall 
construction (See Figure 3).

April-December, 2007--DHS Ignores Citizens Concerns in Texas and 
        Threatens Refuge Habitat and Tourism.
    <bullet>  Texans raise strong concerns about the elimination of 
access to their irrigation source, the Rio Grande, the taking of 
private property, environmental and economic damage, and DHS's refusal 
to consider alternatives to border wall construction
    <bullet>  Tourism and wildlife are threatened on three national 
wildlife refuges in Texas, where the border wall will slice through at 
least 14 refuge tracts, fragmenting or eliminating habitat for numerous 
endangered or threatened species.

January, 2008--DHS Delivers Ultimatum to Citizens in Texas
    <bullet>  DHS brings ex parte (i.e. without the owners of the 
property present) condemnation actions against Texas landowners who do 
not cooperate with agency surveys.

February, 2008--DHS Ignores National Park Service Request
    <bullet>  DHS denies requests by the National Park Service to 
shorten a proposed border wall on the Organ Pipe Cactus National 
Monument by 90 feet to spare important columnar cacti and Sonoran 
desert tortoise habitat on Monument Hill.

April, 2008--DHS Announces Border-wide Waiver
    <bullet>  DHS Waives 35 Environmental, Health and Safety Laws 
across nearly 500 Miles of the border to avoid legal compliance and 
expedite fence and levee-wall construction projects (See Figure 1).
    <bullet>  DHS claims that it intends to comply with the intent of 
environmental laws it waived. DHS then proceeds to brush aside ongoing 
public processes and evaluation of alternatives required by the 
National Environmental Policy Act.
    <bullet>  DHS fails to appear before a congressional hearing 
regarding the impacts of border walls and waivers.
    In less than three years, Secretary Chertoff has invoked the REAL 
ID waiver authority on five occasions, to waive a broad variety of laws 
intended to protect wildlife and endangered species, clean air and 
water, historic and cultural sites, Native American sacred sites and 
burial grounds, and public health and safety. With each successive 
waiver, Secretary Chertoff has targeted more laws--many with no clear 
relation to proposed border wall construction. The most recent waiver 
signed by Secretary Chertoff on April 1st, 2008 waived 35 different 
federal laws across 470 miles--nearly a quarter of the U.S. southern 
border area. The laws waived included the Safe Drinking Water Act, 
Native American Graves Protection and Repatriation Act, the Religious 
Freedom Restoration Act, the National Environmental Policy Act, 
Endangered Species Act and the National Historic Preservation Act. No 
explanation was provided as to how these laws were chosen or why DHS 
needed to waive such fundamental protections for the construction of 
the border wall.
    There are significant and substantive effects to waiving laws and 
bypassing process and forcing construction without adequate 
consultation. In addition to the specific impacts to wildlife and 
public lands outlined in Part I of this testimony, there is also the 
opportunity cost of win-win solutions never developed or implemented.

Conclusion
    In its current rush to bypass the law in pursuit of arbitrary 
deadlines DHS has failed to properly analyze both direct and indirect 
impacts of ``walls and waivers'' at a regional scale. It has not 
adequately considered viable alternatives and they have failed to 
consult with those who know the most about the area and those who will 
be bear the brunt of the impacts of DHS decisions. The result of this 
type of uniformed and rash decision making has and will continue to 
result in greater environmental impacts, unanticipated problems, 
disgruntled communities and escalating financial and ecological costs. 
Unfortunately, we fear we are only beginning to understand the far-
reaching collateral impacts from walls and waivers upon our 
communities, precious natural areas and wildlife. As a country, we can 
and must to better.
    Defenders of Wildlife is doing what it can. We currently have a 
petition for certiorari pending before the Supreme Court to challenge 
the unchecked and unreviewable authority to waive any law as provided 
for under REAL ID. But much of the devastation from construction will 
already have happened by the time the Supreme Court is able to respond. 
It is incumbent on Congress to remedy its error in passing this 
dangerous and plainly unconstitutional provision in the first instance.
    The Congressional mandate for consultation needs to be enforced and 
DHS needs to be explicitly directed to consider viable alternatives to 
border infrastructure. In addition, the rule of law needs to be 
returned to the U.S. Citizens along the border in the form of a Repeal 
of the REAL ID waiver; Defenders of Wildlife supports Rep. Grijalva's 
proposal in H.R. 2593 to address this issue and we urge this Committee 
to take every action in its power to repeal section 102 of the REAL ID 
Act.
[GRAPHIC] [TIFF OMITTED] T1959.003

[GRAPHIC] [TIFF OMITTED] T1959.004

[GRAPHIC] [TIFF OMITTED] T1959.005

[GRAPHIC] [TIFF OMITTED] T1959.006

[GRAPHIC] [TIFF OMITTED] T1959.007

[GRAPHIC] [TIFF OMITTED] T1959.008

[GRAPHIC] [TIFF OMITTED] T1959.009

    [A List of documents retained in the Committee's official 
files follows:]
    <bullet>  Abolt, Steve, President, 7th U.S. Infantry Living History 
Association, Letter submitted for the record
    <bullet>  Alamo Inn, American Birding Association, Audubon Society 
of Western Pennsylvania, Coastal
    <bullet>  Habitat Alliance, Defenders of Wildlife, et al., 
Statement submitted for the record
    <bullet>  Bartholomew, Wayne, Executive director, Frontera Audubon 
Society, Letter submitted for the record
    <bullet>  Chapman, Karen, Water & Wildlife Analyst, Environmental 
Defense Fund, Statement submitted for the record
    <bullet>  Dewar, Ruth F., Ed.D., Pacific Palisades, California, 
Letter submitted for the record
    <bullet>  Irwin, Dorothy N., Nye Plantation, Brownsville, Texas, 
Letter submitted for the record
    <bullet>  Lopez, Genaro, Ph.D., Professor of Biology, University of 
Texas at Brownsville, Letter submitted for the record
    <bullet>  Lucio, Robert and Lucio, Diana, Ft. Brown Memorial Golf 
Course, Letter submitted for the record
    <bullet>  Madrid, Ruby and Enrique, Redford, Texas, Letter 
submitted for the record
    <bullet>  McKnight, Barbara, Austin, Texas, Letter submitted for 
the record
    <bullet>  Melton, Mary Ann, Mary Ann's View Nature Photography, 
Statement submitted for the record
    <bullet>  Merrill, Sarah Bishop, M.S., Ph.D., Recording Clerk, Rio 
Grande Valley Friends Meeting (Quakers). Also member, Sierra Club, 
National Energy Committee, and Lone Star Chapter, Letter submitted for 
the record
    <bullet>  Millard, Ann V., Edinburg, Texas, Letter submitted for 
the record
    <bullet>  Moore, Wayne, Brownsville, Texas, Letter submitted for 
the record
    <bullet>  Nicol, Scott, No Border Wall Coalition, Statement 
submitted for the record
    <bullet>  Payne, Richard H., Ph.D., President and CEO, American 
Birding Association, Letter submitted for the record
    <bullet>  Payne, Richard H., Ph.D., President & CEO, American 
Birding Association, Letter submitted for the record
    <bullet>  Perez, Betty, Brownsville, Texas, Letter submitted for 
the record
    <bullet>  Platt, Kamala, M.F.A., Ph.D., Edinburg, Texas, Letter 
submitted for the record
    <bullet>  Plitt, Walter E., III, Chairman, Palo Alto National Park 
Committee, Letter submitted for the record
    <bullet>  Roberts, S. Gary, President, Concerned Citizens Against 
the Border Wall, Letter submitted for the record
    <bullet>  Schwarz, Kurt R., Conservation Chair, Howard County Bird 
Club, Letter submitted for the record
    <bullet>  Schwarz, Kurt R., Conservation Chair, Howard County 
(Maryland) Bird Club, Letter submitted for the record
    <bullet>  Tamez, Eloisa G., RN, Ph.D., FAAN, San Benito, Texas, 
Letter submitted for the record
    <bullet>  Thompson, Susan, Penitas, Texas, Letter submitted for the 
record
    <bullet>  Whittle, John A., Secretary, Golden Triangle Audubon 
Society, Letter submitted for the record

                                 <all>

</pre></body></html>
